<html>
<title> - NASA'S SCIENCE MISSION DIRECTORATE: IMPACTS OF THE FISCAL YEAR 2007 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  NASA'S SCIENCE MISSION DIRECTORATE:
                    IMPACTS OF THE FISCAL YEAR 2007
                            BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2006

                               __________

                           Serial No. 109-38

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______
                U.S. GOVERNMENT PRINTING OFFICE
26-204PS               WASHINGTON : 2006
---------------------------------------------------------------------

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
BOB INGLIS, South Carolina           AL GREEN, Texas
DAVE G. REICHERT, Washington         CHARLIE MELANCON, Louisiana
MICHAEL E. SODREL, Indiana           DENNIS MOORE, Kansas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                            C O N T E N T S

                             March 2, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    13

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    16

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    17

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    18

                               Witnesses:

Dr. Mary L. Cleave, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    27

Dr. Joseph H. Taylor, Jr., Co-Chairman, National Academy of 
  Sciences Decadal Survey for Astrophysics; James S. McDonnell 
  Distinguished University Professor of Physics, Princeton 
  University
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    32

Dr. Fran Bagenal, Member, National Academy of Sciences Decadal 
  Survey for Sun-Earth Connections; Professor, Astrophysical and 
  Planetary Sciences, Laboratory for Atmospheric and Space 
  Physics, University of Colorado
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    42

Dr. Wesley T. Huntress, Jr., Member, National Academy of Sciences 
  Decadal Survey for Solar System Exploration; Director, 
  Geophysical Laboratory, Carnegie Institution of Washington
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    48

Dr. Berrien Moore III, Co-Chairman, National Academy of Sciences 
  Decadal Survey for Earth Sciences; Director, University 
  Distinguished Professor, Institute for the Study of Earth, 
  Oceans, and Space, University of New Hampshire
    Oral Statement...............................................    49
    Written Statement............................................    50
    Biography....................................................    54

Discussion
  Flagship Missions vs. Small Class Missions and R&A.............    55
  Status of Flagship Mission Budgets.............................    58
  Unfunded Priorities............................................    60
  Budget Reductions..............................................    62
  SOFIA..........................................................    63
  Effects of Budget Cuts on Climate Change.......................    66
  Coordination With NOAA.........................................    67
  Energy R&D vs. NASA R&D........................................    68
  NEOs...........................................................    70
  Money Lost If/When SOFIA Is Cut................................    70
  SOFIA's Future.................................................    71
  Astrobiology...................................................    73
  The Effects of the FY07 Budget Request.........................    74
  Offsets For SOFIA..............................................    76
  Science vs. Human Space Flight.................................    77

              Appendix: Answers to Post-Hearing Questions

Dr. Mary L. Cleave, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration.....    80

Dr. Joseph H. Taylor, Jr., Co-Chairman, National Academy of 
  Sciences Decadal Survey for Astrophysics; James S. McDonnell 
  Distinguished University Professor of Physics, Princeton 
  University.....................................................    93

Dr. Fran Bagenal, Member, National Academy of Sciences Decadal 
  Survey for Sun-Earth Connections; Professor, Astrophysical and 
  Planetary Sciences, Laboratory for Atmospheric and Space 
  Physics, University of Colorado................................    95

Dr. Wesley T. Huntress, Jr., Member, National Academy of Sciences 
  Decadal Survey for Solar System Exploration; Director, 
  Geophysical Laboratory, Carnegie Institution of Washington.....    98

Dr. Berrien Moore III, Co-Chairman, National Academy of Sciences 
  Decadal Survey for Earth Sciences; Director, University 
  Distinguished Professor, Institute for the Study of Earth, 
  Oceans, and Space, University of New Hampshire.................   103


  NASA'S SCIENCE MISSION DIRECTORATE: IMPACTS OF THE FISCAL YEAR 2007 
                            BUDGET PROPOSAL

                              ----------                              


                        THURSDAY, MARCH 2, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                  NASA's Science Mission Directorate:

                    Impacts of the Fiscal Year 2007

                            Budget Proposal

                        thursday, march 2, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 2, at 10 a.m., the House Committee on Science 
will hold a hearing to review the proposed fiscal year 2007 (FY07) 
budget for the Science Mission Directorate of the National Aeronautics 
and Space Administration's (NASA), and to examine how that budget would 
affect research in space science and Earth science.
    The proposed budget for science is a controversial aspect of NASA's 
FY07 budget request because it would result in the cancellation or 
delay of a number of missions and provides little funding for the 
initiation of any missions beyond those already in the queue for 
development or launch.

Witnesses

Dr. Mary Cleave is the Associate Administrator at NASA for the Science 
Mission Directorate.

Dr. Fran Bagenal is a member of the National Academy of Sciences 
Decadal Survey for Sun-Earth Connections, ``The Sun to the Earth and 
Beyond'' (2003). Dr. Bagenal is a Professor of Astrophysical and 
Planetary Sciences at the University of Colorado at Boulder.

Dr. Wes Huntress is a member of the National Academy of Sciences 
Decadal Survey for Solar System Exploration, ``New Frontiers in the 
Solar System'' (2003). Dr. Huntress is the Director of the Geophysical 
Laboratory at the Carnegie Institution of Washington and was Associate 
Administrator for Space Science at NASA from 1992 to 1998.

Dr. Berrien Moore is the Co-Chairman of the National Academy of 
Sciences Decadal Survey for Earth Sciences, ``Earth Observations from 
Space: A Community Assessment and Strategy for the Future'' (expected 
fall 2006). Dr. Moore is the Director for the Institute for the Study 
of Earth, Oceans, and Space at the University of New Hampshire.

Dr. Joseph H. Taylor, Jr. is the Co-Chairman of the National Academy of 
Sciences Decadal Survey for Astrophysics, ``Astronomy and Astrophysics 
in the New Millennium'' (2001). Dr. Taylor is a Nobel Laureate and 
Distinguished Professor of Physics at Princeton University.

Overarching Questions

    The Committee plans to explore the following overarching questions 
at the hearing:

        1.  How did NASA determine its science priorities for the FY07 
        budget? To what extent are NASA's priorities based on the 
        decadal surveys in which scientists determine the priorities 
        for their fields? Do those surveys need to be redone now that 
        science funding may be lower than was expected?

        2.  What impact would the proposed science budget have on the 
        research agenda of space and Earth scientists? What 
        technological advances and scientific discoveries may be 
        delayed or foregone and how significant a loss would that be?

        3.  To what extent would the proposed FY07 budget make it 
        difficult to attract or retain students or researchers in the 
        space and Earth sciences? What steps can be taken to ensure 
        that these fields remain healthy in an era of budgetary 
        constraints?

        4.  Has NASA provided an appropriate amount of money for 
        science in its FY07 budget request, given the competing needs 
        of science, aeronautics, the Space Shuttle and International 
        Space Stations programs and the Vision for Space Exploration?

Brief Overview

The Budget
    Under the Administration's proposal, spending for NASA's Science 
Mission Directorate would increase by 1.5 percent in FY07, to about 
$5.3 billion, which is about one-third of the total requested spending 
for all of NASA. The proposal projects one percent annual increases for 
the Science Mission Directorate in FY08-FY11. (Inflation is projected 
to increase at about 3.3 percent in FY07.)
    This is a significant turnabout from what was projected a year ago. 
In its FY06 budget request, the Administration projected that spending 
on the Science Mission Directorate would increase by about seven 
percent in FY07 and that the Directorate would experience further 
strong growth in the four ensuing years.
    All told, the FY07 budget request provides $3.1 billion less for 
the Science Mission Directorate for FY06 through FY10 than what had 
been projected as part of the FY06 budget request. NASA Administrator 
Michael Griffin testified on Feb. 16 that the money that was to have 
been spent on science would be used instead to fund the Space Shuttle 
program, which had been underfunded in the FY06 budget request 
projections. (Portions of the Exploration account were also reduced 
from earlier projected levels to cover Shuttle costs.) The cuts from 
the levels projected in FY06 will necessitate the cancellation or delay 
of missions and will make it difficult to initiate the formulation of 
any new missions. (Each mission spans many years from development 
through launch and operation.)
    The Science Mission Directorate has also had to reassess its 
research agenda because of cost growth in several of it missions. The 
reason for this growth varies by mission: in some cases, original 
estimates were too optimistic about how difficult it would be to 
develop the technology; in other cases, policy changes have resulted in 
a change in the purpose or nature of the mission. (The specific cases 
are discussed below.)
The Programs
    The Science Mission Directorate supports research in four major 
areas, each of which would see its program scaled back in the FY07 
budget. Research in Solar System Exploration or Planetary Sciences 
seeks to understand the nature of the other planets in our solar system 
as well as moons, asteroids, comets through launching orbiters, rovers 
and other landers, and fly-by missions. Research in Astrophysics seeks 
to understand the origins of the universe, the physical laws of the 
universe, the nature of matter and energy and other aspects of 
astronomy through orbiting space telescopes and other space-based 
instruments. Research in Heliophysics or Sun-Earth Connections seeks to 
understand the impacts of the Sun on the solar system (including such 
phenomena as the solar wind and solar flares) through spacecraft-based 
sensors. Research in Earth Science seeks to understand the Earth's 
land, atmosphere and oceans and the interactions among them through 
satellites that orbit the Earth.
    In each of these areas, the Directorate funds three types of 
activities, all of which would be scaled back. First, it funds major, 
flagship missions that require the cooperation of many scientists from 
NASA centers, universities and other research institutions to design, 
develop and operate. These missions are selected by NASA based on 
recommendations in scientific decadal surveys (see below). Second, it 
funds smaller, briefer, lower-cost missions that are selected through 
competitive peer review and that involve fewer institutions. Third, the 
Directorate funds research grants to scientists to study the data 
obtained by the missions through its Research and Analysis (R&A) 
programs. R&A funding is generally awarded through competitions.
The Scientific Community
    Unlike what happens in most fields of science, scientists in the 
fields supported by NASA get together every decade to agree on the 
priority missions necessary to keep their fields moving forward. These 
``decadal surveys'' are conducted under the auspices of the National 
Academy of Sciences (NAS) using funds from NASA. The non-NASA witnesses 
at the hearing participated in, or led (or are leading) the most recent 
decadal surveys in their fields.
    The most recent surveys were completed for Sun-Earth Connections 
(projects currently within the ``Earth-Sun System'' division) in 2003, 
Solar System Exploration in 2003, and Astrophysics (the ``Universe'' 
division) in 2001. The Survey for Earth Sciences is currently being 
conducted. The interim report was released in April 2005 (and discussed 
at a Science Committee hearing shortly thereafter), and the final 
report is due in late 2006.
    The decadal surveys are not based on any particular budget 
assumptions. The surveys do sometimes prioritize missions in different 
cost tiers rather than simply providing a single list of priorities.
Federal Agencies
    Other federal agencies fund research in the fields supported by 
NASA. The National Science Foundation (NSF) funds ground-based 
telescopes that are also used for astronomy and astrophysics. NASA and 
NSF appoint a joint advisory committee on astronomy and astrophysics as 
required by the National Science Foundation Act of 2002. The National 
Oceanic and Atmospheric Administration (NOAA) also supports Earth 
satellite missions. Generally, NOAA's missions are for ongoing 
operational purposes, in contrast to NASA's time-limited research 
missions. NASA often develops new technology for its missions that is 
later put to use by NOAA after it has proved successful. The NASA 
Authorization Act of 2005 requires greater coordination and joint 
reporting by NASA and NOAA. The Department of Energy (DOE) Office of 
Science funds basic research at colliders and other facilities on the 
nature of matter that is relevant to some of the questions NASA 
explores in astrophysics. NASA and DOE are working together on a Joint 
Dark Energy Mission.

Programmatic Details

Across the Directorate
    Several reductions from previous plans are common to all the 
programs in the Science Mission Directorate. The cuts that are proposed 
across the Directorate have drawn the loudest criticism from the 
scientific community because they would have a widespread impact on 
researchers and students.
    Funding for the smaller, lower-cost, competitively selected 
missions are cut throughout the Directorate. These missions, with their 
shorter development time, have been particularly important in training 
graduate students and other future scientists, as well as for rapidly 
addressing specific emerging scientific questions. The smaller mission 
programs include Explorer in the Solar System Exploration and Earth-Sun 
System divisions; Discovery in the Solar System Exploration division; 
and the Earth System Science Pathfinder (ESSP) program. Missions in 
these programs would be selected less frequently under the proposed 
FY07 budget. In the past, new missions were generally selected every 
two to three years. The FY07 budget would lengthen the gap between 
missions. For example, in the Earth Science program, the last new 
Pathfinder mission was selected in 2002, and, under the proposed 
budget, the next one is projected to be chosen no earlier than FY08.
    In addition, funding for R&A was cut by 15 to 20 percent in each of 
the Directorate's fields on top of a reduction in FY06. The R&A account 
provides funds to scientists to perform research on the data collected 
by the various missions. NASA argues that less money is needed for R&A 
because fewer new missions will be launched. But there is a backlog of 
existing data, and R&A is the primary source of ongoing funding for 
academic scientists and their students in the fields supported by NASA. 
(Mission funding is largely eaten up by the cost of building and 
operating the instruments being flown.)
Solar System Exploration
    Solar System Exploration is increased slightly (to $1.61 billion) 
compared to FY06 after sustaining significant cuts in FY06. That cut in 
FY06 resulted from the cancellation of several robotic missions to Mars 
that were intended more as precursors to a human mission than as 
scientific expeditions. In addition, Solar System Exploration would 
absorb the majority of the reductions from the projected spending that 
had been included in the FY06 budget proposal. From FY06 through FY10, 
the proposed FY07 budget provides $2.99 billion less than would have 
been spent under the FY06 projections. That cut also is largely due to 
the elimination of the Mars missions, which would have required 
continued spending over the period. NASA points out that even with 
these cuts, a new mission to Mars will be launched every 26 months. 
NASA also continues to operate several ongoing Mars missions, including 
the twin Mars rovers Spirit and Opportunity.
    The scientific community has not raised loud objections to the 
revamped Mars program as most of the missions that were canceled were 
not primarily designed for scientific purposes. The canceled missions 
include the Mars Telecommunications Orbiter, two Mars testbed missions, 
and future Mars human precursor missions. The Mars Sample Return 
mission to robotically bring back soil samples from the Martian surface 
is indefinitely deferred in the FY07 budget proposal.
    Another impact of the reduced spending on Solar System Exploration 
is that the program will not be launching a new, large, flagship 
mission for at least 10 years. (The recently launched mission to Pluto, 
New Horizons, does not qualify because it is a less elaborate mission 
that will just fly by Pluto and was developed differently.) No flagship 
mission could launch for at least a decade because there is no such 
mission in development and no funds are provided in the FY07 budget 
runout to begin development on one. Previous flagship missions have 
included the Cassini mission to Saturn, the Galileo mission to Jupiter, 
and the Viking mission to Mars.
    The highest-ranked mission in the most recent decadal survey for 
Solar System Exploration is a mission to Europa, a moon of Jupiter that 
may have, or may have had in the past, liquid water. NASA has started 
work on a Europa mission in the past, but then has pulled back for 
various reasons. (The most recent effort was canceled a couple of years 
ago when a program to create a nuclear propulsion system for the 
mission was stopped.) There is no money in the proposed FY07-FY11 
budget for a mission, although Congress directed NASA in the FY06 
Science, State, Justice Commerce Appropriations Act (P.L. 109-108) to 
begin planning a mission to Europa and include it as part of its FY07 
budget. NASA points out that a mission to Saturn's moon, Titan, that 
sent back data after the decadal survey may indicate that Titan would 
be a better target for a mission than Europa.
    Also under Solar System Exploration, the FY07 budget proposal cuts 
the Astrobiology program by 50 percent. NASA argues that the field is 
less pressing because no human mission to Mars is imminent. But it is 
not clear why such a mission would be the sole or even the primary 
reason to study the origins, evolution, distribution, and future of 
life in the universe, or the search for potentially inhabited planets 
beyond our Solar System.
    Solar System Exploration also received the largest reduction to R&A 
of all the NASA Science divisions because of the significant cut in its 
overall missions rate and budget.
Astrophysics (which NASA sometimes calls ``Universe'')
    Under the proposed FY07 budget, Astrophysics would see a small 
increase of about $2 million to $1.51 billion and then would begin to 
decline in FY08, ending in FY11 at about $1.31 billion. The total 
proposed over FY06-FY10 is about $380 million less than what had been 
projected in the FY06 budget proposal.
    Astrophysics also would defer and may cancel several missions under 
the FY07 proposal. But in addition to the overall budget, Astrophysics 
needs to contend with significant cost overruns in a number of its 
missions, including its top priority, the James Webb Space Telescope 
(JWST), the follow-on to the Hubble Space Telescope. The FY07 budget 
also includes money for the servicing mission to the Hubble (excluding 
the cost of the Shuttle launch itself), which had not been included in 
the FY06 budget plan. Overall, funding has been provided for the large, 
long-term priorities like Webb and Hubble, while projects that were to 
begin development in the next several years, such as the search for 
extra-solar planets and the study of ``dark energy,'' have been 
deferred.
    NASA is planning a Shuttle mission to service the Hubble in 2008, 
assuming the next Shuttle flight shows the vehicle can operate safely. 
Over the last several years, NASA has implemented conservation measures 
to help extend the life of the batteries and gyros on Hubble so that it 
should remain operational into 2008. To pay for continued operations 
and preparations for the planned servicing mission, the FY07 budget 
increases funding for Hubble.
    The FY07 proposal increases funding for JWST to cope with the 
projected $1 billion cost growth, and pushes back the launch two years 
to 2013. JWST is ranked as the top priority in the astronomy and 
astrophysics decadal survey. NASA is reviewing the program now, and 
expects to have a better handle on JWST cost estimates this spring, 
which will be reflected in the FY08 budget. Under its standard review 
processes, NASA will not make a final decision on launching JWST until 
next January.
    The Stratospheric Observatory for Infrared Astronomy (SOFIA) 
program is zeroed out in the FY07 budget, but is under review. The 
SOFIA observatory, a heavily modified Boeing 747 carrying an infrared 
telescope, is a joint program with the German Aerospace Center. The 
project is significantly over budget and behind schedule. SOFIA was 
planned to work in conjunction with the Spitzer telescope, currently in 
operation, but now would have little overlap with Spitzer. SOFIA is 
still funded in FY06, but NASA has directed that no new work be started 
until the review is completed. A final decision on SOFIA is expected in 
the next few months. If NASA decides to allow the program to proceed, 
it will look for cuts in other programs to find the funding.
    The Navigator program, a series of ground-based and space-based 
telescopes used to detect planets around other stars, is cut 
significantly in the FY07 proposal. The programs under Navigator are 
the Space Interferometry Mission (SIM), the Terrestrial Planet Finder 
(TPF), the Keck Interferometer, and the Large Binocular Telescope 
Interferometer (LBTI). SIM is under review with a launch date of no 
earlier than 2015, pushed back from earlier projections of 2009 or 
2011. TPF, which has had technical problems, has been deferred 
indefinitely. The Keck Interferometer is in operation, but proposed 
upgrades to improve performance are canceled.
    The Beyond Einstein program fares poorly in the FY07 proposal. The 
program would receive 66 percent less over the FY06-FY10 period than 
had been projected in FY06. Beyond Einstein is designed to observe 
phenomena predicted by theoretical physics, such as phenomena that 
would shed light on the Big Bang, black holes, and the existence of a 
``dark energy.'' NASA plans to proceed with studies related to the 
missions in FY07. Missions being studied the Joint Dark Energy Mission, 
which would be run in conjunction with the Department of Energy.
Earth-Sun Systems
    In the FY07 budget Earth-Sun Systems is treated as a single unit, 
although NASA is running the programs now through two separate 
divisions, Heliophysics (Sun-Earth Connections) and Earth Science.
    The FY07 budget for Earth-Sun Systems provides about $302 million 
more than had been included in the FY06 budget for the division in 
FY06-FY10. The total proposed funding of about $2.2 billion in FY07 
would be an increase of about $50 million over FY06.
    But the proposed budget has still raised scientific concerns both 
because the FY06 baseline was a significant drop from previous years--
the interim decadal survey called it ``alarming''--and because the 
budget must accommodate increased costs for two projects related to 
problems with a satellite program run by the National Oceanic and 
Atmospheric Administration (NOAA).
    Under the proposed FY07 budget, the flagship Earth Science mission 
will be delayed for budgetary reasons and virtually no funding is 
provided for any mission not already in development.
    Most of the proposed increased funding will be directed instead 
toward two missions connected to the problem-plagued weather satellite 
program, the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS). (NPOESS, which is run jointly by NOAA, the 
Air Force and NASA, is currently under review because it is more than 
25 percent over budget and several years behind schedule. The Science 
Committee held a hearing on the program last fall.) The two missions 
are the NPOESS Preparatory Project (NPP), a precursor to NPOESS, and 
the Landsat Data Continuity Mission (LDCM). NPP has been delayed 
significantly because of technical problems with sensor development 
overseen by NOAA and the Air Force, thus increasing the total cost of 
the program. Landsat was originally to have flown as part of NPOESS--a 
White House decision--but now technical problems with that arrangement 
and the overall problems with NPOESS have led the White House to change 
course and have Landsat fly as a separate mission. Landsat satellites 
have been circling the Earth for decades providing large-scale imagery.
    The flagship Earth Science mission is the Global Precipitation 
Measurement (GPM) mission, a joint U.S.-Japanese project intended to 
improve climate and weather prediction through more accurate and more 
frequent precipitation measurements. It was originally scheduled for 
launch in 2008. In the FY07 budget plan, the launch of GPM has been 
delayed to 2012. In its interim report, the Earth Sciences decadal 
survey recommended that the GPM mission ``be launched without further 
delays.'' There is a growing concern among scientists that further 
delays in this program could have serious consequences for the 
international partnership, such as the loss of Japanese support for the 
program.

Questions for the Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Dr. Mary Cleave
    Please briefly explain the President's FY07 budget request for 
NASA's Science Mission Directorate and answer the following questions:

        <bullet>  How did NASA decide what missions to defer or cancel 
        in response to the reduced spending growth for the Science 
        Mission Directorate? Was funding first allocated among the 
        different divisions or did you begin by evaluating missions 
        across the entire directorate? To what extent did you consult 
        with the scientific community in determining how to distribute 
        the available funds?

        <bullet>  What is NASA doing to ensure that the U.S. will 
        continue to have a robust scientific enterprise in the fields 
        supported by your directorate and will be able to continue to 
        attract new students and researchers? To what extent will this 
        be affected by the proposed cutbacks in Research and Analysis 
        and how was the size of those proposed cutbacks be determined? 
        To what extent does the proposed budget allow for the 
        initiation of new missions that are not already in the queue?

        <bullet>  If the directorate were to receive more funding than 
        that in the proposed FY07 budget, what would be the first 
        projects to be restored?

        <bullet>  Are there any changes you would like to see in the 
        National Academies Decadal Survey process to help you now or in 
        the years ahead?

Questions for Dr. Fran Bagenal

        <bullet>  What do you see as the most serious impacts on your 
        field of the proposed slowed growth in the Science Mission 
        Directorate? Clearly, it would be better to conduct more 
        science than less, but what is the real harm in delaying 
        specific missions? At what point do delays or cutbacks become 
        severe enough to make it difficult to retain or attract 
        scientists or engineers to your field?

        <bullet>  Do you believe the decisions NASA has made concerning 
        which missions to defer or cancel are consistent with the most 
        recent National Academies Decadal Survey that you released? 
        Have there been any developments since the Decadal Survey that 
        need to be taken into account, and has NASA considered those? 
        Given the FY07 budget request, do you see any need to update 
        the most recent survey or to change the process for the next 
        Decadal Survey?

        <bullet>  How should NASA balance priorities among the various 
        disciplines supported by its Science Mission Directorate? Do 
        you believe the proposed FY07 budget, given the overall level 
        of spending allotted to science, does a good job of setting 
        priorities across fields?

Questions for Dr. Wes Huntress

        <bullet>  What do you see as the most serious impacts on your 
        field of the proposed slowed growth in the Science Mission 
        Directorate? Clearly, it would be better to conduct more 
        science than less, but what is the real harm in delaying 
        specific missions? At what point do delays or cutbacks become 
        severe enough to make it difficult to retain or attract 
        scientists or engineers to your field?

        <bullet>  Do you believe the decisions NASA has made concerning 
        which missions to defer or cancel are consistent with the most 
        recent National Academies Decadal Survey that you released? 
        Have there been any developments since the Decadal Survey that 
        need to be taken into account, and has NASA considered those? 
        Given the FY07 budget request, do you see any need to update 
        the most recent survey or to change the process for the next 
        Decadal Survey?

        <bullet>  How should NASA balance priorities among the various 
        disciplines supported by its Science Mission Directorate? Do 
        you believe the proposed FY07 budget, given the overall level 
        of spending allotted to science, does a good job of setting 
        priorities across fields?

Questions for Dr. Berrien Moore

        <bullet>  What do you see as the most serious impacts on your 
        field of the proposed slowed growth in the Science Mission 
        Directorate? Clearly, it would be better to conduct more 
        science than less, but what is the real harm in delaying 
        specific missions? At what point do delays or cutbacks become 
        severe enough to make it difficult to retain or attract 
        scientists or engineers to your field?

        <bullet>  Do you believe the decisions NASA has made concerning 
        which missions to defer or cancel are consistent with the 
        interim report of the National Academies Decadal Survey that 
        you released? Given the FY07 budget request, do you see any 
        need to change the process for the next Decadal Survey?

        <bullet>  How should NASA balance priorities among the various 
        disciplines supported by its Science Mission Directorate? Do 
        you believe the proposed FY07 budget, given the overall level 
        of spending allotted to science, does a good job of setting 
        priorities across fields?

Questions for Dr. Joseph H. Taylor, Jr.

        <bullet>  What do you see as the most serious impacts on your 
        field of the proposed slowed growth in the Science Mission 
        Directorate? Clearly, it would be better to conduct more 
        science than less, but what is the real harm in delaying 
        specific missions? At what point do delays or cutbacks become 
        severe enough to make it difficult to retain or attract 
        scientists or engineers to your field?

        <bullet>  Do you believe the decisions NASA has made concerning 
        which missions to defer or cancel are consistent with the most 
        recent National Academies Decadal Survey that you released? 
        Have there been any developments since the Decadal Survey that 
        need to be taken into account, and has NASA considered those? 
        Given the FY07 budget request, do you see any need to update 
        the most recent survey or to change the process for the next 
        Decadal Survey?

        <bullet>  How should NASA balance priorities among the various 
        disciplines supported by its Science Mission Directorate? Do 
        you believe the proposed FY07 budget, given the overall level 
        of spending allotted to science, does a good job of setting 
        priorities across fields?
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here this morning to our hearing 
on what is probably the most controversial and problematic 
aspect of NASA's proposed fiscal year 2007 budget, funding for 
its Science Mission Directorate. This morning's hearing is the 
first time that leading scientists and NASA have been together 
to have a public discussion of the proposed budget and its 
potential impacts. And we have before us today the perfect 
panel for that discussion: the head of NASA science and 
representatives of each of the four decadal surveys in which 
scientists agreed on a list of priorities for NASA funding. 
This is exactly the kind of interaction the Science Committee 
was created to foster.
    And our goal here this morning is to have a genuine 
conversation. I want to encourage as much give-and-take among 
the panel as possible. We have brought you together to hear not 
only what you have to say to us but what you have to say to 
each other. So I encourage you to engage your fellow panelists 
and to raise issues that you want each other to address.
    The model here is the hearing we had on the Hubble 
servicing mission, which I am sure Dr. Taylor remembers well 
and fondly, I hope.
    That is not to say that we don't have plenty of questions 
of our own. We want to understand exactly what is at stake if 
we reduce funding for science, as NASA has proposed. Let me 
emphasize that I am not just talking about hearing what is 
canceled or deferred. We need to know why doing something a few 
years later would make a difference. But perhaps most 
important, we need to hear whether, given the proposed level of 
funding, NASA has made the right choices about what to cancel 
or defer.
    In the written testimony, all four of our non-NASA 
witnesses indicated that NASA has gotten it wrong by trying to 
preserve flagship missions while cutting smaller missions and 
research grants because of the impact that will have on 
retaining and attracting scientists to the field. I want to 
pursue this issue thoroughly. Both NASA and the Congress need 
to have a better understanding of how to balance whatever cuts 
are made to assure the future of space science and Earth 
science.
    My goal today is to have an in-depth, informed discussion 
on the particulars of what NASA has proposed and of what 
research scientists are pursuing, not just to hear that 
everyone would like to have more money. I think we can 
stipulate that every person on the panel, including Dr. Cleave, 
would like to see more money for science. That is a given. Boy, 
I will sign up for that. What we need to understand is what 
would be lost if more money does not go to science, and again, 
even more importantly, what we should do if more money is not 
available or if only a little more money is available. That is 
what will make this hearing valuable and enable it to move our 
decision-making process forward.
    I say that as a strong supporter of NASA's science 
programs. I have laid out my position pretty clearly in the 
past few weeks, so I won't take much time to do it again now. 
Let me just say that I see science as the most successful 
aspect of NASA, one that expands the human mind, excites 
students, pushes technology, provides vital information about 
our own planet, and helps make the United States a world 
leader. I want to do everything in my power to protect NASA 
science, but to do so, what I need this morning is information, 
not rhetoric.
    We have before us sort of a ``dream team'' for that 
purpose, and I look forward to hearing from all of you.
    [The prepared statement of Chairman Boehlert follows:]
          Prepared Statement of Chairman Sherwood L. Boehlert
    I want to welcome everyone here this morning to our hearing on what 
is probably the most controversial and problematic aspect of NASA's 
proposed fiscal 2007 budget--funding for its Science Mission 
Directorate. This morning's hearing is the first time that leading 
scientists and NASA have been together to have a public discussion of 
the proposed budget and its potential impacts.
    And we have before us today the perfect panel for that discussion--
the head of NASA science and representatives of each of the four 
decadal surveys in which scientists agreed on a list of priorities for 
NASA funding. This is exactly the kind of interaction the Science 
Committee was created to foster.
    And our goal here this morning is to have a genuine conversation. I 
want to encourage as much give-and-take among the panel as possible; 
we've brought you together to hear not only what you have to say to us, 
but what you have to say to each other. So I encourage you to engage 
your fellow panelists and to raise issues that you want each other to 
address. The model here is the hearing we had on the Hubble servicing 
mission, which I'm sure Dr. Taylor remembers well--and fondly, I hope.
    That's not to say that we don't have plenty of questions of our 
own. We want to understand exactly what is at stake if we reduce 
funding for science as NASA has proposed. Let me emphasize that I'm not 
just talking about hearing what's canceled or deferred; we need to know 
why doing something a few years later would make a difference.
    But perhaps most important, we need to hear whether, given the 
proposed level of funding, NASA has made the right choices about what 
to cancel or defer. In the written testimony, all four of our non-NASA 
witnesses indicate that NASA has gotten it wrong by trying to preserve 
flagship missions while cutting smaller missions and research grants 
because of the impact that will have on retaining and attracting 
scientists to the field. I want to pursue that issue thoroughly. Both 
NASA and the Congress need to have a better understanding of how to 
balance whatever cuts are made to ensure the future of space science 
and Earth science.
    My goal today is to have an in-depth, informed discussion on the 
particulars of what NASA has proposed and of what research scientists 
are pursuing, not just to hear that everyone would like more money. I 
think we can stipulate that every person on the panel, including Dr. 
Cleave, would like to see more money for science. What we need to 
understand is what would be lost if more money does not go to science 
and, again, even more importantly what we should do if more money is 
not available or if only a little more money is available. That's what 
will make this hearing valuable and enable it to move our decision-
making process forward.
    I say that as a strong supporter of NASA's science programs. I have 
laid out my position pretty clearly in the past few weeks, so I won't 
take much time to do so again now. Let me just say that I see science 
as the most successful aspect of NASA, one that expands the human mind, 
excites students, pushes technology, provides vital information about 
our own planet, and helps make the U.S. a world leader. I want to do 
everything in my power to protect NASA science. But to do so, what I 
need this morning is information, not rhetoric.
    We have before us a sort of ``dream team'' for that purpose. And I 
look forward to hearing from all of you.

    Chairman Boehlert. And now it is my pleasure to recognize 
the Ranking Member, Mr. Gordon of Tennessee.
    Mr. Gordon. Thank you, Mr. Chairman.
    I, as usual, concur with your concern about the future of 
our NASA science program, and I am glad we do have such a good 
panel here to discuss it.
    I do feel compelled to share one concern that I am sure Dr. 
Ehlers would share with me, too, and that is that NASA seems to 
be taking a devious new approach to dealing with Congress and 
with the public. And that is, they send us likable, 
knowledgeable individuals up here that give open and honest 
answers and admit the problems that they face. That is very 
clever, but we still have to do our job here.
    So today's hearing is focused on two important components 
of NASA's overall science enterprise: its space and Earth 
science programs. Those programs have generated many of the 
discoveries, imagery, and inspiration that have engaged the 
American public in the excitement and wonder of space 
exploration.
    Moreover, NASA's science programs have helped to nurture 
and develop successive generations of scientists and engineers 
through university-based research, participation in space 
science missions, and data analysis.
    In addition, NASA's science programs have long been marked 
by the high degree of productive international cooperation and 
collaboration. In other words, NASA's science programs have 
amply demonstrated the wisdom of the Nation's investment in 
them.
    In that regard, when the President announced his 
Exploration Initiative two years ago, we were promised a robust 
science program at NASA with a healthy annual funding rate and 
an impressive set of future missions. As we know, that has not 
happened.
    In the two years since the fiscal year 2005 budget request 
was submitted, the Administration has cut more than $4 billion 
from the funding plans of NASA's space, Earth, and science 
programs.
    In addition, while not the focus of today's hearing, I 
would also point out that NASA's life science and microgravity 
research programs have been decimated over the last two years, 
and funding for the ISS research has been cut back to the point 
where it is unclear exactly what use NASA intends to make of 
the ISS.
    Returning to NASA's space and Earth science programs, let 
me take a moment to list some of the impacts of the proposed 
reductions. Namely, the fiscal year 2007 budget request would 
cut funding for research and analysis, the funding that helps 
support university-based space and Earth science research by 
$350 to $400 million over the next five years, including a 50-
percent reduction in fundamental research in astrobiology.
    The Explorer program would be cut, and researchers working 
on a competitively selected Small Explorer mission would have 
their mission canceled for budgetary reasons without even prior 
review. Funding for robotic exploration of the solar system 
would be cut significantly relative to what had been projected 
just two years ago.
    NASA's planet finding program, which was featured 
prominently in the President's Exploration Initiative, is in 
disarray as a result of this budget request. The SOFIA mission 
being developed jointly with Germany, while officially ``under 
review,'' is given no funding in the fiscal year 2007 budget 
request. The Beyond Einstein Initiative would be delayed 
indefinitely.
    The GPM mission, one of the highest scientific priorities 
of the Earth science research community, would be delayed two 
and a half years. I could go on, but you get the picture.
    And as some of our witnesses will point out in their 
testimony, these proposed actions run directly counter to the 
spirit and intent of the President's own American 
Competitiveness Initiative.
    In fairness, the NASA Administrator has said that he is not 
happy about the need to make cuts in the science programs, but 
he characterizes the cuts as ``just a temporary situation that 
will be corrected when the Shuttle is retired.'' I would like 
to believe that he is right, however, I am afraid I cannot 
share his confidence and optimism based on the facts at hand.
    We have already seen that for the past two years this 
Administration has been unwilling to fund NASA at the levels 
that it said NASA would need. And over those same two years, 
NASA has shifted billions of dollars out of its space and Earth 
science programs. I hope the Associate Administrator can give 
me credible assurances that that won't happen again next year 
or the year after.
    At the same time, as the Shuttle program is ending in 2010, 
NASA plans to call for a major increase in funding requirements 
for its Exploration Initiative to pay for the heavy launch 
vehicle, the lunar lander, and other exploration-related 
hardware programs. It looks like any Shuttle dividend will be 
going to fund human exploration, not to cover science funding 
shortfalls. I hope I am wrong, and I hope that Dr. Cleave will 
be able to shed some light on the plans for science funding 
beyond this budget request.
    And despite the President's call for an integrated program 
of human and robotic exploration of the solar system, I am 
concerned that science has become an afterthought in the 
Agency's Exploration Initiative, largely decoupled from the 
Exploration Initiative and vulnerable to being cut back, as 
necessary, to pay for the human exploration hardware. That 
worries me, and I hope that Dr. Cleave will clarify the role 
that her office is playing in determining the scientific 
priorities that NASA will pursue in its Exploration Initiative. 
Maximizing the Nation's scientific return should be a prime 
determinant of NASA's approach to human exploration and not an 
after-the-fact justification.
    But we have a great deal to discuss today, and I--and a 
distinguished set of witnesses to help us sort through these 
tough problems.
    So once again, I welcome you all.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Gordon follows:]
            Prepared Statement of Representative Bart Gordon
    Good morning. I want to welcome the witnesses to today's hearing.
    Today's hearing is focused on two important components of NASA's 
overall science enterprise--its space and Earth science programs. Those 
programs have generated many of the discoveries, imagery, and 
inspiration that have engaged the American public in the excitement and 
wonder of space exploration.
    Moreover, NASA's science programs have helped to nurture and 
develop successive generations of scientists and engineers through 
university-based research, participation in space science missions, and 
data analysis.
    In addition, NASA's science programs have long been marked by a 
high degree of productive international cooperation and collaboration. 
In other words, NASA's science programs have amply demonstrated the 
wisdom of the Nation's investment in them.
    In that regard, when the President announced his exploration 
initiative two years ago, we were promised a robust science program at 
NASA with a healthy annual funding rate and an impressive set of future 
missions. As we now know, that's not what happened.
    In the two years since the FY 2005 budget request was submitted, 
the Administration has cut more than $4 billion from the funding plans 
for NASA's space and Earth science programs.
    In addition, while not the focus of today's hearing, I would also 
point out that NASA's life science and microgravity science research 
programs have been decimated over the last two years and funding for 
ISS research has been cut back to the point where it is unclear exactly 
what use NASA intends to make of the ISS.
    Returning to NASA's space and Earth science programs; let me take a 
moment to list some of the impacts of the proposed reductions. Namely, 
the FY 2007 budget request would cut funding for research and 
analysis--the funding that helps support university-based space and 
Earth science research--by $350 to $400 million over the next five 
years, including a 50 percent reduction in fundamental research in 
astrobiology.
    The Explorer program would be cut, and researchers working on a 
competitively selected Small Explorer mission would have their mission 
canceled for budgetary reasons without even a prior review. Funding for 
robotic exploration of the solar system would be cut significantly 
relative to what had been projected just two years ago.
    NASA's planet finding program--which was featured prominently in 
the President's exploration initiative--is in disarray as a result of 
this budget request. The SOFIA mission being developed jointly with 
Germany, while officially ``under review,'' is given no funding in the 
FY 2007 budget request. The Beyond Einstein initiative would be delayed 
indefinitely.
    The GPM mission, one of the highest scientific priorities of the 
Earth Science research community, would be delayed two and a half 
years. I could go on, but I think you get the picture.
    And as some of our witnesses will point out in their testimony, 
these proposed actions run directly counter to the spirit and intent of 
the President's own American Competitiveness Initiative.
    In fairness, the NASA Administrator has said that he is not happy 
about the need to make cuts to the science programs, but he 
characterizes the cuts as just a temporary situation that will be 
corrected when the Shuttle is retired.
    I'd like to believe that he is right. However, I'm afraid I can't 
share his confidence based on the facts at hand.
    We've already seen that for the past two years this Administration 
has been unwilling to fund NASA at the levels that it said NASA would 
need. And over those same two years, NASA has shifted billions of 
dollars out of its space and Earth science programs.
    I hope that the Associate Administrator can give me credible 
assurances that that won't happen again next year or the year after.
    At the same time as the Shuttle program is ending in 2010, NASA's 
plans call for a major increase in the funding requirements for its 
exploration initiative to pay for the heavy lift launch vehicle, the 
lunar lander, and other exploration-related hardware programs.
    It looks like any Shuttle dividend will be going to fund human 
exploration, not to cover science funding shortfalls. I hope I'm wrong, 
and I hope that Dr. Cleave will be able to shed some light on the plans 
for science funding beyond this budget request.
    And despite the President's call for an integrated program of human 
and robotic exploration of the solar system, I am concerned that 
science has become an afterthought in the Agency's exploration 
initiative--largely decoupled from the exploration initiative and 
vulnerable to being cut back as necessary to pay for the human 
exploration hardware.
    That worries me, and I hope that Dr. Cleave will clarify the role 
that her office is playing in determining the scientific priorities 
that NASA will pursue in its exploration initiative. Maximizing the 
Nation's scientific return should be a prime determinant of NASA's 
approach to human exploration, not an after-the-fact justification.
    Well, we have a great deal to discuss today, and a distinguished 
set of witnesses to help us sort through some tough issues. I again 
want to welcome them, and I yield back the balance of my time.

    Chairman Boehlert. The Chair is pleased to recognize the 
distinguished Chair of the Subcommittee on Space and 
Aeronautics, Mr. Calvert.
    Mr. Calvert. Good morning. Mr. Chairman, I would like to 
welcome Dr. Cleave and welcome her aboard and the rest of the 
distinguished witnesses today and look forward to hearing their 
testimony. Today's panel is certainly quite impressive with its 
wide range of scientific backgrounds. Our nation is lucky to 
have such distinguished advisors for the direction that Earth 
sciences should take, and we certainly thank all of you for 
your service.
    Last 4th of July, I went to the Jet Propulsion Laboratory 
to see the Deep Impact as it collided with a comet. I certainly 
looked in awe at the pictures that we were getting from the 
Hubble Space Telescope. I have watched news programs showing 
our Mars rovers just keep on going. This is what great nations 
do: explore. And we must keep it up--these investments in 
exploration in science and in aeronautics.
    We are certainly aware that NASA Administrator Mike Griffin 
is overseeing the delicate balance of the programs within his 
portfolio. Although the Administration is operating in a--
certainly a tight budget environment, 2007 NASA did receive a 
small increase over the fiscal year 2006 level. Now that 
Congress has legislative endorsement for the Vision for Space 
Exploration in our NASA authorization bill of 2005, we must 
begin funding this program and its crew exploration vehicle at 
certainly an efficient level.
    We are all aware of the need to keep our nation 
competitive. NASA is an important part of the investment that 
our country must make to keep us at the leading edge. While we 
may not like the fact that the available resources that allow 
the science programs at NASA to be funded only at a 1.5 percent 
increase, this important sector of NASA budget is still about 
one-third of its total budget. This is a lean budget year, and 
we must maximize every penny.
    With the guidance of those scientists from the National 
Academies, I am confident that we are investing in the science 
that is most important to this country and to the world. I look 
forward to hearing from Dr. Cleave and our distinguished panel 
on how we will keep the United States at the forefront 
scientifically.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Chairman Calvert follows:]
               Prepared Statement of Chairman Ken Calvert
    Mr. Chairman, I welcome Dr. Cleave and the rest of our 
distinguished witnesses today and look forward to hearing their 
testimony. Today's panel is quite impressive with its wide range of 
scientific backgrounds. Our nation is lucky to have such distinguished 
advisers for the direction that our sciences should take. We thank you 
for your service.
    Last Fourth of July, I went to the Jet Propulsion Laboratory to see 
Deep Impact as it collided with a comet; I have looked in awe at the 
pictures that we are getting from the Hubble Space Telescope; I have 
watched news programs showing our Mars rovers just keep going. This is 
what great nations should do--explore! We must keep up these 
investments--in exploration, in science, and in aeronautics.
    We are all aware that NASA Administrator Griffin is overseeing a 
delicate balance of the programs within his portfolio. Although the 
Administration is operating in a tight budget environment, in FY 2007, 
NASA did receive a small increase over the FY 2006 level. Now that the 
Congress has legislated its endorsement for the Vision for Space 
Exploration in our NASA Authorization of 2005, we must begin funding 
this program and its Crew Exploration Vehicle at an efficient level.
    We are all aware of the need to keep our nation competitive--NASA 
is an important part of the investment that our country must make to 
keep us at the leading edge. While we may not like the fact that 
available resources allow the Science programs at NASA to be funded at 
only a 1.5 percent increase, this important sector of NASA's budget is 
still about one-third of its total budget.
    This is a lean budget year and we must maximize every penny. With 
the guidance of those scientists from the National Academies, I am 
confident that we are investing in the science that is most important 
to this country and to the world. I look forward to hearing from Dr. 
Cleave and our distinguished panel on how we will keep the United 
States at the forefront scientifically.

    Chairman Boehlert. Thank you very much, Mr. Chairman.
    The Chair is pleased to recognize the distinguished 
gentleman from Colorado, the Ranking Member of the 
Subcommittee, Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Good morning. I want to welcome all of you to the panel 
today and particularly acknowledge Dr. Bagenal who is here from 
the University of Colorado, which I am proud to represent.
    I want to be brief, as have been all of my colleagues, 
because we want to hear from you today, but I did want to make 
a couple of points.
    Many have referred to NASA's science programs as the crown 
jewels of NASA, and I think that is an apt characterization. 
The science activities of NASA, whether they involve missions 
to Pluto, scientific satellites observing the Earth, space-
based observatories peering out to the farthest reaches of the 
universe, or researchers at university labs working on space, 
Earth, and life sciences research all have the potential to 
advance our knowledge, inspire our youth, and improve the 
quality of life here on Earth.
    That is not to say human exploration is not important. I 
think all of us, and I do, in particular, support an integrated 
program of human and robotic exploration. It makes good sense, 
and it will deliver many benefits to all of us over the long 
run.
    But we are not off to a good start when billions of dollars 
are cut from NASA's science programs within the first two years 
of the President's Initiative. Even more troubling is the fact 
that some of these cuts are damaging the university-based 
research that is critical to train the next generation of 
scientists and engineers.
    At our recent hearing with Dr. Griffin, he stated that he 
had asked Dr. Cleave to review the proposed research and 
analysis cuts. And hope today, Dr. Cleave, that you may be able 
to report on the status of that review.
    I would like to, in closing, though, make my position 
clear. I believe that those R&A cuts are ill-advised, and I 
intend to work with my colleagues to correct the situation as 
Congress considers the NASA funding request.
    To use another analogy, in many respects, NASA's science 
programs are the Agency's intellectual seed corn. The fiscal 
year 2007 budget puts that seed corn at risk, and I think that 
is a mistake.
    We have a thoughtful set of experts whose testimony will be 
very helpful to us as we grapple with the implications of 
NASA's budget plan.
    Thanks again for your participation.
    And Mr. Chairman, if I have any time left, I would like to 
yield it back.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    Good morning. I'd like to join my colleagues in welcoming the 
witnesses to today's hearing, and I'm pleased to see that Dr. Fran 
Bagenal from the University of Colorado is part of the distinguished 
panel that will be testifying today. Welcome to all of you.
    I will be brief in my remarks, because I believe that much of the 
prepared testimony echoes the concerns that I have about the direction 
NASA is headed.
    Some have referred to NASA's science programs as NASA's ``crown 
jewels.'' That's an apt characterization.
    NASA's science activities--whether they involve missions to Pluto, 
scientific satellites observing the Earth, space-based observatories 
peering out to the farthest reaches of the universe, or researchers at 
university labs working on space, Earth, and life sciences research--
all have the potential to advance our knowledge, inspire our youth, and 
improve the quality of life here on Earth.
    That is not to say that human exploration is not also important--I 
strongly support an integrated program of human and robotic 
exploration. It makes good sense, and it will deliver many benefits to 
the Nation over the long run.
    However, we are not off to a good start when billions of dollars 
are cut from NASA's science programs within the first two years of the 
President's exploration initiative.
    Even more troubling, some of those cuts are damaging the 
university-based research that is critical to training the next 
generation of scientists and engineers.
    At our recent hearing with Administrator Griffin, he stated that he 
had asked Dr. Cleave to review the proposed Research and Analysis cuts. 
I hope that Dr. Cleave will be able to report on the status of that 
review today. I'd like to make my position clear, however.
    I believe that those R&A cuts are ill-advised, and I intend to work 
with my colleagues to correct the situation as Congress considers the 
NASA funding request.
    To use another analogy, in many respects NASA's science programs 
are the Agency's intellectual ``seed corn.''
    The FY 2007 budget request puts that ``seed corn'' at risk, and I 
think that's a mistake.
    Well, we have a thoughtful set of experts whose testimony will be 
very helpful to us as we grapple with the implications of NASA's budget 
plan.
    I want to thank them for their participation, and I look forward to 
hearing their testimony. I yield back the balance of my time.

    Chairman Boehlert. You are very gracious. Thank you very 
much, and we will accept that.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
the Committee to review the proposed fiscal year 2007 (FY07) budget for 
the Science Mission Directorate of the National Aeronautics and Space 
Administration (NASA), and to examine how that budget would affect 
research in space science and Earth science.
    The Science Mission Directorate supports research in four major 
areas: Solar System Exploration or Planetary Sciences, Astrophysics, 
Heliophysics, Earth Sciences. The valuable research has helped improve 
our knowledge and create new capabilities leading to advances in 
weather forecasting, storm warnings, and natural resource management.
    Each area of the Science Mission Directorate will see major cuts in 
the FY07 budget. These budget reductions have led NASA to delay, cancel 
or scale back most Earth science missions. NASA does not appear to have 
sufficient funds to launch some of the missions that it describes as 
being on schedule. Furthermore, NASA has few if any additional Earth 
science missions in the planning pipeline beyond the missions that have 
been in the works for years. If one of NASA's primary roles in the 
Earth sciences program is to build and launch research satellites to 
provide a deeper understanding of the basic processes governing the 
Earth's physical system, I am skeptical of NASA's ability to operate a 
successful Earth science program that lives up to its objectives. I 
would like to know what should be done to address the concerns 
expressed over the direction of NASA's Science Mission Directorate. 
Finally, it would be useful to find out what approach NASA took to 
determine the priority of each of its science programs in order to 
allocate the limited available funding among its agency.
    Again, I thank the witnesses for appearing today and look forward 
to their testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman and Ranking Member. Welcome to today's 
witnesses.
    I always like to point out how important NASA is to Texas. Since we 
are discussing NASA's Science Mission Directorate, I would also like to 
again remind everyone of the great number and variety of benefits NASA 
research has yielded.
    The all-important computer mouse originated from NASA research.
    NASA engineers pioneered cochlear implants to restore the ability 
to hear.
    NASA satellites track hurricanes, wildfires and volcanoes.
    NASA research has led to safer highways and better airplanes.
    NASA research has led to a greater understanding of Attention 
Deficit Disorder in children.
    NASA has even helped the wine industry determine best areas of a 
vineyard.
    NASA research stimulates the Texas economy and our national 
research enterprise.
    I am concerned that shifting priorities and moving targets are 
creating challenges for NASA. The Agency needs stability to be able to 
accomplish its mission effectively.
    It is my hope that the Agency will gain the stable funding it needs 
to carry out a strong scientific research program now and plan to meet 
future challenges.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Honda follows:]
         Prepared Statement of Representative Michael M. Honda
    I thank Chairman Boehlert and Ranking Member Gordon for holding 
this important hearing today, and I thank our distinguished witnesses 
for making the time to be here.
    I remember when Administrator Griffin said that the President's 
space exploration program would not cost science a thin dime, and 
looking at this budget, I have to marvel at how things have changed. 
The future of scientific activities within NASA, be it the science that 
falls within the Science Mission Directorate or that which supports 
exploration within the Exploration Systems Mission Directorate, looks 
bleak.
    Funding that was projected to grow 7-8 percent annually in last 
year's budget request only increases by 1.5 percent in this request, 
and the prospects for the future are sub-inflationary increases in the 
outyears. Overall, approximately $3 billion is being cut from NASA's 
science programs over the period FY06-10 relative to what had been 
assumed in last year's budget request for those years.
    At our hearing two weeks ago I asked Administrator Griffin about 
the review of the Stratospheric Observatory for Infrared Astronomy 
(SOFIA) called for in the budget request. He told us that there were 
concerns about the airworthiness of the airplane in which the telescope 
is to be mounted. I have since learned that this airplane is ready to 
proceed with flight testing, so I find his answer unsatisfactory, and I 
intend to pursue the matter further here today.
    Other concerns I have surround the cancellation of the NuSTAR 
Explorer mission, and the cuts faced by the Explorer program overall. I 
am also troubled by the decision to terminate the Deep Space Climate 
Observatory, which contributes not only to climate and climate change 
research but also to our understanding of the solar wind, which will 
have significant impacts on humans taking part in a mission to Mars. 
And Astrobiology is cut by 50 percent, more than all other programs 
within the Research and Analysis budget.
    These are but a few of the programs that this budget shortchanges, 
all in the name of extending tax cuts for the wealthiest Americans. At 
a time when the President is hyping a competitiveness initiative and 
trying to attract students to science and engineering, NASA is sending 
the message that it is an unreliable partner to the research and 
university communities, driving potential students away from fields 
that they cannot trust will still be viable in the coming years.
    I continue to disagree with the short range view NASA is taking to 
implement a very long range program, setting aside important scientific 
work to rush the development of a vehicle which I do not believe can be 
designed properly without some of the knowledge to be gathered by that 
science.

    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee
    Chairman Boehlert, Ranking Member Gordon, thank you for organizing 
this important hearing to discuss the impacts of the FY07 budget 
proposal on NASA's science mission directorate. I also want to welcome 
our distinguished panel of witnesses--Dr. Mary Cleave, Dr. Fran 
Bagenal, Dr. Wesley Huntress, Dr. Berrien Moore, and Dr. Joseph 
Taylor--and thank their for coming before our committee this morning.
    As a long time Member of House Science Subcommittee on Space and 
Aeronautics, as well as a Representative of the 18th Congressional 
District in Houston--home of the Johnson Space Center--I wholeheartedly 
support the work of NASA. I would like to congratulate NASA on their 
work and past successes, for which there are many. I firmly believe 
that the investment we make today in science will pay large dividends 
in the future. Similarly, I do not want to put a cap on the frontiers 
of our discovery, NASA should aim high and continue to push our nation 
at the forefront of space exploration.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


NASA CUTS

    Unfortunately, this President's own budget does not meet the 
demands of his ambitious agenda. Two years after the Administration 
laid out a five-year funding plan for NASA that was intended to 
demonstrate the affordability, sustainability and longevity of the 
exploration initiative. Now, the Administration proudly presents us 
with this funding plan that under funds the original request by over $4 
billion for space and Earth science.

SOFIA PROJECT

    I am particularly concerned about the Stratospheric Observatory for 
Infrared Astronomy project, known as SOFIA. The SOFIA system will house 
a high power telescope to a Boeing 747 aircraft to allow us to see in 
to the depths of space. The SOFIA development is 85 percent complete. 
U.S. funds invested in industry contracts to-date are about $500 
million. The work on SOFIA is being conducted in my home state of 
Texas. Given that SOFIA is almost complete and has cost the American 
taxpayers several hundred million dollars to date, how would NASA 
explain to taxpayers that it would be better to abandon the project now 
without at least completing it and finding someone to operate it going 
forward?

Dr. Mae Jemison Grant Program

    I would also like to talk about a very important amendment I added 
to the NASA Authorization bill recently passed. The amendment requires 
the Administrator to establish the Dr. Mae Jemison Grant Program to 
work with Minority Serving Institutions to bring more women of color 
into the field of space and aeronautics. This committee has met several 
times over the last month, and everyone agreed on the dire need to 
attract more people to the scientific fields. I am looking forward to 
see how this Grant Program will unfold. There was no money in the 
authorization bill for the program, and I hope, with your encouragement 
we can together fight for funding in the FY07 appropriations bill. 
Attracting and harnessing the talents of minorities into the sciences 
is an absolutely vital pursuit.

Conclusion

    The President stated that the fundamental goal of his directive for 
the Nation's space exploration program is ``. . .to advance U.S. 
scientific, security, and economic interests through a robust space 
exploration program.'' I could not agree more with that statement. As 
Members of this committee know, I have always been a strong advocate 
for NASA. My criticism of the President's budget and its relation to 
the vision for NASA is intended only to strengthen our efforts to move 
forward as we always have in the area of space exploration and 
discovery. NASA possesses an exciting opportunity to charter a new path 
that can lead to untold discoveries. As always I look forward to 
working with the good men and women of NASA as we continue to push the 
boundaries of our solar system.

    Chairman Boehlert. We have one panel today, and a very 
distinguished panel it is.
    But before introducing the panel, I want to acknowledge a 
transition. In our audience today, we are pleased to have 
Marcia Smith, who, this week, completed 30 years of service in 
the Congressional Research Service. She was a fountain of 
information and just wonderful and very able in serving this 
committee in terms of a source of information. She is now the 
Director of the Space Studies Board at the National Research 
Council. Ms. Smith, I am glad to have you here. Thank you so 
much for your past service, and we look forward to continued 
information flowing from you as part of my continuing education 
program.
    Now our panel of witnesses. Dr. Mary Cleave, Associate 
Administrator at NASA for the Science Mission Directorate. And 
I hope you observed from the opening statements that you have 
got a cheerleading squad up here that likes what you are doing. 
Dr. Joseph H. Taylor, Jr., Co-Chairman of the National Academy 
of Sciences Decadal Survey for Astrophysics, ``Astronomy and 
Astrophysics in the New Millennium.'' Dr. Taylor is a Nobel 
Laureate and distinguished professor of physics at Princeton 
University. Dr. Taylor. Dr. Fran Bagenal is a Member of the 
National Academy of Sciences Decadal Survey for Sun-Earth 
Connections, ``The Sun to the Earth and Beyond.'' Dr. Bagenal 
is a professor of astrophysical and planetary sciences at the 
University of Colorado at Boulder. Dr. Bagenal. Dr. Wes 
Huntress is a Member of the National Academy of Sciences 
Decadal Survey for Solar System Exploration, ``New Frontiers in 
the Solar System.'' Dr. Huntress is the Director of the 
Geophysical Laboratory at the Carnegie Institution of 
Washington and was Associate Administrator for Space Science at 
NASA from 1992 to 1998. Dr. Huntress. Dr. Berrien Moore is the 
Co-Chairman of the National Academy of Sciences Decadal Survey 
for Earth Sciences, ``Earth Observations from Space: A 
Community Assessment and Strategy for the Future.'' Dr. Moore 
is the Director for the Institute for the Study of Earth, 
Oceans, and Space at the University of New Hampshire. Dr. 
Moore. And Congressman Bass made sure that I acknowledged you 
in the right way, so it is good to have you here.
    Dr. Cleave, you are first up. And don't get disturbed by 
the clock. I am always offended by the fact that we expect you 
to summarize in 300 seconds or less everything you want to tell 
us. So we are going to run the clock to sort of guide you, and 
when the red light comes on, that means that you should begin 
to think in terms of wrapping it up. But we are pleased to have 
you here, Dr. Cleave. You are up first.

   STATEMENT OF DR. MARY L. CLEAVE, ASSOCIATE ADMINISTRATOR, 
  SCIENCE MISSION DIRECTORATE, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Cleave. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to appear today to discuss NASA's 
science program and our plans as represented in the President's 
2007 budget request for NASA.
    The past year has been a very significant one for us at 
NASA, and we would like to begin by highlighting just a few of 
the things that we have been able to do this year. With ICEsat 
we track significant changes in the Arctic sea ice extent, and 
GRACE satellite has made the first direct comprehensive mass 
survey of the Greenland ice sheet.
    We have Voyager I spacecraft, which has entered the vast 
turbulent expanse of the heliosheath, about 8.7 billion miles 
from the sun, and that is where no human-made object has ever 
traveled before. The Hubble Space Telescope continues a 
successful mission of discovery and exploration. And among its 
many achievements, there was a discovery that Pluto may have 
three moons and offering more insights into the nature and 
evolution of the Pluto system and Kuiper Belt.
    We also launched New Horizons to Pluto, and that will take 
nine years to arrive, and when it does, we will be able to 
study those new moons.
    We have a lot more, but we will just limit it to that.
    In your letter, you asked me that I explain the budget 
request for the Science Mission Directorate, so I will attempt 
to do that now.
    NASA's fiscal year 2007 budget request provides about $5.3 
billion for the Agency's science portfolio to explore the 
universe, solar system, and the Earth. NASA's science budget is 
moderated to a 1.5 percent growth for fiscal year 2007, and 
then it would be compared--that is compared to fiscal year 
2006, and then will have one percent growth thereafter through 
fiscal year 2011.
    As Administrator Griffin testified on February the 16th, 
the decision to slow the rate of growth in NASA's science 
mission is a matter of how the Agency will use the available 
resources within the NASA portfolio. Administrator Griffin has 
given me a charge, however, which is to deliver a robust and 
executable program that can be implemented in this resource-
constrained environment. By ``executable,'' I mean that we will 
be selecting, developing, and launching a slate of science 
missions that will be within the cost and schedule targets. So 
we are going to be monitoring everything very carefully.
    The rebalanced portfolio ensures that we maintain a suite 
of missions in all phases of development in each science 
discipline.
    We also, within each science area, are working to try to 
assure a mix of investments between missions and R&A that will 
ensure that we provide support for both future scientists and 
engineers, because this business takes a good balance of both 
of those.
    We would like to highlight some of the changes within our 
science portfolio, and a detailed description of the fiscal 
year 2007 budget is in the written testimony.
    For astrophysics, in 2007, we are requesting $1.5 billion. 
This budget will enable NASA to continue to operate Hubble and 
supports a servicing mission in 2007 through 2008 depending on 
the final outcome of the second Shuttle return to flight. The 
James Webb Space Telescope will continue to progress and is 
entering the development phase as a result of the recent 
replanning effort to address cost gross.
    NASA, in conjunction with the German Aerospace Center, DLR 
will conduct a review of SOFIA over the next several months to 
determine whether NASA will continue this project. The results 
of this study will be incorporated in the fiscal year 2007 
budget at a later date, if necessary, via an operating plan.
    Within the 2007 Earth science budget, we requested $1.5 
billion. With the Earth Observing System initial series of 
satellites now deployed and the focus is on exploiting the data 
in research, modeling, and applications, and on refining, 
formulating, and implementing successor and complementary 
missions, such as Glory, NPP, and the ESSP missions OCO and 
Aquarius.
    I am pleased to announce that we did publish a synopsis for 
the Data Continuity Mission, which we will be conducting with 
the U.S. Geological Survey and consistent with the guidance 
from OSTP. And we released that this week. We are trying to 
move on that one as rapidly as possible.
    The release of the next ESSP Announcement of Opportunity 
within Earth science will be no earlier than fiscal year 2008. 
We formed a working group with NOAA to plan the transition of 
NASA research results and observing capabilities to future NOAA 
operational missions, and we will report to you on those 
results. And we are eagerly awaiting the National Academy of 
Sciences Decadal Survey this fall to help us guide our planning 
in Earth science. We have never done one before, and we think 
it will be extremely helpful.
    In the heliophysics budget for 2007, we have requested 
$679.9 million. Three Living with a Star projects will be 
supported: the SDO, Solar Dynamics Observatory, Radiation Belt 
Storm Probe, and also the Space Environment Testbed. The third 
STP, STEREO mission will be--is scheduled to launch two 
spacecrafts to study the sun later this year. We also have a 
Magnetosphere Multi-Scale mission, which is a fourth STP 
mission, and its scientific goals were identified as the 
highest priority in the 2003 National Research Council Decadal 
Study, and that will enter formulation phase this year. 
Heliophysics is the host of the Explorer Announcement of 
Opportunity, which actually goes across divisions. Its next 
Announcement of Opportunity will be in fiscal year 2008.
    Within planetary science, we have requested $1.6 billion to 
fund new missions to the solar system bodies and maintain the 
Deep Space Network. The Mars program in the fiscal year 2007 
President's budget is still an aggressive one and will launch 
every optimal orbital opportunity. We have the Mars 
Reconnaissance orbiter orbit insertion at Mars that is coming 
up next week. This will be followed by a Phoenix launch in 
2007, Mars Science Laboratory in 2009 and a Mars Scout in 2011. 
The AO for the 2011 Mars Scout is planned for release in April 
2006 with proposals due in July of 2006. Subsequent missions 
are being outlined in a community roadmapping activity now 
undergoing review by the National Academies.
    The next Discovery Announcement of Opportunity was released 
in January with proposals due in April of 2006 and selection 
expected in the fall of 2006. We also have a second New 
Frontiers mission, Juno, that is included in this new budget. 
And the next New Frontiers AO is planned for no earlier than 
fiscal year 2008.
    So that covers all of our divisions. I would like to 
address first the reduction in research and analysis funding, 
which I know everyone is concerned about----
    Chairman Boehlert. Dr. Cleave, and I would hope you could 
do that, because what you have just told us so far is what we 
already know.
    Dr. Cleave. Okay.
    Chairman Boehlert. Okay. So--but if you could begin to 
think in terms of wrapping up.
    Dr. Cleave. Okay.
    The research in R&A, we are trying to maintain a balance 
with our science and engineering work forces. However, we have 
agreed that we will work with the community. Administrator 
Griffin has committed to us working with the community in order 
to provide an ops plan change, if that is deemed. Within each 
division, it could be different. So we are really trying to 
work on that at the current time.
    We do find that interaction with the community is vital to 
our approach in science. It is really their science program. We 
try to be responsive to their needs, and we always need their 
input.
    Thank you.
    [The prepared statement of Dr. Cleave follows:]
                  Prepared Statement of Mary L. Cleave
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear before you today to discuss NASA's Science 
program and our plans as represented in the President's FY 2007 budget 
request for NASA.
    The past year has been one of significant achievement for NASA's 
science missions. The Voyager 1 spacecraft entered the vast, turbulent 
expanse of the heliosheath, 8.7 billion miles from the sun, where no 
human-made object has traveled before. The Hubble Space Telescope 
continues its successful mission of discovery and exploration. Among 
its many achievements was the discovery that Pluto may have three 
moons, offering more insights into the nature and evolution of the 
Pluto system and Kuiper Belt. Through coordination of observations from 
several ground-based telescopes, NASA's Swift spacecraft and other 
satellites, scientists solved the 35-year-old mystery of the origin of 
powerful, split-second gamma-ray bursts. Using data from NASA's Aura 
satellite, NASA and National Oceanic and Atmospheric Administration 
(NOAA) researchers found they could improve the accuracy of six-day 
forecasts by up to six hours. The ICEsat tracked significant changes in 
Arctic sea ice, and the GRACE satellite made the first direct 
comprehensive mass survey of the Greenland ice sheet. Deep Impact 
traveled 268 million miles to meet comet Tempel 1, sending its impactor 
to collide with the comet and providing researchers with the first look 
inside a comet. The Mars twin rovers continue studying the harsh 
Martian environment, well beyond their expected mission life. Among its 
many achievements, Cassini has taken spectacular images of Saturn, its 
rings, and its amazing variety of moons. The European Space Agency's 
Cassini-Huygens probe successfully descended through the murky 
atmosphere of Saturn's largest moon, Titan, revealing some of its 
``Earth-like'' features. The Mars Reconnaissance Orbiter (MRO) 
successfully launched, and, next week, will go into orbit around Mars, 
providing high resolution imagery of the Martian surface and more data 
than all previous planetary missions combined. MRO will zoom in for 
extreme close-up photography of the Martian surface, analyze minerals, 
look for subsurface water, trace the amount of dust and water in the 
atmosphere, and monitor the daily global weather. And on January 19, 
2006, the New Horizons mission successfully launched, beginning its 
nine-year journey to Pluto. We are now looking forward to the upcoming 
launches of New Millennium's ST-5, CloudSat and CALIPSO, TWINS-A, 
CINDI, and STEREO.

FY 2007 Budget Request

    NASA's FY 2007 budget request provides $5.33 billion for the 
Agency's Science portfolio to explore the universe, solar system, and 
Earth. As Administrator Griffin testified on February 16, the decision 
to slow the rate of growth for NASA's Science missions is a matter of 
how the Agency will use the available resources within the overall NASA 
portfolio. Thus, NASA cannot afford the costs of starting some new 
Science missions, like a mission to Jupiter's moon Europa, or the next-
generation space astrophysics missions beyond the James Webb Space 
Telescope (JWST), at this time. It is important to know, however, that 
NASA is simply delaying these missions, not abandoning them.
    The Agency's Science budget has grown much faster than NASA's total 
budget since FY 1993. In 1992, the Science budget represented 24 
percent of the overall NASA budget while today, in the FY 2007 request, 
32 percent of the Agency's budget is allocated to Science. NASA's 
Science budget is moderated to 1.5 percent growth in the FY 2007 budget 
request, compared with the amount appropriated for NASA in FY 2006 (as 
reflected in NASA's initial Operating Plan provided to the Committee) 
and then one percent per year thereafter through FY 2011.
    In the FY 2007 budget request, there are some additional budget 
shifts within the Science portfolio, to adjust the balance of the 
program to better reflect our science priorities and consistent with 
the President's FY 2006 Budget Amendment. The resulting portfolio 
ensures that we maintain a suite of missions in all phases of 
development in each science discipline. In addition, within each 
Science area, we are working to assure that the mix of investments 
between missions and Research & Analysis (R&A) will ensure that we 
provide support to both future scientists and engineers.
    As reflected in the FY 2006 Amendment to the President's Budget, a 
key aspect of adjusting the balance of the Science program is a 
significant reduction in the Mars program. This program had been 
previously slated to grow to $1.3 billion in FY 2010. This aggressive 
rate of growth had been built into the program over a period of several 
years. However, given our current budget limitations, had we left the 
Mars program unchanged, it would have accounted for almost one-quarter 
of the total Science budget in that timeframe. Maintaining that level 
of growth in the Mars program would have crowded out too many other 
high-priority science missions and research activities. We accomplished 
the reduction largely by deferring the Mars Sample Return mission and 
human precursor missions. Despite these reductions, the FY 2007 budget 
request maintains a robust program of Mars exploration, with a mix of 
orbiting and landed missions being launched at every 26-month 
opportunity.
    The charge that Administrator Griffin has given to me is to deliver 
a robust and executable program that can be implemented in this 
resource-constrained environment. By ``executable,'' we mean selecting, 
developing, and launching a slate of Science missions within cost and 
schedule targets. I would like to highlight some of the changes within 
our Science portfolio that will satisfy this directive. First, I would 
like to note that as part of this reorganization, the Science Mission 
Directorate will now have four major areas in our portfolio: 
Astrophysics, Earth Science, Heliophysics, and Planetary Science. The 
most significant change in this new structure is to break up the Earth-
Sun System division into Earth Science and Heliophysics. This change 
will provide the Earth Science theme with added visibility and better 
reflects the work being done in these two disciplines. Since the 
reorganization is not yet final, the new division titles are not 
reflected in the FY 2007 budget request. My testimony below is based on 
this new organizational structure.
    The FY 2007 Astrophysics (previously called Universe) budget 
request is $1,509 million. This budget supports a Hubble servicing 
mission in 2007-2008, pending final outcome of the second return-to-
flight Shuttle mission. Gamma Ray Large Area Space Telescope GLAST is 
scheduled to launch at the end of FY 2007, and Kepler has been 
successfully confirmed for implementation. JWST will continue progress 
toward entering development phase as a result of a recent replanning 
effort to address cost growth. The Space Interferometry Mission (SIM), 
which is planned for launch in 2015/2016, remains in formulation, and 
the Terrestrial Planet Finder (TPF) mission will be deferred. A review 
of Stratospheric Observatory for Infrared Astronomy (SOFIA) is being 
conducted in 2006, to determine whether it is appropriate to continue 
development of this project. If NASA decides to continue the project, 
we will incorporate the necessary funds into the FY 2007 budget via the 
Agency Operating Plan. The NuSTAR mission and the Keck observatory 
outriggers are canceled. Finally, the Beyond Einstein Program is 
beginning a process of prioritization, with a goal of selecting a 
mission (either LISA, Con-X or Joint Dark Energy Mission) to enter 
development later this decade.
    The FY 2007 Earth Science (previously part of Earth-Sun System) 
budget request is $1,530.7 million. With the Earth Observing System 
initial series of satellites now deployed, the focus is on exploiting 
their data in research, modeling, and applications, and on defining, 
formulating and implementing successor and complementary missions. For 
future missions, the largest challenge remains the delivery of 
instruments for the NOAA Polar Operating Environmental Satellite Series 
(NPOESS) Preparatory Project (NPP). In anticipation of development of a 
new baseline for NPOESS by the tri-agency Integrated Program Office, 
NASA has moved the NPP launch date to April 2008; further change is 
probable as NPOESS rebaselining is still in process. The Glory mission 
has also been confirmed to proceed to implementation. Launch of the 
Global Precipitation Measurement (GPM) mission is delayed to the end of 
2012. NASA and the U.S. Geological Survey (USGS) received revised 
guidance from Office of Science and Technology Policy (OSTP) on 
Landsat, and NASA is proceeding with planning for the acquisition of a 
Landsat Data Continuity Mission as a free-flyer. In parallel, OSTP will 
work with NASA, USGS, and other agencies on a strategy for operational 
land observation. The Earth Systems Science Program (ESSP) Orbiting 
Carbon Observatory and Aquarius missions have been confirmed to proceed 
to implementation, and, thus, the ESSP back-up mission Hydros was not 
confirmed. The release of the next ESSP Announcement of Opportunity 
will be no earlier than FY 2008. We have formed a joint working group 
with NOAA to plan the transition of NASA research results and observing 
capabilities to future NOAA operational systems, and will report on our 
progress as requested by the Congress. We eagerly await the release of 
the National Academy of Sciences decadal survey report this fall as a 
guide to our planning for future Earth Science missions.
    The FY 2007 Heliophysics (previously part of Earth-Sun System) 
budget request is $679.9 million. The new Heliophysics Division manages 
three science flight programs that are funded in the FY 2007 budget 
request. These are the Solar Terrestrial Probe (STP), Living with a 
Star (LWS) and Explorer Programs. In addition, the Heliophysics 
Division will manage the New Millennium Program of technology flight 
validations. Three LWS projects will be supported in FY 2007. The Solar 
Dynamics Observatory (SDO) will be near completion of its fabrication 
phase at the end of this fiscal year, and near initiation of spacecraft 
integration and test activities. The SDO launch date has been changed 
from April 2008 to August 2008. The second STP mission, the Radiation 
Belt Storm Probe (RBSP) project, will be in a formulation phase in 
preparation for a mission confirmation review, and the Space 
Environment Testbed (SET) project will be completing payload hardware. 
The third STP mission, STEREO, is scheduled to launch two spacecraft to 
study the Sun later this year. The fourth STP mission, the 
Magnetosphere Multi-Scale (MMS) mission, the scientific goals of which 
were identified as the highest priority in the 2003 National Research 
Council decadal study, will also be in formulation phase this year. A 
Heliophysics Division Explorer program mission, the Interstellar 
Boundary Explorer (IBEX) project, is expected to be in a hardware 
construction phase. The plans for launch and operation of AIM and 
THEMIS, two other Explorer missions managed in the Heliophysics 
Division, remain unchanged. The release of the next Explorer 
Announcement of Opportunity (AO) is expected to be no earlier than FY 
2008.
    The FY 2007 Planetary Science (previously called Solar System 
Exploration) budget request is $1,610 million to fund missions to solar 
system bodies, and to maintain the Deep Space Network. A key feature 
within this FY 2007 budget is the further adjustment of the balance of 
the science portfolio begun last year. The Mars exploration program was 
slated to grow very substantially in the President's FY 2004 and FY 
2005 budget requests. The Mars program in the President's FY 2007 
budget request continues to be an aggressive one, with a launch every 
optimal orbital opportunity. The MRO orbit insertion at Mars is coming 
up next week. This will be followed by the Phoenix launch in 2007, Mars 
Science Laboratory in 2009, and Mars Scout in 2011 (the AO for the 2011 
Mars Scout is planned for release in April 2006, with proposals due in 
July 2006). Subsequent missions are being outlined in a community 
roadmapping activity now undergoing review by the National Academies. 
Deferred are Mars missions associated with preparation for human 
missions, in keeping with the planned time frame for human exploration, 
and a Mars sample return mission. The next Discovery Announcement of 
Opportunity was released in January 2006, with proposals due in April 
2006, and selection expected by fall 2006. The first New Frontiers 
mission, New Horizons--Pluto, was successfully launched in January 
2006. The second New Frontiers mission, Juno, is included in the FY 
2007 budget request. The next New Frontiers AO is planned for no 
earlier than FY 2008. Astrobiology research funding is reduced 50 
percent in the President's FY 2007 budget request for several reasons. 
The lower flight rate for Mars missions, plus the recognition that 
human exploration missions to Mars are further in the future than 
previously assumed, has reduced some of the urgency for rapid progress 
in astrobiology research. The Astrobiology program experienced rapid 
growth in funding several years ago, and this reduction brings it into 
balance with the rest of the research program.
    The 15 percent reduction in research and analysis (R&A) funding is 
directly related to slowing rate of growth of Science Mission 
Directorate (SMD) programs and our desire to maintain a balance in the 
science and engineering workforces and an adequate number of missions 
to support them. We understand the concerns regarding these reductions 
and will work with the community to solicit their input on these 
programmatic issues. At the recent NASA Advisory Council meeting, the 
Science Committee requested a review of the R&A program to ensure that 
it is properly oriented toward the future, and provides adequate 
funding for younger researchers. We intend to discuss this issue 
further with the NASA Advisory Council, with representatives of the 
science community, and the Space Studies Board, and will seek their 
advice to ensure that we maintain an appropriate mix within each SMD 
Divisions between R&A, small-, medium-, and large-class missions. 
Following these discussions, should changes in the mix of R&A and 
mission investment be necessary, we will pursue that course of action 
via an adjustment in NASA's initial FY 2007 Operating Plan.

Community Involvement

    The Science Mission Directorate (SMD) works continually with the 
science community to identify the highest science priorities and the 
best strategies and missions to address those priorities. These 
suggested priorities are provided through the decadal surveys and other 
reports of the National Academy of Sciences. We seek advice on 
implementation of these science priorities via the NASA Advisory 
Council and subordinate bodies. Implementation plans for each major 
science area, in the form of ``community roadmaps'' are developed in a 
partnership with the science community. During the development phase of 
major missions, we draw on the science community when needed for 
assessment of science impacts of potential content or schedule changes, 
as we did recently with JWST. For operating missions, we seek science 
community peer review to determine the merits of extending the 
operation of missions that have exceeded their primary mission 
lifetimes. After such reviews, NASA has extended the mission operating 
life of several Earth Science missions including Tropical Rainfall 
Measurement Mission (TRMM) and Terra, Heliophysics missions such as 
Solar and Heliospheric Observatory (SOHO) and both Voyager spacecraft, 
and Astrophysics missions including Chandra and Wilkinson Microwave 
Anisotropy Probe (WMAP). Dialog with the community will be increasingly 
important as we move forward to implement their highest priorities in a 
constrained budget environment.
    At the present time, SMD is working to establish a suite of five 
new advisory subcommittees to the NASA Advisory Council; there will be 
a subcommittee for each of the four major SMD science areas, and a 
fifth to provide guidance on planetary protection. Key tasks for the 
four science subcommittees will be to provide tactical and programmatic 
advice within the context of National Research Council strategic 
guidance and to contribute scientific expertise to SMD's long-term 
program planning efforts.

Interagency/International Cooperation

    NASA's science program continues to be broadly international. One 
example is the MRO spacecraft, due to enter Mars orbit in a week, and 
carries an Italian-provided radar. The James Webb Space Telescope, one 
of our flagship astrophysics missions, includes significant 
contributions from the European Space Agency. And two of our upcoming 
major launches, the CALIPSO and CloudSat Earth science missions, also 
feature major foreign collaborations. Carrying on a long-standing 
practice of annual meetings, we are planning a comprehensive review of 
cooperative space science activities with the European Space Agency in 
late June; a comparable Earth science review is also being planned. The 
Directorate has proposed establishment of a framework for international 
science cooperation in the exploration context as a theme for 
discussion at the next biennial meeting of the international Committee 
on Space Research (COSPAR), to be held in Beijing this coming July.
    SMD also works closely with other federal agencies to push the 
frontiers of science and maximize the science return of our activities. 
For example, we collaborate with the National Science Foundation (NSF) 
on astronomy, suborbital, meteorite, and Antarctic research programs. 
NASA also has a long-standing relationship developing and launching 
polar-orbiting and geostationary environmental satellites for NOAA. We 
are currently involved with the Department of Defense, NOAA, and the 
USGS in remote sensing activities and the development of the next 
generation of environmental satellites. I am pleased to announce that 
the synopsis for the Landsat Data Continuity Mission, a collaborative 
mission between NASA and USGS, was released last week. We also have 
collaborative agreements in Earth applications with about a dozen 
Federal government agencies, from the Department of Agriculture to 
USGS. Collaborations with domestic and international partners remain an 
important component in NASA's science programs.

Implementing the Vision for Space Exploration

    The human exploration of space beyond low-Earth orbit is a core 
element of NASA's strategic plan. The fundamental goal of the Vision 
for Space Exploration is ``To advance U.S. scientific, security, and 
economic interests through a robust space exploration program.'' It is 
the responsibility of SMD, working with the Exploration Systems Mission 
Directorate (ESMD), to make sure that NASA conducts the science that 
enables human space exploration, as well as the science that is enabled 
by human space exploration, in the context of the Agency's and the 
Nation's overall science priorities.
    Within our research programs, SMD supports science that enables 
human exploration. For instance, within our Heliophysics research 
program, we are supporting the science required to understand and 
mitigate the radiation environments that human space explorers will be 
working in beyond the Earth's magnetosphere, and within our Planetary 
Science research program we are supporting the study of the Moon, Mars, 
and other solar system bodies that are the destinations for the human 
exploration program.
    Working with ESMD to realize the science required to enable human 
exploration of the Moon, SMD is playing a traditional program science 
role in ESMD's lunar robotic program. ESMD is funding the lunar robotic 
missions, and SMD is providing scientific advice on instrument 
selection, development, and related matters. Important aspects of lunar 
science were addressed in the NRC's recent solar system exploration 
decadal survey, New Frontiers in the Solar System. At the present time, 
SMD is working with the NASA Advisory Council on a near-term plan to 
review and extend these and other identified science priorities that 
can be addressed on the Moon in the context of the broader science 
program. This process is expected to also involve the NRC Space Studies 
Board. Anticipating science opportunities that will be enabled by the 
lunar human exploration missions, SMD will be evaluating the potential 
for lunar science. Potential science opportunities enabled by human 
exploration activities will compete in the same prioritization process 
as the rest of the SMD science program, since the funds come from the 
same pool.
    Within the zone of intersection between the science and exploration 
spheres are the choices that will be made on exploration architectures 
and systems--some choices that are cost neutral for exploration may 
nevertheless be more beneficial for science. NASA, the NAC, and the 
Space Studies Board will be undertaking a set of workshops and studies 
this year to identify science priorities and science opportunities, 
within the context of the decadal surveys, which will inform such 
choices. For example we are discussing with the Board the development 
of a science strategy for the Moon that is consistent with the Board's 
existing science advice.

Conclusion

    In conclusion, NASA faces significant challenges and opportunities 
in implementing a robust and exciting Science program. In a time of 
constrained resources and a large number of compelling future Science 
missions, setting priorities is more important than ever. NASA is 
committed to undertaking the necessary prioritization studies in a 
joint activity with the science community via the National Academies 
and NASA's advisory committee apparatus. Access to the judgment of 
active members of the research community is absolutely vital in this 
endeavor, and we are dependent on the continued support and assistance 
of the broader science and industrial communities and Congress to 
successfully implement the highest priority programs in a cost-
effective manner.
    Once again, thank you for the opportunity to testify today. Mr. 
Chairman and Members of the Committee, I would be pleased to answer any 
questions that you may have.

                      Biography for Mary L. Cleave
    Dr. Mary Cleave was appointed as Associate Administrator for NASA's 
Science Mission Directorate on August 12, 2005. She began her career 
with NASA in May 1980, at the Johnson Space Center (JSC) when she was 
selected as an astronaut. Subsequently, she flew two Space Shuttle 
missions as a mission specialist (STS 61 B in November 1985 and STS 30 
in May 1989), logging more than 262 hours in space.
    Dr. Cleave joined NASA's Goddard Space Flight Center in Greenbelt, 
Md. in May 1991 where she worked in the Laboratory for Hydrospheric 
Processes as the Project Manager for the Sea viewing Wide Field of view 
Sensor (SeaWiFS), an ocean color satellite sensor monitoring global 
marine chlorophyll concentration.
    In March 2000, Dr. Cleave moved to NASA Headquarters and joined the 
Office of Earth Science as the Deputy Associate Administrator for Earth 
Science (Advanced Planning) where she was responsible for the 
formulation of NASA's Earth Science activities. After the combination 
of the Earth and space science directorates at NASA Headquarters in 
2005, Dr. Cleave became the Director of the Earth Sun System Division 
in the Science Mission Directorate.
    Dr. Cleave received a Bachelor of Science degree in biological 
sciences from Colorado State University; a Master of Science in 
microbial ecology and a doctorate in civil and environmental 
engineering from Utah State University.
    Her awards include two NASA Space Flight Medals; two NASA 
Exceptional Service Medals; American Astronautical Society Flight 
Achievement Award; NASA Exceptional Achievement Medal; and NASA 
Engineer of the Year.

    Chairman Boehlert. Thank you very much, Dr. Cleave.
    Dr. Taylor.

 STATEMENT OF DR. JOSEPH H. TAYLOR, JR., CO-CHAIRMAN, NATIONAL 
 ACADEMY OF SCIENCES DECADAL SURVEY FOR ASTROPHYSICS; JAMES S. 
   McDONNELL DISTINGUISHED UNIVERSITY PROFESSOR OF PHYSICS, 
                      PRINCETON UNIVERSITY

    Dr. Taylor. Mr. Chairman, Ranking Minority Member, and 
Members of the Committee, thank you very much for inviting me 
to testify. My name is Joseph Taylor, and I am Professor of 
Physics and former Dean of the faculty at Princeton University.
    I will get right to the point.
    The most serious impact of the 2007 budget proposal for 
NASA scientists is that it threatens to diminish astronomical 
research by a 15 percent cut in the grants line. The 
Administration has composed a Competitiveness Initiative, and 
many Members of Congress express support for increased research 
in the physical sciences, so this reduction seems 
counterproductive, at best.
    The potential damage is compounded, because the cuts will 
be hardest on youngest members of the community: the assistant 
professors, the post-doctoral trainees, and graduate students. 
Many in this group will be forced to turn to other fields. Some 
will leave the sciences altogether, and other bright, young 
people will decide not to pursue their training in space 
science and related fields.
    Reductions in the flight rate of NASA's Explorer missions 
will be especially damaging. These smaller missions have been 
highly cost-effective, and they often serve as an entry point 
for younger researchers into mission development and project 
management. The scientists and engineers who will build 
tomorrow's great observatories are building today's Explorers. 
It would be a tragedy to drive these people away from space 
science.
    The budget raises another closely-related issue. The 
Administration proposes to reduce near-term opportunities so as 
to fully fund several long-term missions. It calls for 
termination of a long-planned and nearly completed facility 
called SOFIA and for indefinite deferral of the Beyond Einstein 
program. The field of astronomy can sustain itself through lean 
budgetary times if there is opportunity on the horizon, but 
this budget proposal sends the message that even nearly-
completed missions may never bear fruit. It does not provide 
the positive view of the future that will keep members of the 
community engaged.
    I believe that Administrator Griffin is trying to follow 
the recommendations of the Decadal Survey, and I appreciate his 
efforts to protect the James Webb and the Hubble Space 
Telescopes in the face of significant cost increases. However, 
as I mentioned when I appeared before you last year to discuss 
Hubble, I don't think the highest priority missions should 
always be pursued without regard to cost or impact on the 
overall program. The Decadal Survey recommended a mix of large, 
moderate, and small missions. The 2007 budget is tilted to an 
unhealthy extent toward the large missions.
    We now know that the universe is pervaded by a mysterious 
dark energy that causes its expansion rate to accelerate. Two 
years ago, NASA worked with the scientific community to develop 
a plan synthesizing the Decadal Survey in Astronomy and a 
follow-up 2003 report into a widely-praised strategy for 
exploiting these remarkable discoveries. The OSTP led an 
interagency process that helped NASA, the National Science 
Foundation, and the Department of Energy to form an 
implementation plan. The NSF and DOE are proceeding with many 
of those recommendations, but the 2007 NASA budget pushes its 
portion into the indefinite future.
    NASA and the astronomy community face some very significant 
budgetary challenges, but I don't think that a new Decadal 
Survey is desirable now. Of course, science has progressed in 
five years since the last survey was completed, but the 
priorities determined then still look about right. A new survey 
would set an unfortunate precedent and encourage second-
guessing in the future.
    That said, it is also clear that some sort of advice from 
the scientific community is needed now. Congress has requested 
a mid-decade performance assessment for each of NASA's 
scientific programs. One of the goals is to produce a feasible 
implementation plan for the rest of the decade. Such a plan 
would--should form a solid foundation on which to conduct the 
next Decadal Survey, that is, normal time.
    A very important planning prerequisite will be reliable 
information on costs and risks. We have tried to gather such 
information when carrying out the last Decadal Survey, but in 
hindsight, our efforts for NASA projects were clearly 
inadequate. I believe that NASA must set up a task force to 
work with Centers and contractors to produce reliable estimates 
of cost, schedule, and technology risk for each selected 
mission, including proper contingencies. Serious departures 
from these projections should be grounds for consideration of 
cancellation, even for large missions of high priority.
    There is no foolproof formula for setting priorities across 
different scientific disciplines, but it is clear that each of 
NASA's science programs must remain healthy independently. 
Rapid budgetary fluctuations can threaten that condition. Part 
of the difficulty in this budget cycle is that NASA's advisory 
bodies have been in some disarray. If the science priorities 
are to be determined wisely, consultation with the appropriate 
scientific communities is essential. Otherwise, budget 
proposals, such as this one, run the risk of touching off 
efforts to save troubled programs outside the normal, proven 
planning channels, thereby eliminating one of the primary 
benefits of a priority-setting decadal review.
    In summary, I believe that the 2007 NASA budget proposal 
will not provide the Nation with a healthy and productive 
astronomy program. It reduces funding in astronomical sciences 
by 20 percent over the five-year runout. It damages programs 
that are necessary to sustain a healthy research community, and 
it is skewed too heavily toward the large missions. In the 
current budget climate, NASA might be unable to keep the 
program as healthy as we would wish. If so, the Agency must 
consult with the community to find the best solutions.
    Thank you very much for your attention.
    [The prepared statement of Dr. Taylor follows:]
              Prepared Statement of Joseph H. Taylor, Jr.
    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me to testify. My name is Joseph 
Taylor and I am the James S. McDonnell Distinguished University 
Professor of Physics and former Dean of the Faculty at Princeton 
University. I served in 1998-2000 as Co-Chair of the National Academies 
Astronomy and Astrophysics Survey Committee, but my comments today 
represent my own opinions, informed by discussions with many colleagues 
in the U.S. astronomy community.
    As you know, the astronomy community has a long history of 
creating, through the National Research Council (NRC), broad surveys of 
the field at ten-year intervals. These surveys lay out the community's 
research goals for the next decade; they identify key scientific 
questions that are ripe for answering, and they propose new initiatives 
that will make those goals achievable. The most recent decadal survey, 
entitled Astronomy and Astrophysics in the New Millennium, was released 
in the year 2000.\1\ I have been asked to answer the following 
questions from my perspective as the Co-Chair of the committee that 
produced that report:
---------------------------------------------------------------------------
    \1\ Astronomy and Astrophysics in the New Millennium, NRC, 2001.

        1.  What do you see as the most serious impacts on your field 
        of the proposed slowed growth in the Science Mission 
        Directorate? Clearly, it would be better to conduct more 
        science than less, but what is the real harm in delaying 
        specific missions? At what point do delays or cutbacks become 
        severe enough to make it difficult to retain or attract 
---------------------------------------------------------------------------
        scientists or engineers to your field?

        2.  Do you believe the decisions NASA has made concerning which 
        missions to defer or cancel are consistent with the most recent 
        National Academies Decadal Survey that you released? Have there 
        been any developments since the Decadal Survey that need to be 
        taken into account, and has NASA considered those? Given the 
        FY07 budget request, do you see any need to update the most 
        recent survey or to change the process for the next Decadal 
        Survey?

        3.  How should NASA balance priorities among the various 
        disciplines supported by its Science Mission Directorate? Do 
        you believe the proposed FY07 budget, given the overall level 
        of spending allotted to science, does a good job of setting 
        priorities across fields?

    In the balance of my testimony I shall address all three questions.
    In previous decades the NRC decadal survey was an activity unique 
to the astrophysical sciences. The most recent survey involved the 
direct participation of 124 astronomers as committee and panel members; 
moreover, these people received input from many hundreds more of their 
colleagues. Altogether, a substantial fraction of the Nation's 
astronomers were in some way involved in the creation of the report. By 
gathering such broad community input, the survey process creates a 
document that reflects the consensus opinion of the active researchers 
in the field. The value of this advice to NASA and the National Science 
Foundation has been demonstrated in many ways. It clearly helped to 
motivate NASA's requests for the NRC to conduct similar surveys for 
planetary science,\2\ solar and space physics,\3\ and Earth science.\4\
---------------------------------------------------------------------------
    \2\ New Frontiers in the Solar System, NRC, 2003.
    \3\ The Sun to the Earth--and Beyond, NRC, 2003.
    \4\ Study underway--http://qp.nas.edu/decadalsurvey
---------------------------------------------------------------------------
    The feature of a decadal survey that distinguishes it from 
summaries of other fields of science is the prioritized list of 
recommended initiatives. This list is a valuable tool for strategic 
planning, and it receives considerable attention. As with the use of 
any tool, some judgment is required in its application. Science 
priorities drive the assigned priorities of the projects. The science 
priorities are based on the output of the research community throughout 
the country, including its probable extrapolation into the future. The 
most serious impact of the President's FY 2007 budget proposal is that 
it threatens to significantly decrease this output by cutting the 
research and analysis grants lines by 15 percent. At a time when the 
administration has proposed an American Competitiveness Initiative and 
many Members of Congress have expressed strong support for increasing 
research in the physical sciences, this reduction seems counter-
productive at best. For the past decade NASA has provided a majority of 
the Nation's research support in astronomy and astrophysics. The 
proposed reductions are therefore of considerable concern to the 
astronomy community.
    The damage caused by these budget cuts is compounded by the fact 
that their impact will be disproportionately felt by the younger 
members of the community--the assistant professors, post-doctoral 
trainees, and graduate students. Without research support to pay for 
their time, this group will be forced to turn to other fields. Many 
will leave the sciences altogether, and other bright young people will 
decide not to enter. In a similar vein, severe reductions in the flight 
rate of NASA's Explorer line of smaller, lower cost missions will be 
damaging to the field and particularly its ability to attract and 
retain younger talent. The Explorer satellites have been extremely cost 
effective and have often been an entry point for younger researchers 
into mission development and project management. The scientists and 
engineers who will build and use tomorrow's Great Observatories are 
building today's Explorers. It would be a tragedy to drive these people 
away from space science.
    It is easy to identify specific impacts of these cuts and others in 
the budget proposal, but I wish to call attention to a broader impact 
that addresses your question about the field's ability to retain 
scientists and engineers. The administration is proposing to reduce 
near-term opportunities in order to fully fund large, long-term 
missions. At the same time it is terminating a long-planned, nearly 
completed facility called SOFIA and indefinitely deferring an entire 
program called ``Beyond Einstein.'' I believe that the field of 
astronomy can sustain itself through lean budgetary times if there is 
opportunity on the horizon, but this budget proposal sends the message 
that even nearly completed missions may never be flown. It does not 
provide the positive view of the future that will keep members of the 
community engaged and attract bright young people to the field.
    The primary goal of the year 2000 Decadal Survey was to provide a 
vision for a sustainable national effort in astronomy and 
astrophysics--one that would build on the enviable position of 
leadership in astronomy that America has developed over the past half 
century and more. I do not believe that the FY 2007 budget submission 
is consistent with this vision. I believe that NASA is trying to follow 
the survey recommendations, and I appreciate that it has protected the 
highest priority mission, the James Webb Space Telescope, and the crown 
jewel of the space astronomy missions, the Hubble Space Telescope, in 
the face of significant cost increases. However, as I mentioned when I 
appeared before you last year to discuss the Hubble Space Telescope, I 
do not believe that the highest priority missions should be implemented 
without regard to cost or impact on the overall program. The Decadal 
Survey recommended that NASA have a mission portfolio with a mix of 
large, moderate, and small missions. The FY 2007 budget proposal is 
weighted to an unhealthy extent towards the large missions. The Decadal 
Survey recommended that NASA maintain adequate funding in research and 
analysis grants to ``ensure the future vitality of the field.'' I 
believe that the proposed reduction in the grants line is not 
consistent with this recommendation.
    One very significant scientific development has taken place since 
the Decadal Survey was released. Confirmation of the universe's 
accelerating rate of expansion and the existence of some form of ``dark 
energy'' have stimulated new research efforts across astronomy, 
astrophysics, and fundamental particle physics. The NRC's 2003 report 
Connecting Quarks with the Cosmos puts these discoveries into the 
broader context of understanding the universe and the physical laws 
that govern it. NASA worked with the community to develop its Beyond 
Einstein plan, synthesizing the recommendations of the Decadal Survey 
and the 2003 report into a widely praised strategy for investment in 
high energy astrophysics. NASA also participated in an interagency 
process headed by the Office of Science and Technology Policy which 
produced a detailed plan for NASA, the NSF, and the Department of 
Energy to move forward in this area. The NSF and DOE are implementing 
many of these recommendations by increasing research support and 
planning investments in new instruments and missions, but NASA 
continues to push the Beyond Einstein program into the indefinite 
future.
    National priorities outlined in the FY 2007 budget submission 
present NASA and the astronomy and astrophysics community with 
significant challenges. I do not believe, however, that a new decadal 
survey is needed immediately. The study we completed a little over five 
years ago produced a positive and forward looking document that tried 
to capture the scientific opportunities ahead of us. Of course science 
has progressed in the intervening five years, but the priorities we set 
still look about right. Conducting a new survey at this time would set 
an unfortunate precedent and encourage undesirable second-guessing at 
any time in the future. With these things said, it is also clear that 
some sort of advice from the community is needed now. In the 2005 NASA 
Authorization Act, Congress requested that the NRC provide NASA with a 
mid-decade performance assessment for each of its scientific programs. 
The NRC and NASA have agreed to begin this process with the astronomy 
and astrophysics program, and the NRC is working now to assemble a 
review panel. One of the goals of this study will be to provide a 
feasible implementation plan for the rest of this decade. Such a plan 
should form a solid foundation on which to conduct the next decadal 
survey at its normal time, near the end of this decade.
    One of the keys to crafting a feasible program is to acquire 
accurate information on the resources necessary to complete each 
mission. We attempted to gather such information in carrying out the 
2000 Decadal Survey, but in retrospect it is clear that our efforts 
were inadequate. I believe that the correct procedure is for NASA to 
set up a task force to work with centers and contractors to improve the 
reliability of the cost, schedule and technology risk estimates, 
including proper contingencies, for each of the selected missions. 
Serious departures from these projections in the future should be 
grounds for consideration of mission cancellation, even for large 
missions of high priority.
    In addition to these specific proposals, I believe it is essential 
that NASA work harder to communicate with its scientific community--the 
community that has contributed so much to the Agency's successes over 
the years. Part of the difficulty in this particular budget cycle is 
that NASA's advisory bodies have been in disarray, leading to a 
perceived lack of community input into the Agency's decision-making 
process. I do not believe there is a foolproof formula for setting 
priorities across different scientific disciplines, but it is clear 
that each of NASA's science disciplines must remain independently 
healthy. Rapid budgetary fluctuations can threaten that condition. I am 
confident that if the priority-setting process is done well it must 
include dialogue and consultation with representatives of the 
appropriate scientific communities. Without such discussion, budget 
proposals such as this one run the risk of touching off efforts outside 
the normal, proven planning channels to save troubled programs. This 
situation would eliminate one of the primary strengths of the decadal 
survey process: priorities based on the informed consensus of a highly 
competitive but ultimately cooperative scientific community.
    To summarize, I believe that the FY 2007 NASA budget proposal does 
not present a program that can provide the Nation with a healthy and 
productive astronomy and astrophysics program. The budget proposal 
reduces astronomy and astrophysics at NASA by 20 percent over the five-
year runout, before inflation is taken into consideration. The proposal 
damages programs that are necessary for the sustainability of a healthy 
research community, and it is skewed too heavily towards large 
missions. It may be that in the current budget climate, NASA is unable 
to provide the necessary resources to keep the program healthy. If so, 
NASA must do a better job of working with the community in order to 
find the best solutions to the challenges that lie ahead.
    Thank you for your attention, and I will be pleased to answer 
questions.

                  Biography for Joseph H. Taylor, Jr.

Born: March 29, 1941, Philadelphia

Married to: Marietta Bisson Taylor; four children

Educational Background:

1963  Haverford College, B.A. (Physics, with Honors)

1968  Harvard University, Ph.D. (Astronomy)

Professional Employment:

1968-69  Harvard University, Research Fellow & Lecturer

1969-72  University of Massachusetts, Assistant Professor

1972-76   Massachusetts General Hospital, Consultant in Mathematics-
        Neurosurgery

1976   Commonwealth Scientific and Industrial Research Organization, 
        Visiting Scientist

1973-77  University of Massachusetts, Associate Professor

1977-81  Five College Radio Astronomy Observatory, Associate Director

1977-81  University of Massachusetts, Professor of Astronomy

1980-82  Princeton University, Professor of Physics

1982-86  Princeton University, Eugene Higgins Professor of Physics

1984  Institute for Advanced Study, Visiting Professor

1984  Harvard University, Morris Loeb Lecturer on Physics

1986-   Princeton University, James S. McDonnell Distinguished 
        University Professor of Physics

1987  Arecibo Observatory, Visiting Scientist

1991  Australia Telescope National Facility, Visiting Scientist

1997-2003  Princeton University, Dean of the Faculty

Research Specialization: Radio Astronomy, Pulsars, Experimental 
        Gravitation

Fellowships:

1963-64  Woodrow Wilson Fellow

1964-68  National Science Foundation Graduate Fellowship

Honors and Awards:

1975  Bart J. Bok Prize, Harvard College Observatory

1980  George Darwin Lecturer, Royal Astronomical Society

1980   Dannie Heineman Prize, American Astronomical Society and 
        American Institute of Physics

1980  Chancellor's Medal, University of Massachusetts

1981  Member, National Academy of Sciences

1981-86  MacArthur Foundation Prize Fellow

1982  Fellow, American Academy of Arts and Sciences

1985  Henry Draper Medal, National Academy of Sciences

1985  D.Sc. (Honorary), University of Chicago

1986  Fellow, American Physical Society

1987  Tomalla Foundation Prize in Gravitation and Cosmology

1990  The Magellanic Premium, American Philosophical Society

1991   John J. Carty Award for the Advancement of Science, National 
        Academy of Sciences

1991  Einstein Prize Laureate, Albert Einstein Society, Bern

1992  Wolf Prize in Physics

1992  Member, American Philosophical Society

1993  Nobel Prize in Physics

1994  D.Sc. (Honorary), University of Massachusetts

1995  Docteur (Honoris Causa), Universite de Montreal

1995  John Scott Medal, City of Philadelphia

1997  Karl Schwarzschild Medal, Astronomische Gessellschaft

Professional Societies:

American Astronomical Society

American Physical Society

International Scientific Radio Union

International Astronomical Union

Professional Activities:

1970-79  Users Committee, National Radio Astronomy Observatory

1976-78   Councilor, High Energy Astrophysics Division, American 
        Astronomical Society

1976-77   Radio Astronomy Panel, Astronomy Survey Committee, National 
        Academy of Sciences

1980-83  Visiting Committee, National Radio Astronomy Observatory

1980-83   Visiting Committee, Kitt Peak National Observatory and Cerro 
        Tololo Inter-American Observatory

1980-83  Astronomy Advisory Committee, National Science Foundation

1980-84  Advisory Board and Visiting Committee, Arecibo Observatory

1985-86  Vice-Chairman, Astrophysics Division, American Physical 
        Society

1986-87  Chairman, Astrophysics Division, American Physical Society

1985-88  Councilor, American Astronomical Society

1986-94  Board of Managers, Haverford College

1987-  Board of Trustees, Associated Universities Incorporated

1989-90   Radio Astronomy Panel, Astronomy Survey Committee, National 
        Academy of Sciences

1989-93  Green Bank Telescope Advisory Committee

1990-93  Board of Trustees, Princeton Friends School

1990-91  Chairman, Astronomy Advisory Committee, National Science 
        Foundation

1993-95  National Research Council, Task Group on Gravity Probe B, Co-
        Chair

1996  NASA Gravitational/Relativistic Physics Review Panel, Chair

1997-2004  Board on Physics and Astronomy, National Research Council

1997-98  Committee on Gravitational Physics, National Research Council

1998-2001   Decade Survey of Astronomy and Astrophysics, National 
        Research Council, Co-Chair

1999-2003  Alan T. Waterman Award Committee, National Science 
        Foundation

2003   Committee on Setting Priorities for the Large Research Facility 
        Projects Supported by the National Science Foundation, National 
        Research Council

2004   Committee on Assessment of Options for Extending the Life of the 
        Hubble Space Telescope, National Research Council

Publications: approximately 200 articles in the professional research 
literature of physics and astronomy.

    Chairman Boehlert. Thank you very much, Dr. Taylor.
    Dr. Bagenal.

  STATEMENT OF DR. FRAN BAGENAL, MEMBER, NATIONAL ACADEMY OF 
 SCIENCES DECADAL SURVEY FOR SUN-EARTH CONNECTIONS; PROFESSOR, 
     ASTROPHYSICAL AND PLANETARY SCIENCES, LABORATORY FOR 
     ATMOSPHERIC AND SPACE PHYSICS, UNIVERSITY OF COLORADO

    Dr. Bagenal. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to speak today.
    First let me tell you something exciting that is happening 
right now. As I speak, engineers are sending commands to New 
Horizons spacecraft to switch on an instrument, and we will see 
if it works as well in space as it did on the ground. So last 
month, the New Horizons spacecraft was launched on its way to 
Pluto for a 9-year journey to Pluto, and attached to the 
spacecraft is an instrument here, the student dust counter, 
which will measure the amount of dust between the Earth and 
Pluto.
    And particularly exciting for me is the fact that this 
instrument was built by students at the University of Colorado. 
Most of these students have already been snatched up by the 
aerospace industry. Over the next decade, something like 60 
college students spanning three generations of students will be 
involved. And with CU being on--one of the top astronaut 
universities, it is not too far-fetched to imagine that one of 
these students may end up walking on Mars.
    So the cost to NASA of the student dust counter: $1 million 
of education and public outreach funding. Value of inspiring 
thousands of students to study math and science: priceless. 
This is precisely the kind of project that is jeopardized under 
the new budget: smaller science-led missions and education and 
public outreach. It makes little sense to attack what is both 
popular with the public and working well. It is--particularly 
doesn't make sense to cut the smallest and most productive 
stuff.
    Your Committee asked me to comment on the most serious 
impacts of the fiscal year 2007 budget. This is dramatically 
illustrated by the list of science launches for the next seven 
years. In the next couple of years, there is an impressive list 
of science missions that will be launched. But this is followed 
by a precipitous drop to only one launch in 2010 and a few 
beyond that.
    The net result is that there is a significant gap, during 
which it is inevitable that expertise will be lost, and it will 
be hard to attract and train junior scientists and engineers, 
the very people who will be needed to implement the Vision for 
Space Exploration.
    How bad do the delays and cutbacks have to be to be called 
severe? To be honest, I am scared of showing the charts in my 
written statement that basically says that NASA is going out of 
business. This 2010 launch gap is in all of the science 
missions.
    For heliophysics, I would like to highlight two supporting 
programs that are badly hit.
    Number one is the Explorer program, a program that many 
others have mentioned, that elicits many highly-innovative 
proposals from the community. These small missions were 
launched at a rate of about one per year and produced great 
science. The Explorer program has taken dramatic cuts in the 
last few budget cycles, resulting in the cancellation of the 
NuSTAR mission and a gap from 2008 to at least 2014 without any 
Explorer launches. This is a program that is vital to both 
heliophysics and to astrophysics.
    Number two is research and analysis programs, which, again, 
others have mentioned here. When it comes to sheer science 
productivity, these small, usually 3-year grants, deliver the 
most bang for the buck. They are highly competitive, with only 
a few of the very best ideas: 10 to 20 percent of the very best 
are selected by a very vigorous peer review. It is something 
that I think NASA should be very proud of. Any cutbacks to 
research and analysis acutely impacts the most vulnerable and 
productive sector of space science.
    NASA's administration has suggested that the 2010 mission 
gap justifies an immediate 15-percent cut in research and 
analysis across the Science Mission Directorate. The high 
launch rate in 2006, the many ongoing productive missions, and 
the Nation's need for a technically-trained workforce all argue 
that research and analysis programs should be increased, rather 
than cut.
    The scientific priorities set out in the solar and space 
physics Decadal Survey remain valid today. And I see no 
community movement to change them. But to design a coherent 
program across a decade, it is essential to have a realistic 
budget profile that does not fluctuate violently from year to 
year, and we need accurate estimates of mission costs. And the 
costing of just a few missions, the big digs in space, wreck 
havoc with even the best plans.
    Each of NASA's scientific themes makes breakthrough 
discoveries that hit the headlines. Rather than distinguish 
between them, I would argue that budget priorities should be 
made and then kept within each division.
    Investments in science have paid off for NASA. I urge 
Congress to invest in the future and support NASA's small 
missions and research programs.
    Thank you for your attention.
    [The prepared statement of Dr. Bagenal follows:]
                   Prepared Statement of Fran Bagenal
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Fran Bagenal and I am a professor at the University of Colorado. I 
served on the committee for the NRC decadal survey for solar and space 
physics and chaired a committee that assessed the role of solar and 
space physics in space exploration.
    I am here today to provide an evaluation of the impact of the 
NASA's FY07 budget on solar and space physics--a field of research that 
corresponds to what is labeled, as of last week, the Heliophysics 
Division of NASA's Science Mission Directorate. Heliophysics has 
previously been called Sun-Earth Connections (SEC) and, until last 
week, sat with Earth Science within Earth-Sun Systems. This evaluation 
yields six conclusions that are summarized as follows:

        1.  NASA's investment in science has had a high payoff; it has 
        spurred advances in leading edge technologies and has been 
        instrumental in educating the next generation of scientists.

        2.  The claimed increase in science's share of the NASA budget 
        is not reflected in science activity and in part arises from a 
        change in accounting rules.

        3.  There will be a precipitous drop in launches of science 
        missions beginning in 2010 and continuing forward.

        4.  The Explorer program is experiencing dramatic cuts and set-
        backs.

        5.  The Sounding Rocket Program, which serves our nation as a 
        space academy, is withering after more than a decade of flat 
        funding.

        6.  The FY07 budget makes major cuts in the Research and 
        Analysis Program, which will affect disproportionately the 
        youngest space scientists, and place the health of the space 
        science ``workforce'' at risk.

    To understand these conclusions I would like to begin by giving 
some context for this area of science.

Heliophysics

    The Sun is the source of energy for life on Earth and is the 
strongest modulator of the human physical environment. In fact, the 
Sun's influence extends throughout the solar system, both through 
photons, which provide heat, light, and ionization, and through the 
continuous outflow of a magnetized, supersonic ionized gas known as the 
solar wind. The realm of the solar wind, which includes the entire 
solar system, is called the heliosphere. In the broadest sense, the 
heliosphere is a vast interconnected system of fast-moving structures, 
streams, and shock waves that encounter a great variety of planetary 
and small-body surfaces, atmospheres, and magnetic fields. Somewhere 
far beyond the orbit of Pluto, the solar wind is finally stopped by its 
interaction with the interstellar medium.
    Thus, interplanetary space is far from empty--an often gusty solar 
wind flows from the Sun through interplanetary space. Bursts of 
energetic particles arise from acceleration processes at or near the 
Sun and race through this wind, traveling through interplanetary space, 
impacting planetary environments. It is these fast solar particles, 
together with galactic cosmic rays, that pose a threat to exploring 
astronauts. The magnetic fields of planets provide some protection from 
these high energy particles, but the protection is limited and 
variable, and outside of the planetary magnetospheres there is no 
protection at all. Thus, all objects in space--spacecraft, 
instrumentation and humans--are exposed to potentially hazardous 
penetrating radiation, both photons (e.g., x-rays) and particles (e.g., 
protons, heavy ions and electrons). Just as changing atmospheric 
conditions on Earth lead to weather that affects human activities on 
the ground, the changing conditions in the solar atmosphere lead to 
variations in the space environment--space weather--that affects 
activities in space.

Decadal Survey & Vision for Space Exploration

    In 2002, the National Research Council published the first decadal 
strategy for solar and space physics: The Sun to the Earth--and Beyond: 
A Decadal Strategy for Solar and Space Physics.\1\ The report included 
a recommended suite of NASA missions that were ordered by priority, 
presented in an appropriate sequence, and selected to fit within the 
expected resource profile for the next decade, which was anticipated to 
increase substantially through FY08.
---------------------------------------------------------------------------
    \1\ National Research Council, The Sun to the Earth--and Beyond: A 
Decadal Strategy for Solar and Space Physics, The National Academies 
Press, 2002.
---------------------------------------------------------------------------
    In early 2004,\2\ NASA proposed to adopt major new goals for human 
and robotic exploration of the solar system, consistent with the Bush 
Administration's Vision for Space Exploration. Any exploration will 
depend, in part, on developing the capability to predict the space 
environment experienced by exploring spacecraft and humans. Also in 
2004, the Space Studies Board of the National Research Council tasked a 
committee to assess the role of solar and space physics in NASA's 
Exploration Vision.\3\ This committee stated that:
---------------------------------------------------------------------------
    \2\ National Aeronautics and Space Administration, The Vision for 
Space Exploration, NP-2004-01-334-HQ, NASA, Washington, D.C., 2004.
    \3\ National Research Council, Solar and Space Physics and Its Role 
in Space Exploration, The National Academies Press, 2004.

         NASA's Sun-Earth Connection program depends upon a balanced 
        portfolio of space flight missions and of supporting programs 
        and infrastructure, which is very much like the proverbial 
        three-legged stool. There are two strategic mission lines--
        Living With a Star (LWS) and Solar Terrestrial Probes (STP)--
        and a coordinated set of supporting programs. LWS missions 
        focus on observing the solar activity, from short-term dynamics 
        to long-term evolution, that can affect the Earth, as well as 
        astronauts working and living in near-Earth space environment. 
        Solar Terrestrial Probes are focused on exploring the 
        fundamental physical processes of plasma interactions in the 
        solar system. A key assumption upon which the LWS program was 
        designed was that the STP program would be in place to provide 
        the basic research foundation from which the LWS program could 
        draw to meet its more operationally oriented objectives. 
        Neither set of missions can properly support the objectives of 
        the Exploration Initiative alone. Furthermore, neither set of 
        space flight missions can succeed without the third leg of the 
        stool. That leg provides the means to (a) conduct regular small 
        Explorer missions that can react quickly to new scientific 
        issues, foster innovation, and accept higher technical risk; 
        (b) operate active spacecraft and analyze the LWS and STP 
        mission data; and (c) conduct ground-based and sub-orbital 
        research and technology development in direct support of 
---------------------------------------------------------------------------
        ongoing and future space flight missions.

    I will return to this issue of balance between these three legs of 
basic, applied and supporting research later in my testimony.
    This re-evaluation of the Decadal Survey endorsed the original 
scientific and mission priorities--emphasizing a balance in the 
fundamental and applied aspects of space physics--but recognized that 
the schedule of missions would have to be considerably stretched out to 
fit a leaner budget.

Science Mission Directorate FY07 Budget

    With this background, let me proceed to NASA's FY07 budget. First, 
may I commend Administrator Dr. Griffin's bold leadership of NASA and 
his clear command of the technical issues involved. We all recognize 
the enormous challenge of enacting the Vision for Space Exploration 
while fulfilling international obligations associated with Space 
Station. NASA is being asked to do Apollo with a post-Apollo budget. 
Yet we must also remember that science is a vital part of the Vision 
for Space Exploration. I repeat the refrain ``Exploration without 
science is just tourism.''
    In his February 16th statement to this committee, Dr. Griffin 
quoted that fraction of the NASA budget allocated to science had grown 
from 24 percent to 32 percent between 1992 and 2007. These figures were 
emphasized in his oral presentation with the explicit implication that 
this fraction should be reduced by having the science budget slow down 
to a one percent growth rate while NASA as a whole grows three times 
faster. First of all, I do not claim to know what fraction of the NASA 
budget is the ``correct'' value to be spent on science. But I submit 
that the dramatic close-up views of our Sun from SOHO and Trace as well 
as the exciting new worlds revealed by Voyager, Hubble, Mars rovers, 
and Cassini have permanently changed the American people's view of 
space science. Investment in science has paid off for NASA--not only in 
terms of cultural and intellectual benefits but also in enabling 
technology and inspiring young scientists and engineers.
    Secondly, I accept that the science budget has seen net growth--and 
a third of the NASA's $17 billion budget is a substantial amount to 
spend on science. The reason for this growth is partly because of 
demonstrated successes. But I point out that over the past 15 years 
there have been significant changes in the way NASA has been 
bookkeeping different components of the budget (e.g., project 
management & operations, salaries of civil servants, and particularly 
launch costs which have doubled in the past 5 years). I suggest that 
the quoted eight percent increase in the share of the NASA budget being 
labeled as science does not necessarily reflect a corresponding 
increase in scientific activity. It might be useful for your committee 
to task one its support agencies; for example, the Government 
Accountability Office, to evaluate of how these budget figures are 
tracked. At the very least, I caution against taking this simple 
statistic at face value and using it to rationalize the diminishment of 
what has been one of NASA's great successes--science.

Heliophysics Budget

    I have been asked to address the following specific questions:

1.  What do you see as the most serious impacts on your field of the 
proposed slowed growth in the Science Mission Directorate? Clearly, it 
would be better to conduct more science than less, but what is the real 
harm in delaying specific missions? At what point do delays or cutbacks 
become severe enough to make it difficult to retain or attract 
scientists or engineers to your field?

Science Mission Launches

    The impact of elimination of growth in SMD is most dramatically 
illustrated by the following chart of science mission launches for the 
next seven years. An impressive list of missions to be launched in the 
next couple of years is followed by a precipitous drop to only one 
launch in 2010 (ST-9, a small technology demonstration mission) and few 
launches per year thereafter.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Since each mission takes several years of development and 
construction before launch (3 years for small missions, over a decade 
for the largest missions) this paucity of missions beyond 2010 reflects 
a slowdown in mission opportunities over the past 5 years and a lack 
of launch opportunities for several more years. Factors contributing to 
this dearth of launches are the escalation in launch costs, the impact 
of full-cost accounting, the under-costing of larger missions, and--
most significantly--the elimination of any funding wedge for new 
missions from here onwards. The net result is that there is a 
significant gap during which it is inevitable that expertise will be 
lost and it will be hard to attract and train junior scientists and 
engineers--the very people who will be needed to implement the Vision 
for Space Exploration. While the lack of any large missions on the 
horizon is a concern, the priority for Heliophysics must be a steady 
cadence of smaller missions.

The Explorer Program

    In the past, the Explorer program has offered frequent 
opportunities to carry out small and medium sized missions that can be 
developed and launched in a short (approximately four-year) timeframe. 
The Explorer Program straddles both the Heliophysics and Astrophysics 
Divisions with roughly equal numbers of launches in each division.
    These focused missions address science of crucial importance to 
these two division roadmaps and NRC Decadal Surveys: The 2004 NRC 
report ``Solar and Space Physics and Its Role in Space Exploration'' 
states that: Explorers ``are the lifeblood of SEC research because they 
provide core research, flexibility, innovative technologies, and 
invaluable training for the next generation of workers for our nation's 
space enterprise. The Explorer program provides innovative, fast-
response missions to fill critical gaps.'' The report recommends 
``these programs should continue at a pace and a level that will ensure 
that they can fill their vital roles in SEC research.'' The 2001 NRC 
report ``Astronomy and Astrophysics in the New Millennium'' finds that 
``the Explorer program is very successful and has elicited many highly 
innovative, cost effective proposals for small missions from the 
community.'' Specifically they recommend ``the continuation of a 
vigorous Explorer program,'' and that ``NASA should continue to 
encourage the development of a diverse range of mission sizes, 
including small, moderate, and major, to ensure the most effective 
returns from the U.S. space program.''
    In the last decade, 10 Explorers were launched; six small explorers 
(SMEX) and four medium explorers (MIDEX). These have allowed NASA to 
respond quickly to new scientific and technical developments, and have 
produced transformational science, including:

        <bullet>  The best determination of the age of the universe: 
        13.7 billion years.

        <bullet>  Images of solar flares that show that ions and 
        electrons are accelerated in different locations.

        <bullet>  The discovery of ``baby'' galaxies still in the 
        process of forming, long after the vast majority of galaxies 
        formed during the early universe.

        <bullet>  Measurements of record-speed solar winds (at 5 
        million mph) from the large ``Halloween'' 2003 solar eruptions.

        <bullet>  The discovery that the plasmasphere rotates with the 
        Earth at only 85-90 percent of the Earth's rotation rate as 
        opposed to the 100 percent assumed by all models of 
        magnetospheric convection.

        <bullet>  Direct evidence that galactic cosmic rays originate 
        in associations of massive stars (where most supernovae occur).

        <bullet>  Proof that short-duration gamma-ray bursts (lasting 
        less than two seconds) have a different origin than long 
        bursts, likely resulting from the fiery mergers of binary 
        neutron stars.

        <bullet>  These are a small fraction of highlights selected to 
        illustrate the astounding breadth and productivity of the 
        program.

    The Explorer program has taken dramatic cuts in the last few budget 
cycles, resulting in:

        <bullet>  The cancellation--for purely budgetary reasons--of a 
        peer-reviewed, selected mission, the Nuclear Spectroscopic 
        Telescope Array (NuSTAR) SMEX, chosen (along with the 
        Interstellar Boundary Explorer (IBEX) ), from the 2002 
        announcement that solicited two flight missions.

        <bullet>  Delay in the next Announcement of Opportunity until 
        mid 2008 at the soonest (associated mission launch beyond 
        2014).

    The result is a minimum gap from 2008-2014 without any Explorer 
launch, in a program that is vital to both Heliophysics and 
Astrophysics, and which in the past has seen an average of one launch 
per year.
    As noted in numerous NRC reports, in addition to its scientific 
importance, there are compelling programmatic, technical and 
educational reasons to maintain a line of small and moderate-sized 
competed missions. Explorers have strong involvement of the university 
community (eight of the ten most recent Explorers have been led by 
university scientists), and they provide an excellent training ground 
for young experimental researchers, scientists, engineers and managers, 
many of whom go on to play lead roles in large missions. The time from 
development to launch is consistent with Ph.D. degree programs, as well 
as time scales for the career development of young professional 
scientists.
    This decimation of the Explorer program will have a lasting and 
significant impact on the Nation's academic research base. Universities 
and research laboratories make significant internal investments in 
infrastructure to support experimental space science. Decisions on 
faculty and staff hires, on accepting graduate students, and the 
institutional investment in specialized laboratory facilities all 
depend on existence of a vital research and analysis (R&A) program, and 
opportunities to develop instrumentation for space flight. Both of 
these are threatened in the current NASA budget. In particular, the 
cancellation of missions after they have completed the arduous 
competitive process and been selected, as happened in the most recent 
budget process, is a particularly dangerous precedent. Universities, 
research laboratories, and their international collaborators 
necessarily rely on the well-established Explorer selection process in 
their decision to undertake such long-term commitments. The precedent 
will be detrimental to the strong partnership between NASA and 
university researchers, a partnership that has been key to much of 
NASA's scientific productivity and has provided critical opportunities 
for developing scientists and engineers in experimental space science.

Sub-orbital Sounding Rocket Program

    Sub-orbital sounding rocket flights and high-altitude scientific 
balloons can provide a wide range of basic science that is important to 
meeting Heliophysics program objectives. For example, sounding rocket 
missions targeted at understanding specific solar phenomena and of the 
response of the upper atmosphere and ionosphere to those phenomena have 
potentially strong relevance. This science is cutting-edge, providing 
some of the highest-resolution measurements ever made and, in many 
cases, providing measurements that have never been made before.
    The Sub-orbital program serves several important roles, including:

        <bullet>  Conducting important scientific measurements in 
        support of orbital space flight missions,

        <bullet>  Providing a mechanism to develop and test new 
        techniques and new space flight instruments, and

        <bullet>  Providing effective training to develop future 
        experimental scientists and engineers.

    Development of new scientific techniques, scientific 
instrumentation, and spacecraft technology is a key component of the 
Sub-orbital program. Many of the instruments flying today on satellites 
were first developed on sounding rockets or balloons. The low cost of 
sounding rocket access to space fosters innovation: instruments and 
technologies warrant further development before moving to satellite 
programs. Development of new instruments using the Sub-orbital program 
provides a cost-effective way of achieving high technical readiness 
levels with actual space flight heritage.
    The fact that any long-term commitment to space exploration will 
place a concomitant demand on the availability of a highly trained 
technical work force makes the training role of the Sub-orbital program 
especially important. For example, a three-year sounding rocket mission 
at a university provides an excellent research opportunity for a 
student to carry a project through all of its stages--from conception 
to hardware design to flight to data analysis and, finally, to the 
publication of the results. This ``hands on'' approach provides the 
student with invaluable experience in understanding the space flight 
mission as a whole. Indeed, over 350 Ph.D.s have been awarded as part 
of NASA's sounding rocket program. Not only have some of these 
scientists have gone on to successfully define, propose, and manage 
bigger missions such as Explorer, many more have brought valuable 
technical expertise to private industry and the government workforce.
    NASA budgets for the Sub-orbital Sounding Rocket Program have 
remained flat. When one allows for inflation and the dramatically 
escalating launch costs, the net effect is a significant reduction in 
the capabilities of the program. Given the valuable educational, 
training and technology development roles of sounding rockets, any 
small saving derived from limiting this minor program has a major 
impact on future technical capabilities.

Research and Analysis Programs

    Research and Analysis (R&A, sometimes called Supporting Research 
and Technology SR&T) programs are crucial for understanding basic 
physical processes that occur throughout the Sun-heliosphere-planet 
system, and for providing valuable support to exploration missions. The 
objectives of R&A programs include:

        <bullet>  Synthesis and understanding of data gathered with 
        spacecraft,

        <bullet>  Development of new instruments,

        <bullet>  Development of theoretical models and simulations, 
        and

        <bullet>  Training of students at both graduate and 
        undergraduate levels.

    R&A programs support a wide range of research activities, including 
basic theory, numerical simulation and modeling, scientific analysis of 
spacecraft data, development of new instrument concepts and techniques, 
and laboratory measurements of relevant atomic and plasma parameters, 
all either as individual projects or, in the case of the SEC Theory 
program, via ``critical mass'' groups. Theory and modeling, combined 
with data analysis, are vital for relating observations to basic 
physics. Numerical modeling can also be a valuable tool for mission 
planning. Insights obtained from theory and modeling studies provide a 
conceptual framework for organizing and understanding measurements and 
observations, particularly when measurements are sparse and when 
spatial-temporal ambiguities exist. Theory and modeling will be 
especially important in the context of the space exploration initiative 
as exploration missions become more complex and the need for 
quantitative predictions becomes greater. These programs also are 
especially valuable for training students, at both the undergraduate 
and the graduate level, who will likely play a vital role in the NASA 
space exploration initiative or join the larger workforce as capable 
scientists/engineers/managers who cut their teeth on rigorous problems.
    NASA administration has suggested that the 2010 mission gap 
justifies an immediate 15 percent cut in R&A across the Science Mission 
Directorate. The high launch rate in 2006, the extensive list of on-
going productive missions and the Nation's need for a technically-
trained workforce all argue that R&A should be increased rather than 
cut.
    When it comes to shear science productivity, R&A grants deliver the 
most ``bang for the buck.'' These usually three-year grants of $100k/
year are highly competitive with only the very best 10-20 percent being 
selected via rigorous peer review. Even the most established scientists 
have to compete with everyone else. R&A programs provide the main basis 
of support for junior scientists--graduate students and post-doctoral 
researchers. Any cutbacks to R&A acutely impacts the most vulnerable 
and productive sector of space science.

2.  Do you believe the decisions NASA has made concerning which 
missions to defer or cancel are consistent with the most recent 
National Academies Decadal Survey that you released? Have there been 
any developments since the Decadal Survey that need to be taken into 
account, and has NASA considered those? Given the FY07 budget request, 
do you see any need to update the most recent survey or to change the 
process for the next Decadal Survey?

    The 2004 NRC report, Solar and Space Physics and Its Role in 
Exploration, examined the 2002 Decadal Survey made the following three 
recommendations:

        1.  To achieve the goals of the exploration vision there must 
        be a robust SEC program, including both the LWS and the STP 
        mission lines, that studies the heliospheric system as a whole 
        and that incorporates a balance of applied and basic science.

        2.  The programs that underpin the LWS and STP mission lines--
        MO&DA, Explorers, the suborbital program, and SR&T--should 
        continue at a pace and level that will ensure that they can 
        fill their vital roles in SEC research.

        3.  The near-term priority and sequence of solar, heliospheric, 
        and geospace missions should be maintained as recommended in 
        the decadal survey report both for scientific reasons and for 
        the purposes of the exploration vision.

    These recommendations remain valid today. The mission priorities 
within the basic science (STP) and applied science (LWS) mission lines 
as listed in the original Decadal Survey are generally reflected in the 
Heliophysics budgets for these two mission lines. Where NASA has 
deviated from the Decadal Survey is in putting greater weight on Living 
With a Star missions and losing the balance between applied and basic 
science. Such a priority of emphasizing short-term capability of 
predicting space weather over the long-term goal of understanding the 
underlying physical principles may have some practical expedience. A 
more critical issue, however, is the fact that small missions and 
supporting research have not kept pace. If these programs--the 
components that comprise the third leg of the stool and the training 
grounds for new scientists and engineers--are allowed to wither, 
Heliophysics will quite quickly topple over.
    The 2002 Decadal Survey, The Sun to the Earth--and Beyond, was the 
first conducted by the solar and space physics community (though 
smaller NRC committees have generated many shorter planning documents). 
The Decadal Survey involved hundreds of scientists in discussions that 
spanned nearly two years. The scientific priorities set out the survey 
remain valid today and I see no community movement to change them. But 
Decadal Surveys are not just a list of science priorities. To design a 
coherent program across a decade, it is essential to have a realistic 
budget profile as well reasonably accurate estimates of both technical 
readiness and costs of each mission. The Decadal Survey committee 
worked hard with engineers and NASA management to develop realistic 
mission costs and a program architecture that fit within budget 
profiles anticipated in FY03 budget. But changes to the budget profile 
in FY04 necessitated a substantial stretching of the mission schedule 
in the 2004 re-assessment of the Decadal Survey in light of the Vision 
for Space Exploration.\4\ Furthermore, under-costing of just a few 
missions--Big Digs in space--wreck havoc with even the best-laid plans. 
The scientific community needs to work with NASA to find ways to 
accurately cost missions, particularly large missions (e.g., by 
applying lessons learned from management of smaller, PI-led missions as 
appropriate and greater accountability).
---------------------------------------------------------------------------
    \4\ See charts on page 26 of Solar and Space physics and Its Role 
in Space Exploration, The National Academies Press, 2004.

3.  How should NASA balance priorities among the various disciplines 
supported by its Science Mission Directorate? Do you believe the 
proposed FY07 budget, given the overall level of spending allotted to 
---------------------------------------------------------------------------
science, does a good job of setting priorities across fields?

    Each of NASA's scientific themes makes breakthrough discoveries 
that hit the press headlines. Rather than distinguish between them, I 
would argue that budget priorities be made within each division and, 
should a project exceeds its budget, any accommodation be made within 
the division. This would enforce accountability.
    NASA conducts an outstanding program of scientific research within 
its Science Mission Directorate. The market place for scientific 
ideas--whether for a $100,000/yr research grant or a $1 billion 
mission--is a highly competitive world where only the very best ideas 
survive. NASA's science missions excite the public's interest in the 
universe around them, inspire young students to study math and science, 
and provide opportunities to generate a technically-trained workforce 
who contribute to the Nation's economy. Heliophysics not only has 
cultural and intellectual value but also adds practical and economic 
value as the Nation embarks on its next wave of space exploration.

                       Biography for Fran Bagenal
    Dr. Fran Bagenal was born and grew up in England. In 1976, inspired 
by the Viking mission to Mars and the prospect of the Voyager mission, 
she came to the U.S. for graduate study at MIT. Her 1981 Ph.D. thesis 
involved analysis of data from the Voyager Plasma Science experiment in 
Jupiter's giant magnetosphere. She spent 1982-1987 as a post-doctoral 
researcher in space physics at Imperial College, London. Voyager flybys 
of Uranus and Neptune brought her back to the U.S. and she joined the 
faculty at the University of Colorado, Boulder in 1989. She is 
Professor of Astrophysical and Planetary Sciences and faculty associate 
of the Laboratory of Atmospheric and Space Physics.
    In addition to the Voyager mission, Dr. Bagenal has been on the 
science teams of the Galileo mission to Jupiter and the Deep Space 1 
mission to Comet Borrelly. She edited Jupiter: Planet, Satellites and 
Magnetosphere (Cambridge University Press, 2004). She heads the plasma 
teams on the first two New Frontiers missions: New Horizons mission to 
Pluto (launched January 2006) and Juno, a Jupiter polar orbiter 
(scheduled for launch 2010/11).
    Dr. Bagenal has served on several committees of the National 
Research Council of the National Academy of Sciences: Space Studies 
Board, Committee on Planetary and Lunar Exploration, Solar and Space 
Physics Decadal Survey Committee, and chaired the Committee to Assess 
the Role of Solar and Space Physics in Exploration. She chairs NASA's 
Outer Planets Assessment Group.
    Dr. Bagenal became a U.S. citizen on 9/6/2001 and Fellow of the 
American Geophysical Union in 2006.

    Chairman Boehlert. Thank you very much, Dr. Bagenal.
    Dr. Huntress.

  STATEMENT OF DR. WESLEY T. HUNTRESS, JR., MEMBER, NATIONAL 
      ACADEMY OF SCIENCES DECADAL SURVEY FOR SOLAR SYSTEM 
    EXPLORATION; DIRECTOR, GEOPHYSICAL LABORATORY, CARNEGIE 
                    INSTITUTE OF WASHINGTON

    Dr. Huntress. Mr. Chairman and Members of the Committee, I 
am grateful for the opportunity also to testify before you here 
today. I have appeared before this committee many times in my 
career, and that record shows me, I think, to be an advocate 
for the scientific exploration of space, using both robotic and 
human elements, with the emphasis on scientific.
    Two years ago, the President released his Vision for Space 
Exploration and provided a budget that would support it. In the 
intervening two years, the Administration has reduced this 
budget to the point where the plan is insupportable. Last year, 
aeronautics and technology suffered. This year, the Agency's 
science program is to be cannibalized, even though the NASA 
Administrator had promised not to transfer ``one thin dime'' 
from scientific exploration into human space flight.
    The President's policy is not just about human space 
flight. The very first goal stated in the Vision is to 
implement a sustained and affordable human and robotic 
exploration program to explore the solar system and beyond, and 
to conduct robotic exploration across the solar system for 
scientific purposes and to support human exploration. This eye 
of the Vision seems to have lost its sight.
    This Administration's budget proposal loans $3.07 billion 
from the five-year runout of NASA's science budget to pay for 
the Shuttle and ISS completion. Of the several disciplines in 
NASA's science, solar system exploration, alone, is to pay 97 
percent of that bill, $2.99 billion, even though robotic 
exploration of the solar system is one of the most relevant to 
science enterprises and human exploration.
    This simply cannot be done without serious damage to an 
enterprise in the community that should, and needs to be, a 
partner with human exploration. Space science has been carrying 
the Agency exploration flag throughout the 1990s and into this 
new century, and the Agency has been justly proud of the 
productivity of these missions. missions such as Hubble, the 
Mars Exploration Rovers, the Cassini/Huygens mission at Saturn 
are, as Administrator Griffin, himself, said, the ``crown 
jewels'' of NASA, yet he has set NASA science on a declining 
course, not even keeping up with the projected growth in the 
rest of the Agency over the next five years.
    It simply makes no sense to cut science in NASA when the 
President told the Nation in the State of the Union address 
that we must increase our investment in science. Space 
exploration is an enormous draw to young scientists and 
engineers, but we are pulling the rug out from under their 
future.
    NASA's science enterprise is not just about flight 
missions. It is about, and foremost about, science. Flight 
missions are the tools. The science community and our 
universities, research organizations, and NASA's Centers are 
the very foundations of NASA science, and they are the soil out 
of which NASA's flight missions grow. Yet, the fiscal year 2007 
budget will reduce their funding by 15 percent across the 
board, and for reasons hard to fathom, one program, 
astrobiology, is targeted for a 50-percent reduction. The 
consequences of these reductions would be to cripple the 
ability of NASA science enterprise that create a generation of 
new scientists, a new generation of flight missions, and worst 
of all, it will short-circuit the careers of young scientists, 
precisely the opposite of what this country needs in order to 
remain competitive.
    All of these cuts are immediate in this fiscal year, 
dimming the prospects of many young motivated students now. 
What kind of message is that to the best and brightest of 
America's hopes for a rich technological future? If there is to 
be any science at all in human space flight to the Moon and 
beyond, it needs to come from these very same young people.
    The major damage in the budget to solar system flight 
missions to the Mars and Outer Planets flight programs. Mars 
flight missions are reduced from a nominal two launches per 
opportunity to only one, and the number of medium-class 
missions is reduced. Two small Scout missions are eliminated, 
and technology developments for missions beyond 2009 are cut.
    For the Outer Planets program, the Europa Orbiter mission, 
the only flagship mission and the highest science priority, is 
deferred to the next decade. For the first time in four decades 
there will be no solar system exploration flagship at all, and 
we will remain ignorant that much longer of Europa's deep ocean 
and the potential for life within it.
    The small and medium-class missions that are the sustaining 
elements of the planetary flight program are at risk.
    The inevitable result of all of these delays and deletions 
is the potential loss of technological expertise to conduct 
these missions. It is not possible to retain the best of people 
if there is a lack of stability and no clear sense of a strong 
future. You can't have world-class flight missions without 
world-class people.
    The bottom line is that the future of our nation's solar 
system exploration program has been mortgaged. The momentum of 
current mission development will probably carry it for about 
two years, but then the bottom begins to fall out.
    In lean times, the most important elements for sustaining 
the enterprise are: first, the fundamental research the 
programs that form the basis for solar system exploration; 
second, technology development to allow for the future of 
missions of all classes; and third, the lowest cost, highest 
flight rate, competed flight programs in the small and medium 
flight mission lines. This budget fails to do all of those 
things.
    The President's Vision is about robots and humans exploring 
to find our destiny in the solar system together. Instead of 
drawing on the strengths of both, this budget pits one versus 
the other, undermining the Vision, rather than promoting. It 
pawns a planetary exploration program that is the envy of the 
world. No one else is going to Pluto.
    The Administrator's budget message said about the Vision, 
``We will go as we can afford to pay.'' But the only way he can 
pay is by taking resources from the future of science and 
technology. If these annual reductions in NASA's budget 
continue, and if NASA continues to drain resources from science 
and technology, then America can retire as the leading nation 
in the scientific exploration of space, whether by robots or by 
humans.
    Mr. Chairman, Members of the Committee, thank you very 
much.
    [The prepared statement of Dr. Huntress follows:]
             Prepared Statement of Wesley T. Huntress, Jr.

Mr. Chairman and Members of the Committee:

    I am grateful for the opportunity to testify before you today. I 
have appeared before this committee many times in my former job as the 
NASA Associate Administrator for Space Science, and few times since. I 
now appear before you to address concerns about the future of America's 
Earth and space science in NASA's proposed FY07 budget.

The top line for NASA

    I am an advocate for the scientific exploration of space--using 
both robotic and human elements--with the emphasis on scientific 
exploration. I also believe in the President's new Space Policy and 
that the CEV is the right way to start. But this FY07 budget proposes 
to implement the two-year-old Vision for Space Exploration without 
sufficient funding, and as a consequence does considerable damage to 
NASA's robotic, scientific exploration program. NASA's plans have been 
called Apollo on steroids, but the budget provided is Apollo on food 
stamps.
    Two years ago when the President released his Vision, he provided 
an FY05 budget proposal with new funds in the five-year run out that 
would support it. In the intervening years, the Administration has 
reduced this budget to the point where the plan is insupportable. Last 
year, the Administration cut that budget, forcing the Agency to take 
the money from aeronautics and technology funding. This year, the 
Administration has reduced the budget yet again, forcing the Agency to 
take an even larger chunk of money from the only enterprise left 
undamaged in the Agency--science.
    The White House wants U.S. obligations to the International Space 
Station partners to be honored, the Space Shuttle flown as many times 
as necessary to complete the station's construction, and a replacement 
for the Shuttle (the Crew Exploration Vehicle, or CEV) flying by 2014. 
The only problem is that these requirements were handed to NASA without 
the $3 billion to $5 billion necessary for flying the required number 
of Shuttle flights to complete space station construction. This forced 
the NASA administrator to cannibalize the Agency's science program even 
though he promised last year not to transfer ``one thin dime'' from 
scientific exploration into human space flight.
    The President's Space Policy is not just about human space flight. 
The very first goal stated in the Vision is to ``implement a sustained 
and affordable human and robotic program to explore the solar system 
and beyond.'' The Vision further advocates that we ``conduct robotic 
exploration across the solar system for scientific purposes and to 
support human exploration.'' This eye of the Vision seems to have lost 
its sight.

The top line for NASA Science

    The Administration's 2007 budget proposal removes $3.07 billion 
from the previously planned five-year run out of the Earth and space 
science budget. Of this, $2.99 billion is to come from solar system 
exploration alone. Of the several disciplines in Earth and space 
science, solar system exploration alone is to pay 97 percent of the 
bill for the Shuttle even though robotic exploration of the solar 
system is one of the most relevant of science enterprises to human 
exploration.
    This simply cannot be done without serious damage to an enterprise 
and community that should, and needs to be, a partner with human 
exploration.
    NASA officials attempt to put positive spin on this damage by 
citing the growth of space science in NASA from about 21 percent of the 
budget in 1992 to 32 percent today. But, during that same time period 
space science has been carrying the Agency exploration flag, and the 
Agency has been rightly proud of the productivity of the Earth and 
space sciences. Missions such as Hubble, Mars Exploration Rovers and 
Cassini/Huygens are, as Administrator Griffin himself said, the ``crown 
jewels'' of NASA. Yet he has set NASA science on a declining course, 
not even keeping up with the projected growth in the rest of the Agency 
over the next five years.
    Does it make good business sense to damage the most productive 
enterprise in your portfolio to promote a poorly performing one that 
you firmly expect to terminate in five years?

The President wants to grow federal investment in science

    And does it make sense to cut science in NASA when the President 
told the Nation in his State of the Union address that we must increase 
our investment in science to insure that America retains its 
competitive edge? The Senate has taken action on this issue with the 
``Preserving America's Competitive Edge'' Acts (PACE Acts). But the 
NASA budget ignores both the President's directive and language in S.R. 
2198 authorizing 10 percent increases in NASA basic research through 
2013. Congress should correct this oversight as the House moves to 
bills similar to the Senate's PACE Acts.
    The President's arguments on the need to increase federal support 
of the physical sciences are particularly true of NASA science. Space 
exploration is an enormous draw to young people. This nation never saw 
such an increase in new science graduates than after the start of the 
Space Age in 1957. Now, at the start of the President's new Vision for 
Space Exploration, we are doing everything we can to turn off brilliant 
young Earth and space scientists by pulling the rug out from their 
prospects for the future.

The FY07 budget proposal and the NRC's Solar System Decadal Report

    The FY07 budget proposal does serious damage to the course set for 
the Nation's solar system exploration enterprise in the NRC's Solar 
System Decadal Report through its recommendations for research, 
technology and flight missions. This National Academy report 
establishes the scientific goals for robotic solar system exploration 
for the decade 2003-2012, the measurements at solar system destinations 
required to meet those science goals, and the flight missions necessary 
to travel to these destinations. The report also makes recommendations 
on the basic research and technology developments required to support 
those flight missions and to prepare for future missions beyond the 
next decade.
Depleting the Science Pool
    NASA's Earth and space science enterprise is not just about flight 
missions. It is foremost about science. Flight missions are the tools 
for conducting that science--for implementing scientific exploration of 
our solar system and beyond. Science flight missions are not furnished 
by the government to the science community, they are created by the 
science community. Scientists constantly generate new science questions 
from their research and from previous mission results. They then devise 
the measurements that need to be made in order to answer those 
questions. And finally they work with the engineers to create flight 
mission concepts to make those measurements at solar system 
destinations. These scientists are spread throughout the country, 
conducting their basic research in universities, research centers and 
NASA Centers. They are supported primarily by NASA research grants in 
what's known as Research and Analysis programs, or R&A, and by grants 
for mission data analysis also now covered in the R&A portion of the 
SMD budget.
    While the 2003 Solar System Decadal Report recommends that R&A be 
increased over this decade at a rate above inflation, the FY07 budget 
would reduce funding for R&A by 15 percent across the board. For 
reasons hard to fathom, one particular program, Astrobiology, is 
targeted for a 50 percent reduction. Astrobiology was specifically 
named by the Decadal report as an important new component in the R&A 
program and is recognized even outside NASA as the Agency's newest and 
most innovative research program bringing biologists, geologists and 
space scientists together to understand the earliest life on Earth and 
how we might search for life elsewhere beyond our own planet.
    The consequences of these unprecedented reductions would be to 
cripple the ability of NASA's science enterprise to create the next 
generation flight missions and worse of all it will short-circuit the 
careers of many young scientists. Precisely the opposite of what this 
country needs to remain competitive.
    And all these cuts are immediate--today, in the 2006 budget year. 
Grants are to be reduced immediately, dimming the prospects of many 
young, motivated students now. What kind of message is that to the best 
and brightest of American's hopes for a rich technological future? And 
if there is to be any science at all in human space flight to the Moon 
and beyond, it needs to come from these young people.
Reducing Flight Missions
    The Decadal Report also prioritizes the flight missions proposed 
for the next decade within separate cost categories--small, medium and 
large.
    For small missions, the report assumes a Discovery program of low 
cost, competed missions at a rate of about one launch per 18 months or 
about six per decade, and for the Discovery-like Mars Scouts about 
three launches per decade. Both of these assumptions are based on their 
historical annual budget levels.
    For medium-class missions, the report assumes a New Frontiers 
program of competed missions at a rate of about three per decade. This 
is the rate established for the New Frontiers line when it was opened 
with the Pluto/Kuiper Belt mission.
    For large, flagship missions, the report assumes one per decade 
based on historical data for new starts in this category (Viking in the 
1970s, Galileo in the 1980s, and Cassini-Huygens in the 1990s).
    For the Mars Exploration flight program, the Decadal report assumed 
approximately two launches every 26 months, either two medium-class 
launches or one medium and one small Mars Scout mission depending on 
timing and cost for the specific missions. This was based on the annual 
funding level for Mars Exploration in 2003.
    The major damage in the FY07 budget to solar system flight missions 
is to the Mars and the Outer Planets flight programs. Mars flight 
missions are reduced from a nominal two launches per opportunity to 
only one, and the number of medium missions is reduced by alternating 
launch opportunities between medium and small. Two Mars Scouts are 
eliminated, technology developments for missions beyond 2009 are 
reduced, and developments for a potential Mars Sample Return mission in 
the next decade practically eliminated. All of this will hobble our 
search for signs of past water and perhaps early life on our next-door 
neighbor.
    For the Outer Planets flight program, the Europa Orbiter mission, 
only flagship mission and the highest science priority, is deferred to 
the next decade. For the first time in four decades there will be no 
solar system flagship mission at all. For science, we will remain 
ignorant that much longer of Europa's deep ocean and the potential for 
life within it.
    The Discovery program of small missions is already in prolonged 
delay and there will be no launch until the end of the decade, for a 
hiatus of more than four years since the last. And the third New 
Frontiers mission selection is delayed by about a year.
    The inevitable result of these delays and deletions is the 
potential loss of technological expertise to conduct these missions. 
Young scientists and engineers will be forced to look elsewhere for a 
more reliable, sustainable career path. It is not possible to retain 
the best of people if there is a lack of stability and a no clear sense 
of a strong future. You can't have world-class flight missions without 
world-class people.
Tossing Technology
    For this reason, more than the flight mission delays themselves, a 
failure to continue to develop the technologies required for 
accomplishing future missions short circuits the future. Sustaining 
funding for technology development is the key to surviving hard times 
in flight mission development and guaranteeing a future. This budget 
does just the opposite.

Concern for the future

    The bottom line is that the future of our nation's solar system 
exploration enterprise has been mortgaged. The momentum of current 
mission development will carry it for about two years, and then the 
bottom begins to fall. We must sustain the science and technology that 
will afford us a new future when we get there two years from now.
    Consistent with the NRC Decadal study, the most important elements 
to sustain the enterprise are the fundamental research programs that 
form the basis for solar system exploration and the lowest cost, 
highest flight rate, widely competed flight programs in the small to 
medium flight mission lines. And if we are ever to recover, we must 
also invest in our technological readiness for flagship missions in the 
future.

Is this the best Vision?

    The Vision is about robots and humans exploring to find our destiny 
in the solar system together. Instead of drawing on the strengths of 
both, this budget pits one vs. the other and undermines the Vision 
rather than promoting it. It pawns a planetary exploration program that 
is the envy of the world to pay for a program beset with problems and 
slated for termination.
    The Administrator's budget message said about the Vision, ``we will 
go as we can afford to pay.'' But the only way he can pay is by taking 
resources from the future of science and robotic exploration. If these 
annual reductions in NASA's budget continue, and if NASA continues to 
drain resources from science and technology, then America can retire as 
the leading nation in the scientific exploration of space, whether by 
robots or by humans.

                 Biography for Wesley T. Huntress, Jr.
    Dr. Wesley T. Huntress, Jr., is Director of the Geophysical 
Laboratory of the Carnegie Institute of Washington. Dr. Huntress joined 
the Carnegie staff in September 1998 after a 30-year career as a 
scientist and administrator in the Nation's space program. At the 
Geophysical Laboratory he directs one of the Nation's most prestigious 
scientific establishments in the geosciences. Dr. Huntress continues 
his research at GL in astrochemistry and remains a community leader in 
the scientific exploration of the solar system.
    Dr. Huntress earned his Bachelor of Science degree in chemistry 
from Brown University in 1964 and his Ph.D. in Chemical Physics from 
Stanford University in 1968, after which he joined the science staff at 
Caltech's Jet Propulsion Laboratory. Dr. Huntress left JPL in 1988 to 
join NASA Headquarters in Washington, DC, where he served the Nation's 
space program for ten years. From 1988 to 1990 he was assistant to the 
Director of the Earth Sciences and Applications Division, from 1990 to 
1992 he was Director of the Solar System Exploration Division and from 
1993 to 1998 he served as NASA Associate Administrator for Space 
Science.
    At JPL, Dr. Huntress participated in several missions, as a co-
investigator on the Giotto Halley Comet mission, coma scientist for the 
Comet Rendezvous Asteroid Flyby mission, and as pre-project study 
scientist for the Cassini mission. He also served in a number of line 
and program management assignments at JPL. Dr. Huntress and his 
research group at JPL gained international recognition for their 
pioneering studies of chemical evolution in interstellar clouds, 
comets, and planetary atmospheres. Dr. Huntress's last year at JPL in 
1987-1988 was spent as a Visiting Professor of Cosmochemistry in the 
Department of Planetary Science and Geophysics at Caltech. In 1999 the 
Director of JPL appointed Dr. Huntress to the position of Distinguished 
Visiting Scientist at JPL.
    As Associate Administrator for Space Science at NASA Headquarters, 
Dr. Huntress was a key architect of the ``smaller, faster, cheaper'' 
mission model, and opened up new opportunities for space scientists and 
industry through new and innovative methods for carrying out Space 
Science missions. Dr. Huntress created a new, scientifically integrated 
Space Science program with a clear strategic vision for the future and 
a new strong emphasis on technology development. In carrying out this 
strategy, Dr. Huntress is responsible for starting a number of new 
missions lines including the New Millennium technology flight test 
program, a restructured Explorer program, the Discovery program of low-
cost planetary missions including the Near-Earth Asteroid Rendezvous 
and Mars Pathfinder missions, the ongoing Mars Exploration Program, and 
Solar-Terrestrial probes series. Dr. Huntress is also the architect of 
NASA's new Origins program featuring new technology development in 
spacecraft and science instrument technologies and approvals for new 
space science missions such as the Next Generation Space Telescope, the 
Space Interferometer Mission and the future Planet Finder. Dr. Huntress 
is the founder of NASA's Astrobiology program.
    Dr. Huntress is the recipient of many NASA awards including the 
NASA Exceptional Service Medal in 1988, the NASA Outstanding Leadership 
Medal in 1994, the NASA Distinguished Service Medal in 1996 and 1998, 
and the Robert H. Goddard Award in 1998. The President has honored Dr. 
Huntress three times, as Presidential Meritorious Executive in 1994, as 
Presidential Distinguished Executive in 1995 and a Presidential Award 
for Design of the Mars Pathfinder Mission. Dr. Huntress was awarded the 
Schreiber-Spence Award in 1997 for contributions to space technologies 
and applications. In 1998, the minor planet 1983 BH was renamed 7225 
Huntress on the occasion of Dr. Huntress's departure from NASA. In 
2005, his alma mater Brown University awarded him an Honorary Doctorate 
in Science for his professional achievements in science.
    Dr. Huntress is a Fellow and Past President of the American 
Astronautical Society and recipient of the Society's Carl Sagan 
Memorial Award for achievement in astronautical science. He is also a 
member of American Astronomical Society/Division of Planetary Sciences, 
current Vice-Chair, and recipient of the Division's Harold Masursky 
award for service to the planetary science community. Dr. Huntress is 
an Academician in the International Academy of Astronautics, President 
of The Planetary Society, a Lifetime Associate of the National Academy 
of Science, and a Distinguished Visiting Scientist at Caltech/JPL.
    Dr. Huntress currently resides with his wife Roseann in Rockville, 
Maryland. They have one son, Garret, 24.

    Mr. Calvert. [Presiding] I thank the gentleman.
    Dr. Moore. The gentleman may want to turn his microphone 
on. The little button there.

   STATEMENT OF DR. BERRIEN MOORE III, CO-CHAIRMAN, NATIONAL 
    ACADEMY OF SCIENCES DECADAL SURVEY FOR EARTH SCIENCES; 
DIRECTOR, UNIVERSITY DISTINGUISHED PROFESSOR, INSTITUTE FOR THE 
 STUDY OF EARTH, OCEANS, AND SPACE, UNIVERSITY OF NEW HAMPSHIRE

    Dr. Moore. Okay. Mr. Chairman, Ranking Minority Member, and 
Members of the Committee, thank you for inviting me here to 
testify.
    Last April, I appeared before this committee to discuss the 
interim report from the National Academy's Decadal Survey for 
Earth Science. That report warned that the Nation's system of 
environmental satellites is at risk of collapse. That 
statement, which may have seemed somewhat extreme at the time, 
was made before Hydros and Deep Space Climate Observatory 
missions were canceled, before the Global Precipitation Mission 
was delayed for two and a half years, before the NPOESS 
Preparatory Program was delayed for a year and a half, before 
the NPOESS program breached the Nunn-McCurdy budget cap, and 
before significant cuts were made in NASA's research and 
analysis account. In less than a year since our interim report 
was issued, matters have gotten progressively worse.
    It is this backdrop that I turn to the Committee's 
questions.
    The Committee asked me to comment on what I see as the most 
serious impacts to the proposed slower growth in the Science 
Mission Directorate.
    I believe the impacts of most concern are the severe cuts 
in the Research and Analysis program. Cuts in R&A would be very 
damaging to the science and technology programs in the United 
States, particularly those at universities and particularly for 
the younger scientists.
    The numerous mission cancellations, deferrals, and de-
scoping that have occurred in the previous two budget cycles 
have already had a severe detrimental effect on NASA's Earth 
science. I am concerned that the new cuts in the fiscal year 
2007 budget, especially the significant reductions in funding 
for research and analysis, could have a devastating effect on a 
program already pared to the bone.
    I would like to address your question on the related 
impacts of mission delays and the issue pertaining or 
attracting scientists and engineers.
    Two impacts of added delays are: one, there will be 
increased costs downstream that will further undermine the 
possibilities for a revitalized future Earth science program; 
and secondly, there will be a continued negative impact on the 
morale of scientists within and outside of NASA.
    Reports of this impact should not be underestimated. The 
Committee well knows procurement stretch-outs always increase 
overall program costs. Moreover, moving costs forward in time 
for current missions in development means that there is less 
outyear money for the future. Once again, we are mortgaging our 
future.
    In the interest of time, I will not discuss the particular 
problems that may arise in connection with the delay of the 
Global Precipitation Mission. They are detailed in my written 
testimony.
    However, I do want to discuss the impact of program delays 
on morale and maintaining the health of a specialized workforce 
that is necessary to maintain core competencies.
    From personal conversations, the sense of gloom and 
discouragement is widespread, and this is obviously connected 
to your important question: ``At what point do delays or 
cutbacks become severe enough to make it difficult to retain or 
attract scientists or engineers to your field?''
    In my view, we are well past that point. Prior 
deterioration of NASA's Earth science program, which was 
discussed in the interim report, has already had an adverse 
impact on our ability to attract scientists and engineers. The 
situation will only grow worse unless there are significant 
improvements to the fiscal year 2007 proposal.
    With regards to the Committee's second question, I will 
refer to my written testimony that documents the many ways the 
budget proposed for NASA is at odds with the key 
recommendations in the interim report. In fact, apart from the 
restoration of the Glory mission, essentially none of our 
recommendations were acted upon.
    Lastly, the Committee asked about the balance among the 
various disciplines supported by the Science Mission 
Directorate.
    Before responding, I want to note again that NASA's science 
programs, across the board, have already sustained deep cuts in 
the last two budget cycles. In fact, the cuts are, perhaps, 
worse than some may be aware, as recent downward modifications 
to NASA's operating plan make the proposed fiscal year 2007 
budget cuts retroactive to the beginning of fiscal year 2006. 
That said, budget priorities at NASA must be balanced to 
reflect the highest priorities of the four Decadal Surveys.
    The scientific community recognizes that much will not be 
accomplished in our current budget environment, but we must 
seek to realize the highest priority elements. I strongly 
support the fiscal year 2006 authorizing language charging the 
NASA Administrator to develop a plan to guide the science 
programs at NASA through 2016.
    I conclude my testimony by stating my strong support, which 
I publicly did at the December 2005 meeting of the AGU, for the 
new leadership at NASA. I believe that the scientific 
community, as a whole, is also strongly supportive of the new 
leadership. However, NASA is now being asked to do more than is 
possible with the resources it has been given.
    Though not the subject of this hearing, this situation begs 
for an honest appraisal of NASA's portfolio, its priorities, 
and whether the Nation can afford to allow NASA's science 
programs to languish.
    I look forward to answering your questions.
    Thank you very much.
    [The prepared statement of Dr. Moore follows:]
                Prepared Statement of Berrien Moore III

Mr. Chairman, Ranking Minority Member, and Members of the Committee:

    Thank you for inviting me here to testify today. My name is Berrien 
Moore, and I am a Professor of Systems Research at the University of 
New Hampshire and Director of the Institute for the Study of Earth, 
Oceans, and Space. I appear today largely in my capacity as co-chair of 
the National Research Council (NRC)'s Committee on Earth Science and 
Applications from Space.\1\ The views expressed in today's testimony 
are my own, but I believe they reflect community concerns. They are 
also fully supported by my co-chair for the NRC study, Dr. Richard 
Anthes, President of the University Corporation for Atmospheric 
Research (UCAR) and President-elect of the American Meteorological 
Society.
---------------------------------------------------------------------------
    \1\ <http://qp.nas.edu/decadalsurvey>
---------------------------------------------------------------------------
    As you know, the NRC is the unit of the National Academies that is 
responsible for organizing independent advisory studies for the Federal 
Government on science and technology. In response to requests from 
NASA, NOAA, and the USGS, the National Research Council has begun a 
``decadal survey'' of Earth science and applications from space which 
is due to be completed in late 2006. The guiding principle for the 
study, which was developed in consultation with members of the Earth 
science community, is to set an agenda for Earth science and 
applications from space, including everything from short-term needs for 
information, such as environmental warnings for protection of life and 
property, to longer-term scientific understanding that is essential for 
understanding our planet and is the lifeblood of future societal 
applications.
    The NRC has been conducting decadal strategy surveys in astronomy 
for four decades, but it has only started to do them in other areas 
fairly recently. This is the first decadal survey in Earth science and 
applications from space.
    Among the key tasks in the charge to the decadal survey committee 
is the request to:

        <bullet>  Develop a consensus of the top-level scientific 
        questions that should provide the focus for Earth and 
        environmental observations in the period 2005-2020; and

        <bullet>  Develop a prioritized list of recommended space 
        programs, missions, and supporting activities to address these 
        questions.

    Recognizing the near-term challenges likely for FY06 and FY07, the 
sponsors of the decadal study requested an examination of urgent issues 
that required attention prior to publication of the survey committee's 
final report, which was scheduled for publication in the fall of 2006. 
The committee's ``Interim Report,'' ``Earth Science and Applications 
From Space: Urgent Needs and Opportunities to Serve the Nation,'' was 
delivered to the sponsors and briefed to this committee on 28 April 
2005.\2\
---------------------------------------------------------------------------
    \2\ National Research Council, Science and Applications from Space: 
Urgent Needs and Opportunities to Serve the Nation, The National 
Academies Press, 2005. <http://www.nap.edu/catalog/11281.html>.
---------------------------------------------------------------------------
    In the Interim Report, we stated that the Nation's ``system of 
environmental satellites is at risk of collapse.'' That statement, 
which may have seemed somewhat extreme at the time, was made before 
Hydros and Deep Space Climate Observatory missions were canceled; 
before the Global Precipitation Mission was delayed for two and a half 
years; before the NPOESS Preparatory Program mission was delayed for a 
year and a half; before the NPOESS program breached the Nunn-McCurdy 
budget cap and was delayed for at least several years, and before 
significant cuts were made to NASA's Research and Analysis account. In 
less than a year since our Interim Report was issued, matters have 
gotten progressively worse.
    It is against this backdrop that I turn to the Committee's 
questions.

What do you see as the most serious impacts on your field of the 
proposed slowed growth in the Science Mission Directorate? Clearly, it 
would be better to conduct more science than less, but what is the real 
harm in delaying specific missions? At what point do delays or cutbacks 
become severe enough to make it difficult to retain or attract 
scientists or engineers to your field?

    The most serious impacts on Earth Sciences of the proposed slowed 
growth in the Science Mission Directorate are the severe cuts in the 
Research and Analysis program. These cuts would be very damaging to the 
science and technology programs in the United States, particularly 
those at universities. We all know that our country is struggling to 
attract students to physics and mathematics. In the State of the Union 
address, President Bush proposed, ``to double the federal commitment to 
the most critical basic research programs in the physical sciences over 
the next 10 years.'' The President's proposal was part of a larger 
effort to ``encourage children to take more math and science, and to 
make sure those courses are rigorous enough to compete with other 
nations.'' In my view, the cuts to NASA's Research and Analysis program 
in Earth Science are at odds with these objectives.
    The numerous mission cancellations, deferrals, and de-scoping that 
have occurred in the previous two budget cycles have already had a 
severe detrimental effect on NASA Earth science. The table below, which 
is taken from the Interim Report, shows just the effects of the FY06 
budget.\3\ I am concerned that the new cuts in the FY07 budget, 
especially the significant reductions in funding for Research and 
Analysis, could have a devastating effect on a program already pared to 
the bone.
---------------------------------------------------------------------------
    \3\ Ibid, page 17. Note that the Glory mission was subsequently 
restored. The latest plan for LDCM is to implement the mission as a 
free-flyer with a launch in 2011.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    For example, it is my understanding that approximately half of the 
NASA Goddard Spaceflight Center's workforce is made up of contractors. 
The proposed cuts across NASA for Research and Analysis funding are 
approximately 15 percent. In the Earth sciences, I am told that the 
cuts for FY07 appear to be closer to 20 percent in key elements. Since 
Goddard cannot reduce its civil service workforce, this cut will be 
magnified by a factor of two on the contractor workforce. The current 
contractor workforce is about 300 people and thus up to 120 people 
could be let go. A similar impact is likely at universities, especially 
as NASA will have to pay its civil servants first. Research and 
analysis grants will be cut; members of the community are concerned 
that grants already awarded might be withdrawn.
    Because of the nature of the competitive process, universities, 
industry, and NASA centers must invest significant internal funds to 
prepare proposals that are compelling scientifically. Prematurely 
cutting missions or research awards for non-technical or cost reasons 
or eliminating grants after they have been awarded will have permanent, 
damaging consequences. The scientific community is beginning to 
question the reliability of NASA as a partner, and the wisdom of 
investing internal resources in the proposal development process.
    Another impact is to reduce scientific research on missions that 
have already been launched and are providing novel observations of the 
Earth with unprecedented opportunities to learn about our planet. 
Cutting the research after all of the expense of building and launching 
the missions means that much of the up-front, and most expensive part 
of the mission will be wasted.
    While I understand that NASA is facing difficult budgetary 
decisions, and priorities must be set, it would be a severe blow to 
NASA science to allow the R&A awards to be cut--especially given the 
already large investment in missions and the relatively low-cost, 
productive, and unique scientific understandings that result from these 
awards.
    I shall return to this topic in answering your second question, but 
first let me address the other two components of the Committee's first 
question: the impact of mission delays and retaining or attracting 
scientists and engineers.
    The impact of added delays are two-fold: 1) There will be increased 
costs downstream that will further undermine the possibilities for a 
revitalized future Earth science program, and 2) There will be 
continued negative impact on the morale of scientists within and 
outside of NASA. The importance of this impact should not be 
underestimated.
    As this committee knows, procurement stretch-outs always increase 
overall program costs. Moreover, moving costs forward in time for 
current missions in development means that there is less ``out-year'' 
money for the future. Once again, we are mortgaging our future. In 
addition, delays often mean the penalties of missed synergies and gaps 
in observations associated with delay in execution.
    For example, the two-year delay in the Global Precipitation Mission 
(GPM) will create a gap between its operation and that of the Tropical 
Rainfall Measurement Mission (TRMM), whose science operations were 
extended last year in part because of their valuable role in 
meteorological forecasts of severe weather events. The delay of GPM 
also endangers a carefully planned partnership with the Japanese space 
agency, JAXA.\4\ Goddard will also be challenged to maintain a viable 
mission given a flat funding profile for GPM from FY06 through FY08. 
Project scientists are rightfully concerned that the two-year delay in 
GPM threatens the viability of the mission.
---------------------------------------------------------------------------
    \4\ Among other items, JAXA is developing the dual-frequency 
precipitation radar that is at the heart of the GPM mission.
---------------------------------------------------------------------------
    However, I am equally concerned about the impact of program delays 
on the morale of scientists within and outside of NASA and the health 
of the specialized workforce that is necessary to maintain core 
competencies. From personal conversations and anecdotal reports, the 
sense of gloom and discouragement is widespread, and this is obviously 
connected to your important question, ``At what point do delays or 
cutbacks become severe enough to make it difficult to retain or attract 
scientists or engineers to your field?'' In my view, we are well past 
that point--the prior deterioration of the NASA Earth Science program, 
which was discussed in the Interim Report, has already had an adverse 
impact on our ability to attract scientists or engineers. This 
situation will only grow worse unless there are significant 
improvements to the FY07 budget proposal.

Do you believe the decisions NASA has made concerning which missions to 
defer or cancel are consistent with the interim report of the National 
Academies Decadal Survey that you released? Given the FY07 budget 
request, do you see any need to change the process for the next Decadal 
Survey?

    The budget is inconsistent with the Interim Report. This is the 
real issue.
    The Interim Report endorsed the Hydros Mission; subsequently but 
before the FY07 budget was released, Hydros was canceled. So was the 
Deep Space Climate Observatory, which was not addressed by the Interim 
Report, but had been supported by an earlier panel of the Academy.\5\ 
The Interim Report stated that the Global Precipitation Mission should 
``proceed immediately and without further delay.'' The NASA FY07 action 
delays the mission by two and a half years.
---------------------------------------------------------------------------
    \5\ National Research Council, Review of Scientific Aspects of the 
NASA Triana Mission: Letter Report, National Academies Press, 2000. 
<http://www.nap.edu/catalog/9789.html>.
---------------------------------------------------------------------------
    The Interim Report not only recommended that NASA and NOAA complete 
the fabrication, testing, and space qualification of the atmospheric 
soundings from geostationary orbit instrument (GIFTS--Geostationary 
Imaging Fourier Transform Spectrometer), but it also recommended that 
they support the international effort to launch this instrument by 
2008. While NOAA has completed some of the space qualification of 
GIFTS, the FY07 budget does not provide the additional funding that 
would be necessary to complete GIFTS.
    The Interim Report also asked for studies regarding linking of NASA 
missions and plans and the NPOESS program in several key measurement 
areas: ocean vector winds, atmospheric aerosols, solar irradiance. We 
also requested an analysis of the capabilities of the then planned 
NPOESS Operational Land Imager (OLI) to execute the LandSat Data 
Continuity Mission. We have not received these studies, though we 
recognize that events subsequent to the publication of our report have 
altered the circumstances for some of the requests. However, I believe 
that the need for such studies has increased given the budget 
challenges for NASA and NOAA, the delay, cost growth, and likely 
changes to NPOESS, and the delay and changing ideas for the development 
of an operational land imaging capability and implementation of the 
LDCM.
    The Interim Report called for the release of the next Announcement 
of Opportunity (AO) for the Earth System Science Pathfinder (ESSP) 
program in FY 2005; we understand that the earliest AO for the next 
ESSP will be FY 2008.
    Finally, in closing my April 2005 testimony before this committee, 
I stated that the Decadal Survey Committee was ``concerned about 
diminished resources for the research and analysis (R&A) programs that 
sustain the interpretation of Earth science data. Because the R&A 
programs are carried out largely through the Nation's research 
universities, there will be an immediate and deleterious impact on 
graduate student, postdoctoral, and faculty research support. The long-
term consequence will be a diminished ability to attract and retain 
students interested in using and developing Earth observations. Taken 
together, these developments jeopardize U.S. leadership in both Earth 
science and Earth observations, and they undermine the vitality of the 
government-university-private sector partnership that has made so many 
contributions to society.'' Unfortunately, the FY07 budget for Earth 
Science reflects cuts of 15 percent or more in the overall R&A program 
for Earth Science. We are headed in the wrong direction.

How should NASA balance priorities among the various disciplines 
supported by its Science Mission Directorate? Do you believe the 
proposed FY07 budget, given the overall level of spending allotted to 
science, does a good job of setting priorities across fields?

    As noted above, NASA's science programs have already sustained deep 
cuts in the last two budget cycles. Exacerbating the cuts is the recent 
and not widely reported downward modifications to the Operating Plan 
for FY06. These cuts, which were submitted shortly after the release of 
the FY07 budget, make the proposed FY07 budget cuts retroactive to the 
beginning of FY06. The timing of the cuts makes their effect more 
severe; it also masks the magnitude of what is an enormous cut to the 
FY07 budget (because the comparison of FY07 to FY06 is now made with 
new, reduced FY06). Budget analyses that do not account for these 
recent changes leave the impression that the NASA Earth Science 
research budget is flat when in fact it has been decimated.
    In response to the Committee's question above: Budget priorities at 
NASA must be balanced to reflect the highest priorities of the four 
decadal surveys. The scientific community recognizes that much will not 
be accomplished in our current budget environment, but we must seek to 
realize the highest priority elements. I strongly support the FY06 
Authorizing language charging the NASA Administrator ``to develop a 
plan to guide the science programs of NASA through 2016.''
    Let me conclude my testimony by stating my strong support, which I 
did publicly at the December 2005 meeting of the AGU, for the new 
leadership at NASA. I believe that the science community as a whole is 
also strongly supportive of the new leadership. However, NASA is now 
being directed to do more than is possible with the resources it has 
been given. I believe the health of science programs at NASA, which 
less than three months ago were said to be protected by a ``firewall'' 
from obligations to complete the ISS, develop the CEV, and return the 
Shuttle to flight, is in peril. Simply stated, given the NASA ``bottom 
line'' budget number and the ``demands'' of Station, Shuttle, and 
Exploration, there is far less room ($3.1 billion less in the next five 
years) for science.
    Further, one can be reasonably sure that the pressure on science to 
fund under-budgeted parts of NASA flight programs will only increase--
few, if any, large and complex technology development projects come in 
under budget. While not the subject of this hearing, this situation 
begs for an honest appraisal of NASA's portfolio, its priorities, and 
whether the Nation can afford to allow NASA science programs to 
languish.
    I look forward to answering any questions you may have. Thank you.

                    Biography for Berrien Moore III
    Berrien Moore III joined the University of New Hampshire (UNH) 
faculty in 1969, soon after receiving his Ph.D. in mathematics from the 
University of Virginia. A Professor of Systems Research, he received 
the University's 1993 Excellence in Research Award and was named 
University Distinguished Professor in 1997. Most recently, he was 
awarded the 2007 Dryden Lectureship in Research by the American 
Institute of Aeronautics and Astronautics (AIAA). He has served since 
1987 as Director of the UNH Institute for the Study of Earth, Oceans 
and Space. To date, Dr. Moore has authored over 150 papers on the 
carbon cycle, global biogeochemical cycles, Global Change, as well as 
numerous policy documents in the area of the global environment.
    Dr. Moore has served as a committee member of the NASA Space and 
Earth Science Advisory Committee, which published its report in 1986: 
``The Crisis in Space and Earth Science: A Time for a New Commitment.'' 
In 1987, he was appointed Chairman of NASA's senior science advisory 
panel and was a member of the NASA Advisory Council. In May 1992, upon 
completion of his Chairmanship, Professor Moore was presented with 
NASA's highest civilian award, the NASA Distinguished Public Service 
Medal for outstanding service to the Agency.
    Dr. Moore has contributed actively to committees at the National 
Academy of Science; most recently, he served as Chairman of the 
Academy's Committee on International Space Programs of the Space 
Studies Board. In 1999, he completed his term as Chair of the National 
Research Council (NRC) Committee on Global Change Research with the 
publication of ``Global Environmental Change: Research Pathways for the 
Next Decade.'' Currently, Dr. Moore is a member of the Space Studies 
Board and is the Co-Chair (with Rick Anthes, President of UCAR) of an 
NRC decadal survey, ``Earth Science and Applications from Space: A 
Community Assessment and Strategy for the Future.''
    Dr. Moore served on NASA's Earth System Science and Applications 
Advisory Committee from 1998 to 2002; he chaired National Oceanic and 
Atmospheric Administration Research Review Team from 2003 to 2005, and 
he served on the Advisory Board, School of Engineering and Science, 
International University of Bremen from 2002 to 2006. At present, Dr. 
Moore's professional affiliations include the following:

        <bullet>  Member, Board of Trustees, University Corporation for 
        Atmospheric Research;

        <bullet>  Member, Advisory Council, Jet Propulsion Laboratory;

        <bullet>  Member, Scientific Advisory Board, Max Planck-
        Institute for Meteorology, Munich, Germany;

        <bullet>  Chair, Steering Committee, Global Terrestrial 
        Observing System (United Nations Affiliate);

        <bullet>  Member, Board of Directors, University of New 
        Hampshire Foundation;

        <bullet>  Member, Science Advisory Team--The National Polar-
        Orbiting Operational Environmental Satellite System (NPOESS/
        NOAA).

                               Discussion

           Flagship Missions vs. Small Class Missions and R&A

    Chairman Boehlert. Thank you very much, Dr. Moore.
    And the panel has lived up to its advance billing. It has 
provided a lot of food for thought.
    As I mentioned in my opening, all of our outside witnesses, 
Dr. Cleave, indicate that NASA has made the wrong choices in 
distributing cuts by giving short shrift to smaller missions 
and research grants. Now if NASA science were to get no more 
than the fiscal year 2007 request, and I think that is a 
reasonable assumption, given the current climate on the Hill, 
although we are going to be working very hard to disprove that, 
would each of you be willing to delay or alter the flagship 
mission of your science field to put more money back into 
smaller missions and research and analysis?
    Dr. Taylor.
    Dr. Taylor. It is very difficult for me to make a 
categorical statement that I think represents the community in 
that regard, but I think that, at the very least, in the face 
of the apparent increases in costs associated with the top 
mission that NASA is now working on, the JWST, the community 
might well call for a reassessment of priorities. And the 
outcome of that, I think, should be the result of the same kind 
of deliberative process that has taken place in the past.
    Chairman Boehlert. Is that something you might recommend?
    Dr. Taylor. Personally, yes.
    Chairman Boehlert. Okay. Thank you.
    Dr. Bagenal.
    Dr. Bagenal. For heliophysics, the flagship mission is the 
Solar Dynamics Observatory, and--which has already 
experienced--was under funded. And I would certainly argue for 
R&A, being research and analysis--small research programs being 
supported over the--possibly a delay of the flagship.
    My hesitation is only to say that we, as scientists, have 
to work with NASA and NASA engineers and industry in finding a 
way to keep the control of these flagship missions. The cost is 
a worry, and we have to find a way to do it. So I would want to 
put a proviso on that shifting of funds from flagships to 
research and analysis, which is that we work this problem out. 
And it will take a lot of people to make that happen.
    Chairman Boehlert. Thank you.
    Dr. Huntress.
    Dr. Huntress. Well, I believe that the most important 
elements to sustain an enterprise during very hard budget times 
when your expectations are ramped down, like this one, is the 
most important ones to keep healthy are the fundamental 
research programs that form the basis for solar system 
exploration, and secondly, the lowest cost, highest flight rate 
missions, so you are continually having data coming back from 
the solar system to support that community, and those programs 
need to be widely competed. And so you need to protect the 
small and medium-cost flight missions.
    And then if we are ever to recover from loss of a flagship, 
we have to invest in our technological readiness for that. And 
so a delay in their Europa mission, if that is what it comes 
to, is, I believe, the right thing to do, but not at the 
expense of investing the technologies that will ultimately 
allow you to do such a mission.
    What is important about the Europa mission is the science, 
and if we--if the current mission is so expensive that we can't 
accomplish that science and put it in the budget, then we can 
always, perhaps, try to look at another way to approach that 
science as well. And that is what I think Fran was talking 
about when she mentioned the--trying to look at the costs for 
these missions.
    Chairman Boehlert. Dr. Moore.
    Dr. Moore. Well, Congressman, in delaying the flagship 
mission for Earth science, the answer would be been there, done 
that. The Global Precipitation Mission was slipped two and a 
half years. However, if your statement, your condition, that is 
no additional resources, then we have to look very seriously at 
what else we could do, because I do believe that the cuts for 
Earth science and research and analysis are just disastrous.
    Speaking personally, faced with such a very difficult 
situation, aside from taking it from solar system, I think I 
would revisit the requirements for the Landsat Continuity 
Mission and ask is there a cheaper way to accomplish that, even 
though the RFP has just come out. I can think of nothing left.
    Chairman Boehlert. That is sort of the specificity I was 
looking for, because you have to put yourself in our shoes for 
a minute. We are pretty darn good generalists. I think that is 
how we got here in the first place. And we have to depend on 
the expertise of people like you who know so much more about 
the subject matter being discussed than we do. And one of the 
big frustrations I face in all of my years on this committee is 
to get the science community to help us prioritize. When all is 
said and done, you know, we are not really intellectually 
equipped to do it on our own. Now there are some exceptions. 
Dr. Ehlers is a distinguished physicist and others. But this 
guy in the Chair, you know, the last science course I took was 
high school chemistry. I got a C. And so that is why I am on 
the Science Committee. And so I--that is why we invite the most 
distinguished people in science to come before us to help guide 
us.
    So let me go back to Dr. Taylor and Dr. Bagenal and Dr. 
Huntress. Yes or no? Would you be willing to move money out of 
your flagship program to put more money into research and 
analysis? Those are the kind of choices we face.
    And Dr. Taylor, let me just add, the last time you were 
here, boy, did I appreciate--I mean, you gave us some specific 
direction. You said the Hubble is very important and not write 
a blank check. You gave us some guidance on a level that you 
would find acceptable to service Hubble. But if it goes beyond 
that, you said, it would deny critical--critically needed 
funding for other parts of your programs, and you wouldn't go 
beyond that. So give us more specific guidance, if you can.
    Dr. Taylor. I am not sure what I can usefully add to what I 
said already. I think very strongly that if no more resources 
can be added to the astronomy and astrophysics budget, we are 
in a very tough situation and that a reassessment needs to be 
made about the levels of funding that are going into two 
things, basically now, both Hubble Space Telescope and the 
JWST, the two biggest sources of--or two biggest sinks of 
funding. And those have so weakened the other parts of the 
program that seem, to me, to be so essential of the future 
health of this scientific area that if nothing can be done 
about those costs, one needs to reassess whether the programs 
should be continued they way they are going now.
    Chairman Boehlert. Thanks for that.
    Dr. Bagenal.
    Dr. Bagenal. Let us say I would say yes that the priorities 
for research and analysis justify delays in the flagship. But I 
think what is important is that you--it is not just myself that 
needs to be asked, but the community. And one of the biggest 
problems is the lack of the advisory system that has been 
happening. And this is the very, very, very question that needs 
to be asked of an advisory group. And we hear this is going to 
be set up. It is going to happen. It is going to happen. It is 
going to happen soon. I hope it is soon, because that is the 
group that has to make those sort of decisions, advice to NASA, 
and say these are the things we need to do.
    So we need that set up soon.
    Chairman Boehlert. Okay.
    And Dr. Huntress.
    Dr. Huntress. If there is no change from this budget 
prospect for the next five years, then my answer is yes, also, 
that I think even consistent with the Decadal Survey, that the 
priorities in the program under stress are first the research 
programs, second the technology program, third small missions, 
fourth medium missions, and last flagship missions.
    Chairman Boehlert. Thank you very much.
    And I am going to take the privilege of the Chair. Usually, 
when the red light goes on, it applies to me, like everybody 
else, to be fair, but this is such an important area to cover, 
I want to ask for reaction from Dr. Cleave to what has just 
been said. And I appreciate the indulgence of my distinguished 
colleague, but we are on the same wavelength here.
    So Dr. Cleave.
    Dr. Cleave. Thank you.
    I--first, we are putting the advisory committees together. 
The package is done. We are trying to plan for a meeting before 
June in order to be able to work these issues with our advisory 
committee. We have missed not having an advisory committee, 
too, because they are essential in this kind of advice. We are 
planning on working with them to look at the balance of R&A. We 
are doing it by division, because each division could be 
different, and we will take the recommendations of that 
committee. They, of course, always discuss it with a larger 
community. And then we will come in to you with an ops plan 
change in order to correct any problems that may have occurred.
    We did take our best shot at putting this budget together. 
It was difficult, but it may not be the best shot that we could 
get with everybody's help, so that----
    Chairman Boehlert. I understand, but now you have heard 
from the very distinguished panelists. Does it prompt you to 
rethink a few things as a result of their very valuable 
guidance?
    Dr. Cleave. Absolutely. We will look into exactly what they 
have recommended and try to be responsive.
    Chairman Boehlert. Okay.
    Dr. Cleave. It is a--it is something that--the kind of 
tactical advice that we do usually get from our advisory 
committees, but we are happy to have this opportunity to get 
this from the panel, also.
    Chairman Boehlert. We are on the eve of the Academy Awards, 
which are this Sunday, which is a plug for the motion picture 
industry. I am reminded of the fact that a distinguished actor 
won an Academy Award a few years back by uttering these famous 
words: ``Show me the money.'' I think we can all agree that we 
need more money here. And we are going to be working very hard 
to get more money for science. You would expect that from us. 
And it is going to be a tough sell with our colleagues, given 
all of the competition for funding, but we are going to push 
them. So we are on your side.
    But the fact of the matter is that we are deeply concerned 
by the presentation, as we see it now, and we feel that there 
is need for some adjustment there.
    Thank you very much, and I appreciate my colleague's 
indulgence.
    Mr. Gordon.

                   Status of Flagship Mission Budgets

    Mr. Gordon. Thank you, Mr. Chairman.
    We did have a pretty dire view of the future of science in 
NASA, which, to a great extent, is the future of science in 
this country through this panel's discussion.
    I appreciate the Chairman's questions. Those were the exact 
questions in the line that I wanted to go forward, so I will 
extend that a little bit further.
    I was impressed that the Committee volunteered, or under 
coercion, volunteered up their flagship missions, but I am also 
concerned, as Dr. Moore pointed out, does it matter. I mean, 
have they already been so delayed that there is not that much 
money there anyway?
    And so, let me ask the question, did you really make a 
sacrifice? I mean, does it really matter? I mean, if a--can we 
squeeze enough money out of delaying and doing away with the 
so-called flagship to take care of the pure research?
    And you all can--anyone that would--well, let me start with 
Dr. Moore. You raised the issue. Why don't you start?
    Dr. Moore. I think that is one of the real problems, 
because the flagship mission would be the Global Precipitation 
Mission, which is pushed out another two and a half years. It 
has been delayed in the past. It is being delayed again. There 
are international commitments.
    Mr. Gordon. Is that just unique to you, or is it consistent 
with others, also?
    Dr. Moore. I think that a lot of the flagship missions have 
already suffered delays. Some of it is technological and some 
of it is programmatic. So that is why I then turn to the next 
item, which I find very difficult to suggest. But faced with 
that kind of possibility, then we have got to look further. But 
the cuts to R&A have got to be turned around. This is really 
damaging.
    Mr. Gordon. Does anyone else want to elaborate on the 
impact of reductions or slowing down of the flagship in terms 
of how much that really will make--funds made available?
    Dr. Taylor. I will just say a few words.
    I don't feel competent to make judgments about the way the 
re-budgeting might best be done. I don't think this is the 
forum for making interdisciplinary decisions, as all of us have 
already said, or even choices among particular priorities in 
one of our science areas, but I do think an appropriate 
consultation involving NASA, possibly its contractors and 
certainly the scientific community, is the right way to go, and 
I think that--I think strongly that having appropriate 
estimates of costs and risks and then being willing to at least 
consider pulling the plug if those projections turn out not to 
be viable is the way to go in the future.
    Mr. Gordon. Well, Dr. Cleave, I don't think that NASA 
should feel obligated to follow the directions of the various 
advisory groups, but I do think that it is important--I mean, 
per se. I do think it is important to get that information and 
to put it into the thought process. To bring them together in 
June really is after this appropriation process, by and large. 
So it is not going to be too much help. So I would encourage 
you to try to expedite that some.
    And let me ask you, was there a discussion within NASA 
about so-called flagship projects and delaying more or doing 
away with? And apparently you--the final decision was not to, 
but I mean, what was that thought process?
    Dr. Cleave. Yes, we made--we had a lot of discussions as we 
were working on the budget, and we did try very hard to protect 
the smaller missions and get a balance. We understand a lot of 
people think that we got it wrong, and we will revisit that as 
rapidly as possible. But we did look at the flagship missions, 
but we tried to be guided by the decadal studies that these 
folks are representing. And so I don't think that we got that 
far off of the guidance of the decadal studies. But it is the 
mix that you are addressing that we may have missed on.
    Mr. Gordon. And that was--those studies may have been well 
done under different circumstances.
    The--I mean, I think it is impressive that the leaders here 
today would put up their firstborn to save the others. So I 
think that is something to take into consideration, and I hope 
that you will, and you need to do that fairly soon.
    So again, thank you for coming. Thanks for the information. 
And this will help us to make our deliberations.
    Chairman Boehlert. Thank you very much, Mr. Gordon.
    Mr. Calvert.

                          Unfunded Priorities

    Mr. Calvert. Thank you, Mr. Chairman.
    Dr. Cleave, you have got a tough job. And being a former 
business guy, I know budgets are tough, and you know, I have 
had to make decisions in my lifetime that weren't happy 
decisions, and especially, I suspect, in your case where you 
are dealing with technologies where sometimes you just don't 
know what it is going to cost. You know, we are dealing with 
the mission to Webb and NPOESS, and obviously those programs 
are way out of whack as far as whatever budget analysis that 
was originally done. And certainly, all of the programs that 
were mentioned are valuable, and we would like to see them 
completed, but the problem is lack of money, and obviously, the 
Agency is making priorities and doing what they can with the 
money they have. I would like to see--even as a fiscal 
conservative, I think that science and technology is important, 
and I would like to see us raise the top line. That, obviously, 
would be the answer, because we don't like to see us pit human 
space exploration against robotics or other science and 
technology programs, but that is where we are at. Unless we can 
raise that top line, those are the difficulties we are in.
    But you know, I am also a Member of the Armed Services 
Committee, and when we received the President's budget request, 
DOD sends us a very detailed budget, as well as those programs 
that are unfunded priorities or below the line.
    But the national research scientists on this panel, it 
seems when you do your Decadal Surveys in the sciences in your 
field, you do a similar exercise. Do you think this listing of 
those unfunded priorities might be a good thing for NASA to do 
when it presents its budget to Congress and that way, in fact, 
we do raise that line or we can find some additional funds that 
we might be able to take a look at that?
    I will start--let us start off with Dr. Cleave, and then we 
will just kind of come on.
    Dr. Cleave. We do have a list of missions that we have not 
been able to fund within the decadal studies, so you are 
suggesting that we would put that list into our budget, if I 
understand you correctly.
    Mr. Calvert. Well, it--that we have a list of these 
unfunded priorities just to have that to take a look at that as 
the priorities as we move through this process.
    Dr. Cleave. We could do that. It would come straight out of 
the decadal studies, so I will----
    Mr. Calvert. Okay.
    Dr. Cleave. I will yield.
    Mr. Calvert. Dr. Taylor.
    Dr. Taylor. Well, I certainly think that our long-range 
plan, including things that are not possible to undertake right 
away is a good idea. I think it is important to recognize and 
keep in mind that the prioritized list in the Decadal Survey 
that I have been involved with is one that was based on cost 
estimates that were thought to be valid at that time. And when 
costs change by large factors, almost a factor of four in one 
case, the reassessment of the priorities becomes something that 
I think is obviously necessary. And that is what I would 
emphasize.
    Mr. Calvert. While you are on that point, Doctor, now that 
is one of the problems we are having. Like, if you take the 
Webb, you know, we had to pull money from everywhere to 
replenish that.
    Dr. Taylor. Yeah.
    Mr. Calvert. And that is the reality we are dealing with. 
And to----
    Dr. Taylor. That is obviously--that is causing us to 
struggle and it is the root of much of the difficulty that we 
are all facing.
    Dr. Bagenal. When we put these Decadal Surveys together, we 
are prioritizing missions in terms of large, medium, and small, 
and we try to fit them within some kind of envelope, a budget 
envelope that we have--with NASA to have. And indeed, this has 
been the problem that doing a Decadal Survey that spans for 10 
years and that profile is changing as we do the survey. In 
fact, what happened with heliophysics, we did two surveys. We 
did a survey, a full Decadal Survey, and then a year later I 
chaired a group that had to look at the exactly same set of 
priorities but with a budget that was stretched out and 
flattened.
    So the--we should, indeed, be thinking in terms of what are 
the things we want to do and providing NASA with advice. And 
indeed, it would be useful to have those unfunded priorities 
listed and seen so that everyone can see what the plans are. 
But I would also say that we need to have some stability in the 
funding profiles, otherwise we can't do these plans. And maybe 
we need to have contingencies. You know, what if one of these 
big digs in space ends up being so expensive we can't afford to 
do it. So we need to think about that. Yeah.
    Dr. Huntress. Well, in fact, one of the things we do in the 
decadal study is--because our science desires are always larger 
than what we believe the pocketbook is going to be. So one of--
the two things that constrain a decadal study are what is the 
strategic view of what is the budget likely to be in those 10 
years, and then the other are the costs for the missions that 
we would all like to do. And so it is a matter of putting that 
together in a way that fit with our view of what the budget is 
likely to be and to try to derive our priorities from that. And 
then what happens is that there are always things that we would 
like to do that won't fit. And in fact, in our decadal report, 
we actually call out what those are. These are our priorities 
for this decade. Here is a list of things we know we can't do 
under that--with those priorities and which are probably going 
to delay until the following decade. So we do actually do put 
things below the line in our decadal reports.
    Dr. Moore. One of my concerns, as chair of the Decadal 
Survey on Earth Sciences, which is an ongoing event, is that we 
started with what we thought was a pocketbook, but it has 
become a coin purse. And quite seriously, that is real concern. 
We engaged the community, but we thought we knew what the 
budget envelope was. In fact, we were assured to certain budget 
envelopes. But those envelopes have gotten smaller and smaller. 
And that kind of instability, I think is--makes it very 
difficult to do any kind of serious prioritization.
    Mr. Calvert. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    Ms. Johnson.

                           Budget Reductions

    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Cleave, you seemed to indicate in your testimony that a 
$3 billion reduction would not really affect the budget that 
much. At what level would affect the budget?
    Dr. Cleave. Well, the $3.1 billion that we had to remove, 
the--it was growth in the program that we removed over the five 
years did make significant changes to our plans, and that is 
what we are all struggling with here, so we, you know--we have 
prioritized what we are doing, and we are going to be working 
with the community. And we--at $5.1 billion a year, that is a 
robust science program, per se. And we do have good science to 
do. We are just trying to figure out what to do and what not to 
do, but there are definitely things we are not going to be 
doing.
    Ms. Johnson. Could you elaborate just a bit?
    Dr. Cleave. For instance, within each one of the divisions, 
we have had to delay the solicitation of the smaller-class 
missions. We try to solicit those every other year, every three 
years, and we haven't--we have had delays in those 
solicitations. The R&A funds have been reduced, and we are 
going to have a dialogue with the community to see if we need 
to restore those, but if we restore them, then we are going to 
have to delay other missions or, perhaps, cancel a flagship. So 
these are all in the trade space.
    Ms. Johnson. What does this do overall to the space 
research program? How does it affect it in the future?
    Dr. Cleave. It is delaying mainly. We have missions that we 
would have liked to do earlier that have had to be delayed, 
some of them indefinitely, which means not within this budget 
horizon.
    Ms. Johnson. Are you expecting to get additional money 
later to pick up this----
    Dr. Cleave. Administrator Griffin has said that this is a 
framework that was set up because of money that was needed to 
fly the Shuttle into return to flight, and this is a result of 
funding Shuttle needs that weren't really understood earlier. 
And once the Shuttle is retired, then we should not have this 
stress on our budget. So it should be a one-time event.
    Ms. Johnson. I am wondering if you can submit us some data 
to support some of the decisions that have been made along 
those lines, in terms of delay, so that we can have a better 
understanding of how you are preparing for the future.
    Dr. Cleave. We would be happy to do that.
    Ms. Johnson. Thank you.
    Chairman Boehlert. Thank you very much.
    Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you.
    And of course, we all understand that we live in tight 
budget times and that difficult decisions have to be made 
regarding agency priorities. And today, we are working on 
categories of funding the mission directorates. We are on 
science, basically, as I understand it, today. And we focus on 
the Science Directorate exclusively. As I understand it, Mr. 
Chairman, under the Administration's proposal, NASA's Science 
Mission Directorate would increase by 1.5 percent, I think, 
about a third of the total requested for all of NASA. And while 
this is an increase, it actually represents a decrease from 
what was projected a year ago.
    Chairman Boehlert. Yeah, and the growth rate projected 
doesn't even factor in inflation.
    Mr. Hall. And it provides $3.1 billion less from fiscal 
year 2006, fiscal year 2010 than was projected last year that 
we thought was needed.
    Chairman Boehlert. That is correct.

                                 SOFIA

    Mr. Hall. So I guess that--and let me say this. I support 
Administrator Griffin and his push to get the Vision for Space 
Exploration off the ground. I am a great supporter for that.
    To that end, my questions today are going to focus less on 
the Science Mission Directorate and the overall NASA budget and 
more on priorities within that directorate.
    So to Dr. Cleave, formally, Dr. Cleave, and more personally 
to my friend, Mary, and the person that I admire and respect, 
and most of us do. You are wonderful. You have been there and 
know where the bodies are buried, so that is why I am tying 
into you first.
    I understand that NASA has a couple of science missions 
that are both highly rated, and I think you know where I am 
going, don't you, highly rated National Academy priorities. 
Both of these missions involve international collaboration. And 
both of these are behind schedule and over budget. But one of 
them is 90 percent complete and over budget by a couple hundred 
million dollars. Is that correct? About? Close?
    Dr. Cleave. You are--if you are referring to SOFIA----
    Mr. Hall. Yes.
    Dr. Cleave. Yes.
    Mr. Hall. The one is 90 percent complete and over budget by 
a couple hundred million dollars. That is close enough for 
government work?
    Dr. Cleave. Well, we are not--we don't have high confidence 
in the estimates for what it will cost to complete SOFIA.
    Mr. Hall. But those are the figures that you are working 
with right now, aren't they?
    Dr. Cleave. Yeah, and that is why we are going into our----
    Mr. Hall. Now that is where we are, and we are there right 
now. And I am talking to about right now where we are.
    Dr. Cleave. Well, it is a discussion----
    Mr. Hall. Let me go further, and then you will know what I 
am talking about.
    Dr. Cleave. Okay.
    Mr. Hall. Both are behind schedule and over budget. One is 
90 percent complete and over budget by what we contend, and my 
best figures are, a couple of hundred million dollars. And the 
other is still in the formulation phase, and it is already over 
budget by a billion dollars. Not underway and over budget by a 
billion. We have got one that is over 90 percent complete and 
$200 million. Maybe it is $300 million. Say it is $400 million. 
It could be at $100 million. Interesting, NASA has--I am told, 
has decided to zero out the budget for the program with the 
smaller overrun that is 90 percent complete and keep the 
program with the billion-dollar overrun that has yet to even 
start development. Now this doesn't make any sense to me. And 
that is what I really want to talk to you about. I am talking 
about the James Webb Space Telescope. Over budget. Massively 
over budget. Over a billion dollars over budget and not 
underway.
    So--and I don't say that you have made that decision. I 
don't know, really, who has made the decision, but the decision 
that I understand has been made to zero out the budgets for 
SOFIA. And I have talked with you before, and I think your 
answer is that you are reviewing the program and that there may 
be more technical problems. But there may be more technical 
problems on the James Webb Space. There may be more technical 
problems in any undertaking that we have, right?
    Dr. Cleave. There is cost growth during formulation on 
James Webb. That is why we try to keep things in formulation so 
we don't go into development too early before we understand how 
much it is going to cost. You are absolutely right; there has 
been cost growth.
    Mr. Hall. It is--I think it is my understanding that NASA's 
own chief engineer for SOFIA, Mr. Kunt, do you know him, K-u-n-
t?
    Dr. Cleave. I have met him.
    Mr. Hall. Do you have respect for him?
    Dr. Cleave. Yes.
    Mr. Hall. It is my understanding that he told NASA this 
week that technical problems are behind the project and that 
they are ready to proceed with SOFIA. For example, I understand 
that the structural modification is complete, these are his 
words, and that the telescope is completely installed and 
functional. Is that correct or is Mr. Kunt mistaken?
    Dr. Cleave. I believe there is disagreement about whether 
it is really prepared to do flights with science collection. At 
the same time, there are a lot of challenges with laminar flow 
across an open hatch that have not--we don't have a lot of 
confidence in the answer yet.
    Mr. Hall. All right. And you are going to try to find 
confidence in it. And let me see if I can't help you.
    You have concerns about NASA being viewed as an unreliable 
partner, of course, do you know?
    Dr. Cleave. Yes, I do.
    Mr. Hall. I think that--I think you will say that they are 
trying to honor their commitments and that you do try to do 
that, and that is as we ask you to do. NASA actually has made a 
point of completing programs primarily to honor international 
commitments. For example, with Space Station, I don't compare 
that with SOFIA, but it is one place where we have gone above 
and beyond. So that--I think you are studying that. Is--that is 
what I am to gain from all of this question and answer?
    Dr. Cleave. Yes, we are studying it, and we are going to be 
studying it with the DLR, the German space agency. And all of 
the options are on the table so that we can come to a good 
conclusion.
    Mr. Hall. Can I ask Dr. Taylor? Dr. Taylor, SOFIA was 
ranked as a top priority in the 1991 National Research Council 
Survey of Priorities. And I think you mentioned this in your 
opening statement. Is the science SOFIA will accomplish still a 
priority?
    Dr. Taylor. Yeah, it is no question that the 2000 Decadal 
review reaffirmed the importance of the SOFIA project that had 
been expressed in the survey done 10 years earlier. I think it 
was certainly our wish and our expectation that the SOFIA 
project would go ahead and would go to completion. I, too, am 
concerned about the aspect of SOFIA being an international 
project and would certainly not like us to turn out to be an 
unreliable partner in this case.
    Mr. Hall. I take it that you are also concerned about 
having the project 90 percent complete and not an astronomical 
amount over----
    Dr. Taylor. Absolutely. I mean----
    Mr. Hall.--for finishing it?
    Dr. Taylor. Yeah.
    Mr. Hall. Dr. Cleave, can you tell me the kind of people 
who will be reviewing the program, the makeup of who is going 
to review that program?
    Dr. Cleave. Yes, it is going to be a mix--the review team 
is going to be a mixture of internal and external--people 
internal to the Agency and external, and there will be 
engineers and scientists.
    Mr. Hall. Internal and external, you mean NASA employees?
    Dr. Cleave. And non-NASA employees.
    Mr. Hall. And non-NASA.
    Dr. Cleave. And----
    Mr. Hall. And they will report, too, and ultimately, who 
will render the final decision about SOFIA?
    Dr. Cleave. I guess I will.
    Mr. Hall. Well, I want to talk to you more. My time is 
about up.
    Thank you, Mr. Chairman.
    Chairman Boehlert. And thank you.
    Mr. Hall. Thank you, Dr. Cleave, and thank you, Mary.
    Chairman Boehlert. Mary and Ralph are going to get 
together, I can see that.
    Mr. Hall. We are going to get together.
    Chairman Boehlert. All right.
    The Chair recognizes Ms. Hooley.

                Effects of Budget Cuts on Climate Change

    Ms. Hooley. Thank you, Mr. Chair.
    Mr. Moore, in your testimony, you made the claim that the 
budget analysis leaves the impression that NASA's Earth science 
budget has been--remained flat while you claim it has been 
decimated. Can you explain to this committee how could there be 
such an extreme difference between what the budget analysis 
says and what you say actually occurred?
    Dr. Moore. No, I can't. I mean, I simply know what I read 
in the budget and what the Committee is telling me, look at 
what the operation plan did, and I look at the actions of the 
delays in the missions. For instance, it was just said in an 
answer to Congresswoman Johnson about having an Explorer class 
mission every other year or maybe every three years, Dr. Cleave 
said that the next Explorer class ESSP will be 2008 for Earth 
science. Well, the one before that was 2001. So we have already 
been in trouble since 2005. And so this is just trouble piled 
upon trouble.
    Ms. Hooley. One of my interests is climate change. Can you 
summarize how the proposed budget would affect NASA's work on 
climate change? And what are the three most important things we 
need to do to ensure the Earth observation programs remain 
viable?
    Dr. Moore. Let us start with a little bit of good news----
    Ms. Hooley. Oh, good.
    Dr. Moore.--because there hasn't been much. NASA has 
decided to go forward with the Glory mission in Earth science. 
That had previously been cut, and that deals with aerosols, 
which are a very important part of the climate question. I want 
to compliment the Agency going forward with that.
    Now for the concerns.
    The key mission that was to link the long-term observations 
of the EOS period, the outyear missions to be covered by 
NPOESS, granted that NPOESS has got its problems, which I will 
go to----
    Ms. Hooley. Right.
    Dr. Moore.--but that piece that was to go in between was 
the NPOESS Preparatory Program. That is continuing to slide 
downstream, as is the NPOESS program. So we are going to lose 
that connectivity between the EOS program and the long-term 
NPOESS program. And I think that is a very serious problem. It 
is not NASA's doing totally, but it is a serious issue.
    And finally, I think that without the research and analysis 
effort, I know Congressman Rohrabacher has some serious 
questions about climate change. Now what you really get at that 
is not just through observations, but it is through the very 
best in science. There are very tough questions associated with 
climate change: cloud water feedback, things like that that are 
very difficult. That will require the very best science 
training this country can produce. That is why R&A is so 
important.
    Ms. Hooley. Thank you.
    Dr. Cleave, I know that NASA may have higher priorities, 
but when you were working on the budget, where did NASA's 
climate change program rank within the larger budget?
    Dr. Cleave. Our priorities for working this budget, we 
tried to rebalance the program. There was a larger Mars wedge--
and Wes is probably not happy with this decision, but we had--
there was a Mars wedge that was built. The money had been taken 
primarily out of Earth science and heliophysics with a little 
bit out of the universe, and we have tried to put that money 
back into the various programs.
    So there--it actually ended up gaining money through this 
budget cycle, obviously not enough to fix some of the real 
issues that we saw with the budget, but there was that 
rebalancing. So if--you can look at it--actually, planetary 
science lost more money, as Wes stated, and then the other 
disciplines gained a little more.

                         Coordination With NOAA

    Ms. Hooley. Dr. Cleave, the--you know, we are making cuts 
to Earth's observation satellites. How is that being 
coordinated with NOAA? And how do we ensure the improvement of 
the next generation of sensors that are now in the development 
for the new geostationary weather satellites NOAA is beginning 
to design?
    Dr. Cleave. We have a working group with NOAA, and we 
discuss these on a regular basis. That is run out of our Earth 
science division. They are making plans for transitioning 
measurements into the operational system. The--NPOESS, 
actually, is a demonstration of how EOS instruments 
transitioned into the polar-orbiting weather satellites. And we 
will continue to try to support that.
    Ms. Hooley. All right.
    Thank you, Mr. Chair.
    Dr. Moore, do you want to comment on what she just said?
    Dr. Moore. I think that--and this ties to something that 
Wes Huntress, and I think others, have eluded to is that not 
only are we de-scoping and delaying missions, but we just--in 
this budget environment, we do not have the capabilities to 
make the kind of technological investments that we have got to 
do. And as a consequence, we are, in some sense, endangering 
the outyear efforts of our sister agency, NOAA. I think we 
really have an extremely serious problem, and respecting the 
Chairman's point of view, I don't think we are going to get 
there by rearranging the deck chairs in the science program. I 
think that something more fundamental is going to have to 
happen.
    Ms. Hooley. Thank you for your comments. I appreciate it.
    Chairman Boehlert. Thank you very much.
    Mr. Rohrabacher.

                        Energy R&D vs. NASA R&D

    Mr. Rohrabacher. I want to thank you very much, Mr. 
Chairman.
    Well, from what I see, it appears that the budget isn't 
necessary being slashed. The growth of your budget is being 
slashed from 1.5 percent increase is what you will be receiving 
as compared to what was expected was a 3.6 percent increase in 
your overall budgeting. Is that correct, Dr. Cleave?
    Dr. Cleave. Yes, we expected more growth in our budget.
    Mr. Rohrabacher. Okay.
    Dr. Cleave. $3.1 billion was removed.
    Mr. Rohrabacher. Okay. And that--with the inflation rate of 
approximately three percent, so we are actually talking about, 
perhaps, an actual cut, in real dollars, of 1.5 percent. The 
President announced in his State of the Union that he would--15 
priorities of this country and that a--now a priority would be, 
for the rest of his Administration, if not for the following 
Administrations, would be the development--the use of 
technology dollars to develop energy self-sufficiency for the 
United States. I would assume that there has probably been a 
shift of resources here. If you have to identify where that 
money went, why this 3.6 percent was not--is not here, I would 
assume that that is where it is going. I would just like the 
panel's, you know--or your opinion of what the President of the 
United States has done here. Is this not a logical thing for us 
to do at a time like this? And should you not also be doing 
your part to help in this--you know, energy self-sufficiency 
now is a--is what? It is a national security issue. People are 
dying because we are not energy self-sufficient. Shouldn't you 
pay a--maybe a little bit of a price of helping to achieve that 
noble goal, or is this not as noble a goal as expanding the 
understanding of the universe?
    So just----
    Chairman Boehlert. Dr. Bagenal, you wanted to----
    Dr. Bagenal. Please.
    Chairman Boehlert.--observe? I mean----
    Dr. Bagenal. This spacecraft here, which is about the size 
of a piano, a grand piano, which is on its way to Pluto, it 
will be----
    Mr. Rohrabacher. It is from what? Now excuse me?
    Dr. Bagenal. It is the New Horizons mission to Pluto.
    Mr. Rohrabacher. Yes.
    Dr. Bagenal. It is on its way to Pluto. It is actually just 
about across the orbit of Mars. It is on its way.
    Mr. Rohrabacher. Okay.
    Dr. Bagenal. And when it gets there, in nine years time, it 
will be using energy to power this entire spacecraft, take 
pictures, send the data back across 30 times the distance 
between the Earth and the sun, and it will be using a total 
power of 200 watts. That is two 100-watt light bulbs. And so we 
are acutely aware of energy efficiency in NASA. Those of us who 
are involved in space missions----
    Mr. Rohrabacher. It sounds like you are ready for the 
question, too.
    Dr. Bagenal. Well, it is something that I am--I wasn't 
ready for the question, but I--it is something we are very 
aware of. And so I think one of the things which NASA doesn't 
get credit for is the fact that--or it doesn't, perhaps, get 
enough credit for, is the fact that working on these space 
missions allows us to work very hard on very, very tough 
technical problems. And one of them is energy. It is very, very 
important. Energy is one of the big, big things we have to 
worry about. And so we develop instrumentation, small 
instrumentation, very energy-efficient instrumentation, how to 
protect things and keep them warm without using energy and so 
on. So I would like to--I think that these small experiments 
that we do and that we send out into space actually do teach us 
a lot about how to save energy, how to use it wisely.
    Mr. Rohrabacher. All right. But do you think that that--you 
are talking about a spin-off technology that----
    Dr. Bagenal. Yes.
    Mr. Rohrabacher.--will affect--that will have a positive 
impact? Do you believe that--and of course, we will let your 
other panelists answer as well. But you are saying that that 
is, perhaps, as important to achieving the goal or at least 
measurably important to achieving that goal as taking that same 
money and investing it directly into a technology program that, 
for example, would turn grass cuttings into clean energy, 
because that--obviously that is one of the things the President 
has in mind?
    Dr. Bagenal. Well, there are two approaches to energy 
conservation. One is to how to generate energy and the other is 
how to try and use less.
    Mr. Rohrabacher. Oh, okay.
    Dr. Bagenal. And so the space business, particularly, has 
to worry about how to use less. And so I do believe that there 
are lessons that we learn from space exploration that benefit 
here as--on Earth on how to conserve energy----
    Mr. Rohrabacher. And it has a----
    Dr. Bagenal.--on the Earth.
    Mr. Rohrabacher. Okay. That is good. That is good.
    Chairman Boehlert. Thank you very much, Mr. Rohrabacher.
    I think what many in the science community would argue is 
that this science portfolio is being denied needed resources so 
if those resources can be directed toward the Shuttle and 
Station, that is, I think, the general argument within the 
community. And what we are trying our level best to do is face 
up to the reality. We have a $16.8 billion budget request, and 
we are trying to determine, within NASA, how those dollars 
should be allocated. And that is why I think this panel is so 
critically important to our deliberations. There are some who 
feel, as I indicated earlier, that too many resources are being 
allocated for the Shuttle and Station and not enough for 
science, not enough for aeronautics. So it is a tough battle.
    Mr. Rohrabacher. Would the Chairman indulge me in a non-
global warming question for the panel?
    Chairman Boehlert. Well, do you mean that we can count you 
in the believers?
    Mr. Rohrabacher. You mean we have already finished----
    Chairman Boehlert. Mission accomplished.

                                  NEOs

    Mr. Rohrabacher. But I--if--with the Chairman's indulgence, 
last year, NASA's authorization bill amended the--NASA's 
mission to include the cataloging in characterization of near-
Earth objects, such as comets and asteroids. And this happens 
to be something that, I believe, again, like whether we are 
talking about energy self-sufficiency or we are talking about 
the possibility that something could hit the Earth and kill 
millions of people, that this is--these are tangible--not just 
expansion of knowledge, but a tangible thing that we have to 
deal with and that--what will affect people's lives, or could 
well affect millions of people's lives. Where does this play in 
the budget now, Dr. Cleave? Is that--and are we going to be 
implementing this, or is this one of the things that are cut 
from--or is it scaled back because of the budget?
    Chairman Boehlert. The gentleman's time has expired, but 
Dr. Cleave, we will give you the opportunity to respond.
    Dr. Cleave. Thank you.
    The--we have an ongoing survey that was previously under 
conduct, and the--we are looking very carefully at the 
language. The change that has happened within the Agency is 
that Administrator Griffin takes this issue very seriously, and 
he thinks that our agency should be looking at it seriously, 
and not just in science, because it is really--what you are 
talking about really is not a science investigation, per se. So 
we have a team of people looking into this that is not just 
within science, but also within exploration and space 
operations.
    Mr. Rohrabacher. Well, I would disagree. I think this is 
pure science, and it is the kind of science that really helps--
that people--regular people can understand. And we are grateful 
for technologists who are doing things that protect us from 
viruses, from near-Earth objects, and perhaps, even from global 
warming, but we will talk about that later.
    Thank you very much.
    Chairman Boehlert. Thank you for your always interesting 
interventions. We appreciate it.
    Mr. Green.

                    Money Lost If/When SOFIA Is Cut

    Mr. Green. I thank you, Mr. Chairman.
    I thank the Ranking Member and the members of the panel.
    And Mr. Chairman, I want to assure you that you are not the 
only person to ``C'' your way through science in high school.
    I was--I had a great degree of pessimism with reference to 
SOFIA until I heard that Dr. Cleave indicate that she is the 
person who will make the final call. And now I am a bit more 
optimistic, Dr. Cleave, knowing that you will make the final 
call. However, I noticed that we have a four-to-one ratio here 
today, so our colleague, Mr. Hall, may need some support when 
he visits with you, and I would be honored to be a part of that 
support team, if permitted.
    I am as concerned as Mr. Hall is about SOFIA. And as I look 
at the numbers, I possibly come to the same conclusion that he 
has come to. I think we have about a $500 million investment. 
The Germans have a $100 million investment. We need about $90 
million to complete the program. It is 85 to 90 percent 
finished. If we zero this out, literally, do we just conclude 
that we have lost $500 million? Dr. Cleave.
    Dr. Cleave. Well, there are different ways to look at 
programmatic issues, in a sense. SOFIA has seen a 47 percent 
cost growth: 40 percent cost growth in operations, 17 percent 
reduction in the science return from the flights. The--
unfortunately, very unfortunately, because of the delay, we are 
not going to have the two-year, at minimum one-year overlap 
with Spitzer, which was part of valuing the science, and also 
with Herschel [ph] being launched by the Europeans, we won't be 
ahead of that in a way that would have put greater value on the 
science. So that is why we are having this review, and we are 
going to look at it very carefully.

                             SOFIA's Future

    Mr. Green. It would seem to me, then, that we would need to 
move as expeditiously as possible, given that we are falling 
behind, and if we are going to do this, we might want to 
aggressively pursue it. And in so doing, let me ask this. What 
factors will you look at if you had, say, one, two, or three 
that would help you in determining whether to continue with the 
program?
    Dr. Cleave. Well, this will be a dialogue with our 
international partners. We are looking for different options we 
may have to continue the programs in ways that weren't planned 
for originally. So it is not--we are looking at the different 
options dialogues, and then we will hopefully all come to 
consensus on that, and I will get a clear recommendation. If 
not, you know, we are going to have to discuss it further. But 
we are looking seriously at the science return along with the 
costs.
    Mr. Green. And we do agree that we need about $90 million 
to complete the program?
    Dr. Cleave. We are--we don't have a lot of confidence in 
those numbers, because there are still significant challenges, 
we believe, to completing this space crafting and getting it 
certified and flying it and getting science quality data from 
the telescopes.
    Mr. Green. Would anyone else on the panel care to respond?
    It seems that a four-to-one ratio is about right, Dr. 
Cleave.
    Thank you, Mr. Chairman.
    I yield back the balance of my time.
    Chairman Boehlert. Thank you very much.
    Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman.
    The Chairman and the Ranking Member have asked such 
penetrating questions about the choices that you all have to 
face. I really want to expand beyond that, and I don't have so 
much a question to ask as a statement to make, and--looking at 
the future guided by the past. And it is going to be a short 
history lesson. It is only going to go back 500 years.
    Something very important happened in 1492. The last Moorish 
stronghold in Spain, Grenada, fell. And incidentally, Ferdinand 
and Isabella sent an Italian fellow out on the ocean and--
looking for something that--well, he was really looking for 
something else, but he found , roughly, this place and 
established the greatness of Spain for the next 200 years.
    Fast-forward a few hundred years, around 1800, and Thomas 
Jefferson, he sent off a fellow from Ivy, Virginia and another 
fellow named Clark, gave them an appropriation of $2,500. They 
came back. They were a little bit behind schedule. They were a 
little bit over budget. They spent $34,000 to reach the Pacific 
and come back. And President Jefferson was taken to task for 
that incredible cost overrun.
    And then the last stop I would like to make before getting 
to the subject of the day is I believe it was in 1862 that this 
Congress and President Lincoln, a great leader, decided to, A, 
finish the dome of the Capitol, B, complete the trans-
continental railroad, and C, pass the legislation that created 
the land grant colleges.
    Those were all very challenging times. When the dome was 
completed, the railroad that knit this continent together and 
the future of this country was created by those land grant 
colleges. You could literally hear Confederate gunfire from 
this site. When Thomas Jefferson sent Lewis and Clark out on 
that transcontinental mission, I don't know if he had paid off 
the bonds that had funded the Revolutionary War yet. And when 
Columbus was set forth by Ferdinand and Isabella, the Spanish 
had just finished up a 500-year war with the Moors.
    You all should not be made to choose between your lead 
projects and holding up basic science and the small projects. 
To sort of borrow from the Chairman's movie reference earlier: 
``What we have here is a failure of vision.'' What we have here 
is a failure of leadership. You should not be made to make that 
choice. The choice is made up here on this bench and down the 
street at Pennsylvania Avenue.
    And I will tell you this. I will vote tomorrow to stop the 
bleeding in the Middle East. I will vote tomorrow to rescind 
these stupid tax cuts that we passed in 2001. And I will vote 
tomorrow to put this country back on a course that allows us to 
do the things with our own people and not have to eat our seed 
corn, as you all are being forced to do today.
    This is a failure of vision. It is a failure of leadership. 
And I have put up with it for five years, but I am mad as hell, 
and I am not going to sit here silently anymore. There is an 
election in 2006. There is an election in 2008. And the tax 
cuts expire in 2010. Public decisions have real consequences.
    And Mr. Chairman, with your indulgence, I know you love 
baseball. I think--I love fishing. I think we spend about $60 
billion a year in America on recreational fishing. If we 
could--you know, I want to see sports fishing continue, but if 
you had a budget like that, you could do all of the things that 
you wanted to.
    Mr. Chairman, I don't know how much is spent on baseball in 
this country, but if we spent about the same on the space and 
science as we do on baseball, by God, you all would be able to 
do your mission. Public decisions have a consequence. The 
people of Portland, Oregon failed to build a professional 
football stadium. The bond measure failed by less than 100 
votes in the mid-1960s. And if we had built that stadium, we 
wouldn't have to cheer for a sad sap team from Seattle, 
Washington.
    Leadership comes from here and from down the street. You 
shouldn't have to make this choice.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Wu.
    The Chair would observe that we are not in session 
tomorrow.
    The Chair recognizes Mr. Honda.

                              Astrobiology

    Mr. Honda. Thank you, Mr. Chairman.
    Nice job, David. I feel like whatever I am going to say is 
going to be inconsequential, and it diminishes itself just in 
the light of what you just said. And I would also align myself 
with your comments, Mr. Wu.
    My question is around astrobiology.
    Dr. Cleave, the fiscal year 2007 budget request proposes a 
50-percent cut for astrobiology on top of the significant cut 
made in the current fiscal year 2006 operating plan. And this 
cut is much larger than the 15 percent across the board cuts to 
other science programs within the research and analysis budget.
    To me, these actions seems completely out of sync with the 
National Research Council's recent report entitled ``Life in 
the Universe,'' and--which was requested by this committee. Can 
you explain why you have disregarded the findings of the 
National Research Council in this case? And can you also 
explain why astrobiology was singled out in this manner, 
especially given the interest of Congress in this field as a 
priority for the science--space science program and the extreme 
relevance of this work to the scientific and philosophical--
excuse me, philosophical basis for the entire Vision for Space 
Exploration, which was supposed to be about going to Mars, 
though I didn't hear too much about that anymore? I would be 
very interested in your response.
    Dr. Cleave. Yes. In the context of slowing down the 
missions to Mars as we redistributed the program funds back 
into the other divisions, and in light of, you know, not going 
to Europa or the outer planets as rapidly as we expected, and 
in light of the very rapid increase to astrobiology that had 
occurred, those all factored into why we made the decision to 
slow astrobiology down. I know a lot of people don't agree with 
that decision, and this is another decision that we will be 
working with the advisory committees and we can revisit and 
come back to you on.
    Mr. Honda. And Dr. Huntress, thank you.
    Dr. Huntress. Let me just rebut that a little bit, because, 
in fact, the astrobiology program is not all about Mars. In 
fact, most of the work--a great deal of it anyway, of the work 
that is done in that astrobiology research program is done on 
the Earth, on our own planet, trying to understand, in fact, 
extreme forms of life that live in very extreme environments, 
even on our own planet, in hot springs, in seed pools in 
Yosemite, trying to understand how life got started on this 
planet, how it evolved, in order to be able to know enough to 
look for it elsewhere. And you just can't turn science off and 
then turn it back on again. Once you turn a science off, it 
is--it takes a long time to recover it. And I would like to 
point out that we are still sending missions to Mars every 26 
months.
    Mr. Honda. And your example about going to different parts 
of our planet and looking at different conditions does make a 
lot of sense, because there are different conditions that we 
find, including, you know, deep sea where there is a lot of 
pressure and there is no light and the kinds of hot water where 
we think that nothing would survive in, we see algae and other 
things that are out there, so I concur with your analysis and 
your conclusions. And I also agree that, you know, as a science 
teacher, you know--I am just a humble science teacher, but it 
seems to me that, you know, turning something off and turning 
it on, the efficiency and the impetus that you--we want to 
maintain would be lost in that. And so I subscribe to your 
position, Dr. Huntress, and would ask Dr. Cleave to look at 
that and revisit that decision.
    Dr. Cleave. Yeah, we will be looking into that.
    Mr. Honda. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.

                 The Effects of the FY07 Budget Request

    Let me--Dr. Cleave, let me give you a little rest a little 
bit, and listen, as I will, to the answers.
    I would like each of our non-NASA witnesses to describe the 
single most significant scientific question that you think we 
will not be able to answer or answer in a timely fashion if the 
fiscal year 2007 budget proposal is approved as is. Now that is 
a toughie. Let me repeat the question, because I always have to 
have questions repeated a half a dozen times to me. Describe 
the single most significant scientific question that you think 
will not--we will not be able to answer or not be able to 
answer in a timely fashion if the budget goes forward as is.
    Now I am going to give you a little bit of time to think 
about it. It is just like on TV with one of those game shows. 
So the clock is ticking.
    Dr. Huntress, do you want to----
    Dr. Huntress. Mr. Chairman, let me just jump in here, I 
mean, and tell you what came right to the top of my mind which 
is that one of the questions that human beings have been asking 
themselves ever since, you know, they crawled out of caves, is 
whether or not they were alone in this--on the planet. And now 
we are asking ourselves: ``Are we the only form of life that 
there is?'' ``Was there ever life anywhere else in our own 
solar system?'' I think that this budget proposal will short-
circuit our ability to answer the question in the next 10 or 15 
years as to whether or not there was really life any--at any 
time elsewhere in this solar system.
    Chairman Boehlert. Would it mean that it would be a next--
instead of 10 or 15, 11 or 16? I mean, I----
    Dr. Huntress. Well, what I worry about, of course, is once 
you short-circuit that sort of science and the engineering 
approach to that, it is difficult to recover it. And what we 
are--what this budget is setting a new pattern for the Agency 
in terms of what it is willing to invest in scientific 
exploration versus what it wants to invest in human space 
flight. And we have been told that after the Shuttle is 
terminated in 2010, if you believe 2010, I don't, that science 
will be given a recovery, will recover from that. I don't 
believe that, either, because we will find a pattern will have 
been set and we will spend it on what comes after the CEV. So I 
think it is difficult to recover once you have made your 
patterns--set your patterns.
    Chairman Boehlert. Thank you.
    Dr. Taylor.
    Dr. Taylor. I should preface saying anything by saying that 
I believe very strongly that the community consensus input is 
the most important one.
    But you are asking for a quick answer now from individuals, 
and I will give you mine.
    I would be very sorry if the present budget stayed as it 
was and prevented the completion of two particular projects, 
one having to do with the detection of gravitational waves with 
a space interferometer and another having to do with exploring 
the nature of dark energy that fills the universe.
    Now I emphasize, again, those are my own personal wishes, 
and they would not necessarily be echoed by all others in the 
community, but they were things that are highly rated, and we 
very much would like to see go forward.
    Chairman Boehlert. Do you share Dr. Huntress' concern that 
you think we are just changing dramatically the pattern? And do 
you have the same pessimism about completing the Shuttle by 
2010? And----
    Dr. Taylor. I do, and I think that is consistent, also, 
with the concern over the fact that so large a portion of a 
necessary budget is going into a few particular things, like 
the Shuttle, in particular.
    Chairman Boehlert. Thank you.
    Dr. Bagenal.
    Dr. Bagenal. Heliophysics involves trying to understand how 
activity on the sun impacts humans on the Earth, our livelihood 
here, as humans, and our activities in space, either human 
exploration or all of the satellites that we operate in space. 
And so one of the things we try to do in heliophysics is to 
predict the space weather and what happens when something 
happens on the sun and the impact.
    Now to understand this process requires multiple 
components, multiple spacecraft, and we use many methods of 
approaching this. And so it is a little difficult to say, you 
know, one simple thing that we won't be able to do better. But 
I will say that one of the things we relied upon is the 
innovation that comes out of the Explorer program and the new 
missions that come from that. And my concern is that the one 
thing that is going to happen is if we have no more Explorer 
missions, those innovative methods of trying to understand the 
connection between the sun and the Earth will be impacted not 
just this time, this year, but for decades.
    Chairman Boehlert. Thank you.
    Dr. Moore.
    Dr. Moore. I think that Wes Huntress put it correctly, that 
we are at a tipping point. And all of a sudden, if we go 
forward with this 2007 budget, not the one scientific question 
we won't answer this year, those decisions that are going to be 
made by the graduate students and the undergraduates that are 
coming along that will say, ``No, I am going to go do something 
else. This country is not interested in Earth and space 
science.''
    Chairman Boehlert. We constantly hear that if we do 
anything to change the investment in the Shuttle and the CEV 
and the Space Station that we will lose a core competency that 
we will never be able to recapture. One could make the same 
argument in all of your various disciplines. Is that fair to 
say?
    Thank you very much.
    Mr. Lipinski.

                           Offsets For SOFIA

    Mr. Lipinski. Thank you, Mr. Chairman. I apologize for 
missing some of the hearing. I had another hearing that I was 
attending, but I did--very happy I got to hear the responses to 
the Chairman's question there at the end that really get to the 
heart of the matter, and I think we are all concerned about the 
future of space exploration right now. And it concerns me that 
we are at that tipping point, and as Dr. Moore was talking 
about, especially with getting young people interested and 
involved in getting people and getting our students to go into 
these areas in college and beyond that.
    Now I want to get back to something that was talked about a 
little earlier, but I wanted to talk a little bit more about it 
and ask Dr. Cleave a little bit more about it.
    The SOFIA program, I am particularly interested in this, 
because at the University of Chicago, they are developing the 
high-resolution airborne wideband camera, or HAWC, to--as part 
of the SOFIA program, and it is going to provide some of the 
sharpest--if we go through with this, provide some of the 
sharpest images ever of our universe. But it also has a 
connection, I know, with the community in with education, 
because at the University of Chicago, they have reached out to 
the K-12 schools and teachers and reached out to the community 
to really get people involved, push to get young people 
involved and interested in space and interested in this project 
and the telescope.
    So I just wanted to ask. Dr. Cleave, is this--how unusual--
first of all, how unusual is this to zero-out a program like 
this while it is still under review? And second, where do you 
think the money is--if it does--my understanding is, if the 
review says to go through with this and it is near completion 
already, I expect that it will, where is the money going to 
come out of? What is going to be short-changed if the decision 
is made, then, to shift the money over?
    Dr. Cleave. Well, within the SOFIA program, if the review 
decides that we need significant funds, I mean, we did zero the 
budget so we didn't have to hit anything else, that had come 
through confirmation cleanly, this--again, SOFIA has had a 47 
percent cost overrun, significant delays. Programmatically, it 
is a program in trouble, and we are, because of budget 
constraints, going to have to be much more strict about keeping 
programs under control. Most likely, we would be looking at 
another Explorer program that we would have to terminate within 
that line. That is what we expect.
    Mr. Lipinski. Okay. I want to thank all of you for your 
testimony. I look forward to going over and reading that. And I 
just want to emphasize, and I am sure everyone else has here on 
the Committee, how important we believe that this is and we 
will all be working and fighting for an increase in the 
funding, because it is--I am a--have a background as an 
engineer, but I was also a professor. And I am very interested 
in education, and I think this really goes, you know, to 
learning more and helping to educate our future and keep our 
country on the cutting edge of research and exploration.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Mr. Lipinski.
    And now as Martin Agronski used to say, for the final 
words, Mr. Gordon.

                     Science vs. Human Space Flight

    Mr. Gordon. Just in time. I will let the bells finish up 
here.
    Well, Mr. Chairman, with the exception of David Wu's 
history lesson, I have to say this is probably the most 
depressing hearing that I have sat through. It amounted to 
trying to determine which of your children are you going to 
throw off the boat to save the boat, and I think it degenerates 
to the point that we are going to throw them all off to save 
the boat. It looks to me like we are heading down the course of 
a humpty dumpty NASA budget and that we could very well have 
difficulty putting NASA back together again if we are going to 
wind up losing the graduate students, the scientists, and other 
skilled personnel. And I think we have all ignored the elephant 
in the room, and that is how do these science programs stack up 
against the President's initiative, the lunar mission? I think 
many of us would like to think that the CEV would be 
operational by 2010, but I don't think many of us believe that 
is going to occur. And whenever it does occur, there is going 
to be additional cost. So I would give the panel the 
opportunity to--and since we are making hard choices here, how 
do these science hard choices pit against the lunar mission in 
terms of pushing that back or making those changes?
    Who wants to start?
    Dr. Huntress. Well, Mr. Gordon, I actually believe that 
what you called the lunar mission, or the fixes to human space 
flight that Administrator Griffin is trying to do, and it is a 
program that needs to be fixed, I think they face a problem, 
too. I don't--they have been given enough money. For example, 
NASA's architecture for going back to the Moon has been called 
``Apollo on steroids.'' Right now, given the budget that they 
have got for the next five years, it seems to me it is ``Apollo 
on food stamps.''
    Mr. Gordon. Well, it is $5 billion under funded.
    Dr. Huntress. I agree with that. In fact, at a hearing of 
this committee, in October of 2003, Mike Griffin and I sat 
right next to each other. And we were asked by Congressman 
Rohrabacher what we thought NASA's budget needed to be in order 
to fix human space flight and go beyond the Station and start 
exploring again. And both of us said--gave the same number. We 
both had had it written down and showed it to each other. And 
that was $20 billion a year. Then we were asked by Congressman 
Rohrabacher, ``Would you give up science to do that?'' My 
answer was no. Mike's answer was yes.
    Mr. Gordon. Okay. And I assume it still is. Okay.
    Would anyone else like to comment?
    Yes.
    Dr. Taylor. I would just say that my answer would also be 
the same as Wes gave, and I think if--well, I--in my own view, 
the going back to the Moon initiative has not been adequately 
motivated or ever compared to the other things that NASA 
already has underway. But from my own point of view, if I were 
sitting in Mary's position, those are the questions that I 
would be asking very strongly within the Agency.
    Mr. Gordon. Dr. Moore.
    Dr. Moore. Congressman Rohrabacher, unfortunately, has 
left, but he was suggesting that perhaps money from the 
Department of Energy and NASA were fungible in some way. If 
they were, I might, then, ask is there money that is fungible 
between State Department and NASA, because quite frankly, when 
I look at Station, the primary argument is one of an 
international collaboration. I don't see a scientific 
justification. So I think that we really have to step back and 
look at the entire spectrum of priorities that NASA is facing. 
And when asked the question, ``What is the budget that we need 
to execute this?'' We are not doing that, and we need to.
    Mr. Gordon. Do you want to say ``Amen'' or are we going to 
go on?
    Chairman Boehlert. Dr. Bagenal, do you have a----
    Dr. Bagenal. Well, all I will say is I would really like to 
speak on this, but I will say that when I ask my students, I 
have 200 students in astronomy, University of Colorado, average 
people in the United States, taxpayers, or soon to be when they 
start earning some money, you are going back to the Moon, and 
they all say been there, done that. It is, you know--it is--for 
them, they don't want to--they are not so interested in going 
to the Moon, but they are interested in going to asteroids. 
They are very interested in going to Mars. And we--I have also 
believed that there are things that can be done with Station. 
Maybe Station is the weigh station. Not to Mars. Not the Moon. 
So that is what they are concerned----
    Chairman Boehlert. Thank you, and very timely, because we 
have to go over to the Floor.
    Thank you all very much. I hope you have gained something 
from this, Dr. Cleave, and I hope all of you feel that this 
whole exercise has been worthwhile. You have shed some new 
light in areas that I think we have to look at more closely.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mary L. Cleave, Associate Administrator, Science Mission 
        Directorate, National Aeronautics and Space Administration

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Dr. Cleave, you stated at the hearing that you would go back and 
look into the balance of funding for flagship missions versus research 
and analysis (R&A) and smaller missions. When will this reassessment be 
complete and how will you inform Congress of your decisions? What 
factors are you going to take into account when reassessing the funding 
balance?

A1. We intend to discuss this issue further with the NASA Advisory 
Council (NAC), with representatives of the science community and the 
Space Studies Board of the National Academy of Sciences, and will seek 
their advice to ensure that we maintain an appropriate mix within each 
Science Mission Directorate (SMD) Division between R&A, small-, medium-
, and large-class missions. The Space Studies Board met March 6-8, 
2006, and their report ``An Assessment of Balance in NASA's Science 
Programs'' has been received and is currently under review. The science 
subcommittees of the NAC met May 3-4, and the Chairs of each 
subcommittee sent recommendation letters to the Science Committee 
Chair. These subcommittee recommendations were discussed at the NAC 
meeting on May 18 at the Jet Propulsion Laboratory, and NASA 
anticipates receiving formal recommendations for SMD within the next 
few weeks. Should changes in the mix of R&A and mission investment be 
determined to be appropriate, we may pursue that course of action, and 
notify Congress via an adjustment in NASA's FY 2006 Operating Plan and 
NASA's initial FY 2007 Operating Plan.

Q2.  When do you plan to have an advisory committee for NASA Sciences 
set up? You said at the hearing that NASA is planning for a meeting of 
the Advisory Committee before June. Why can't a meeting occur earlier?

A2. In the new advisory system established by Administrator Griffin in 
late 2005, the main science advisory body is the Science Committee of 
the NASA Advisory Council. The Science Committee has met three times, 
in November 2005, February 2006, and May 2006. In parallel, NASA has 
been working to establish five discipline-oriented subcommittees that 
will advise the Science Committee. The first meeting of four of these 
subcommittees, which are focused on astrophysics, heliophysics, Earth 
science, and planetary sciences, occurred during the first week of May.

Q3.  When developing the FY 2007 Science Mission Directorate budget, 
was funding first allocated among the different divisions or did you 
begin by evaluating missions across the entire directorate? To what 
extent did you consult with the scientific community in determining how 
to distribute the available funds?

A3. Funding was initially allocated among the science themes to further 
implement the balancing of the science portfolio begun last year. Each 
division was responsible for determining the mix of missions and R&A, 
using input from science community as reflected in the decadal survey 
and Space Studies Board reports to guide this process. Final approval 
of the proposed budget is the responsibility of the Associate 
Administrator for Science Mission Directorate.

Q4.  NASA recently announced that Hydros, a previously approved 
``alternate'' ESSP mission, was not selected for confirmation. Over the 
past few years, numerous NASA documents and communications have listed 
Hydros as if it were an approved mission, with an expected launch in 
2010. (These indicators and NASA guidance caused members of the Hydros 
team--including U.S. agency and international partners--to commit to 
support the mission and realign some activities in this direction.) 
Similarly, NASA has announced the cancellation of the NuSTAR mission 
for budgetary reasons, just weeks from its confirmation. Is there a way 
that NASA can change its procedures so it does not create false 
expectations about which missions are approved?

A4. All of the competed, Principal Investigator-class mission lines--
Discovery, Explorer (such as NuSTAR), Earth System Science Pathfinder 
(ESSP) (such as Hydros), Mars Scout, and New Frontiers--include a 
series of competitions, down-selects, and confirmation reviews. All 
proposers understand that these are heavily oversubscribed flight 
opportunities, and that NASA must make difficult decisions based on 
scientific, technical, programmatic, and budgetary considerations at 
every step of the process. NASA describes these processes and 
procedures in each Announcement of Opportunity, and it is appropriate 
that we should strive to be as clear as possible in future 
Announcements.
    The Hydros mission was selected as an alternate mission to the 
Orbiting Carbon Observatory (OCO) and Aquarius missions. The ESSP 
budget is only sufficient to support two flight missions. After OCO was 
confirmed to proceed to implementation in May 2005, and Aquarius was 
confirmed to proceed to implementation in October 2005, it was no 
longer possible to continue supporting development of the Hydros 
mission.
    Following a competitive Phase A mission concept study involving 
five Small Explorer (SMEX) missions, the Interstellar Boundary Explorer 
(IBEX) was selected to proceed into Phase B preliminary designs and 
NuSTAR was selected to continue mission concept studies in an extended 
Phase A. The Explorer budget is insufficient to support continued 
development of NuSTAR, IBEX, and the several other Explorer projects 
that have already been confirmed into Phase C/D implementation--THEMIS, 
AIM, and WISE. NASA chose to stop NuSTAR rather than any of the other 
missions that are approaching launch or are at a more advanced stage of 
development.
    In the future, NASA will clearly identify alternate missions as 
such. NASA will continue to clearly inform all missions, at any stage, 
which continued development is subject to adequate technical progress 
and the availability of sufficient appropriated funds.

Q5.  NASA's FY 2006 initial operating plan included $69.7 million for 
the Wide-field Infrared Survey Explorer (WISE) mission. Subsequent 
guidance provided from headquarters has reduced this funding by half. 
What is the rationale for cutting WISE funding? To what purpose is the 
money being redirected?

A5. NASA's Initial Operating Plan submitted to the Committee on 
February 6, 2006, included $69.7 million for WISE. On February 28, 
2006, the Science Mission Directorate Associate Administrator released 
a letter to the WISE Principal Investigator, explicitly stating that 
due to funding constraints, the Project would stay in Formulation for 
the remainder of FY 2006, with funding limited to $30 million. NASA is 
currently pursuing alternatives to reinstate some or all of the FY 2006 
funding of WISE in order to limit impact to the mission launch date. 
Any changes to WISE's budget will be reflected in a future Operating 
Plan adjustment.

Q6.  What impact will the reduction in Radioisotope Power Systems and 
related technology developments have on the U.S.'s exploration and 
science capabilities? We have been told that, without radioisotope 
power systems, we won't be able to do missions beyond Jupiter and that 
there are no more units in production. Is this true? If this is not 
restarted, are we precluding any future robotic missions beyond 
Jupiter?

A6. While there are currently, no RTGs in production, advanced RTG 
technologies have been in development for potential use on future 
planetary spacecraft, to be launched in the next decade and beyond. 
Work on advanced RTGs has been deferred for budgetary reasons, as well 
as the lower number of future planetary missions expected. However, 
NASA expects to have sufficient radioisotope power systems to meet 
future needs. We are not precluding any future outer solar system 
missions.
    In cooperation with the Department of Energy, NASA is developing a 
radioisotope nuclear power system for the Mars Science Laboratory. This 
multi-mission RTG will go into production in 2008, in order to support 
a 2009 launch. The rover will carry a radioisotope generator that will 
generate electricity from the heat of plutonium's radioactive decay. 
This power supply will continuously generate about 110 watts of 
electricity, using 4.8 kilograms of plutonium fuel. It will have a 
fourteen-year design life, including three years on the surface of 
Mars. The radioisotope-powered rover will be able to operate almost 
anywhere on the surface of Mars, from the polar caps to deep, dark 
canyons, and will safely provide full power during night and day under 
all types of environmental conditions. NASA has also identified 
potential needs for fission-based nuclear power and propulsion for 
space exploration. In the near-term, NASA is pursuing only a small 
nuclear research and technology program, focused on developing power 
systems for long duration stays on the lunar surface, and eventually 
Mars.
    Options for future space nuclear power systems will be assessed 
along with other alternatives, such as solar power, and balanced 
against mission requirements and objectives.

Q7.  Given the FY 2007 budget proposal and the associated run-out, how 
often does NASA expect to solicit proposals for Explorer, Discovery and 
ESSP missions? What would the optimal rate of solicitation for these 
programs be?

A7. The most recent Discovery Announcement of Opportunity (AO) was 
released in January 2006. Selections are expected by FY 2007. The next 
Explorer AO is scheduled for release no earlier than FY 2007. The next 
ESSP AO is scheduled for release no earlier than FY 2008.
    The rate of solicitations for these programs is dependent on the 
available budget and the average mission cost. There are more than 
enough excellent mission concepts and qualified investigation teams to 
support solicitations every two years or so in each of these programs. 
The increased funding to support such a flight rate, however, would 
come at the expense of NASA's large mission flight rate or at the 
expense of NASA's research and analysis (R&A) programs. In the FY 2007 
Budget Request, the President has proposed an appropriate mix of large 
missions, small missions, and R&A.

Q8a.  Last year's NASA authorization bill amended NASA's mission to 
include tracking, cataloguing, and characterizing Near-Earth Objects 
(NEO), such as asteroids or comets. The bill set a goal of completing a 
survey of objects greater than 140m over the next 15 years.

      What are you doing to implement the survey requested in the NASA 
authorization bill?

A8a. In 2006, SMD is participating in an Analysis of Alternatives (AoA) 
being conducted by the Agency, as requested by the NASA Authorization 
Act of 2005 (P.L. 109-155), to determine the most effective way to 
conduct the survey and the budget that would be required to accomplish 
it. Our efforts in future years will depend on the results of this AoA.
    It is important to note that the current NEO survey effort--to find 
at least 90 percent of all one kilometer and larger NEOs--also finds 
more objects less than one kilometer in size. Currently, the search 
teams find about 10 sub-kilometer sized asteroids for every one found 
larger than one kilometer. This ratio has increased over the years as 
the search teams have become more capable and the number of discovered 
large asteroids becomes a significant portion of that total actual 
population. As of the end of 2005, NASA-funded search teams have found 
3162 near-Earth asteroids smaller than one kilometer is size. The most 
capable teams can find 140 meter objects when their orbits bring them 
within 20-25 million miles of the Earth. However, because of the 
constant orbital motion of these objects and other limitations in 
coverage of the current search systems, it would take many decades to a 
century to find all potentially hazardous objects with only the current 
capability.

Q8b.  Where in NASA's budget request is the funding for the NEO survey?

A8b. In the FY 2007 President's Budget Request, the funding to continue 
the current one-kilometer survey is contained within the Science 
Mission Directorate Planetary Science R&A budget. Slightly over $4 
million is allocated for this effort in FY 2007.

Q8c.  Which directorate has the lead for NEO surveys?

A8c. Currently, SMD has the lead for the survey effort because of the 
science data we obtain from it about the constituents, populations and 
evolution of the Solar System.

Q8d.  What is the requested budget for NEO surveys for each of the 
years from FY 2007 through FY 2011?

A8d. The FY 2007 President's Budget Request includes $4 million to 
continue the current one-kilometer survey effort. Future year budget 
requests will be determined with input from the AoA as at least one 
source of information, now that NASA has been given direction in the 
NASA Authorization Act of 2005 to examine a survey effort for the 
smaller objects.

Q9.  On March 2, NASA stated that the Dawn mission would be terminated, 
but on March 9, it was announced that the Associate Administrator would 
conduct a review of the mission termination decision. Why is NASA 
reviewing this decision?

A9. The NASA Associate Administrator conducted a review of the March 2 
mission termination decision of the Dawn Mission at the request of 
NASA's Jet Propulsion Laboratory (JPL). The review assessed the 
Independent Assessment Team's report and findings, the basis for NASA's 
original determination, as well as information provided by JPL. The 
review decisions were:

        <bullet>  The Dawn project will immediately be reinstated to a 
        level of full funding.

        <bullet>  JPL will immediately re-staff the project and 
        undertake to execute its completion.

        <bullet>  Science Mission Directorate (SMD) and JPL will 
        develop a detailed re-plan, including an integrated master 
        schedule and updated cost analysis with appropriate confidence 
        factors.

        <bullet>  JPL will undertake Propulsion Power Unit 500-hour 
        life testing as soon as possible and will report progress and 
        outcomes to SMD within 90 days.

Q10.  What steps is NASA taking to comply with section 101(d) of the 
NASA Authorization Act of 2005, which requires a multi-year plan for 
Science? Will NASA be able to transmit the plan to Congress by the date 
required by the Act?

A10. NASA plans to comply with the Congressional direction to provide a 
science plan by the date required by the Act. We have crafted an 
approach that involves the science community, including National 
Research Council and the NASA Advisory Council, in development and 
review of the draft plan. The plan will address all the specific 
concerns raised by the Congress in Section 101(d) of the Act. 
Accommodation will be made in the plan for the fact that the NRC 
decadal survey for Earth science will not be available from the NRC 
before the due date of the plan.

Q11.  You stated at the hearing that once the Shuttle is retired, the 
NASA Science budget will not have the stress on it that currently 
exists--that the funding reductions to Science are a ``one-time 
event.'' If that is the case, why doesn't the projected funding for 
Science increase in FY 2011 after the Shuttle is retired?

A11. Even though Shuttle costs are almost completely phased out by 
2011, Exploration System funding is ramping up in 2011. We have 
carefully structured the Exploration program requirements to phase up 
as the Shuttle is being retired, allowing the savings from not flying 
the Shuttle to fund CEV, CLV and cargo launch vehicle development. This 
approach allows us to get a rapid start on developing Exploration 
systems while being able to retain an SMD growth rate of one percent 
per year, positioning the Agency to maintain a relative balance of 
science and other activities as we enter this new age of exploration.
    In addition, in FY 2011 the Shuttle Program will have assets 
(including the orbiters) that need to be moved, disposed of or 
demolished, data that need to be archived, and a myriad of other tasks 
associated with the orderly closeout of a program of this length and 
magnitude. NASA has requested approximately $147 million for the 
Shuttle Program in FY 2011, primarily to accomplish Program Integration 
tasks like those described above.

Q12.  NASA has recently announced a delay of the joint U.S.-Japan 
Global Precipitation Measurement (GPM) mission. Has there been any 
specific communication with Japan on this issue? If so, what concerns 
have the Japanese raised? Is there a point at which delays in GPM will 
cause Japan to withdraw support from the mission?

A12. Upon submission of the President's FY 2007 Budget Request to 
Congress, NASA initiated coordination with the Japanese Aerospace and 
Exploration Agency on the potential implications for GPM resulting from 
the request. The Japanese Aerospace Exploration Agency (JAXA) has 
encouraged NASA to minimize the delay to the mission. NASA has 
emphasized the importance of the GPM program and its priority within 
the Science Mission Directorate and has committed to continue working 
with JAXA as a new schedule is developed. Several discussions at 
various levels of management between NASA and JAXA have taken place, 
and these discussions are ongoing. Japan has not indicated to NASA that 
this slip will cause it to withdraw, nor has it indicated a point at 
which delays would cause it to withdraw.

Questions submitted by Representative Bart Gordon

Q1.  The impact of the cuts made to the space and Earth science budget 
plans relative to the FY 2005 runout has been exacerbated by cost 
growth in a number of science projects in recent years. What are the 
reasons for the cost growth, and what should be done to address it?

A1. The reasons for cost growth include:

        a)  inherent difficulty in estimating future costs for one-of-
        a-kind systems, especially when undemonstrated new technologies 
        are required

        b)  over-reliance on early budget estimates, before mission 
        design is completed

        c)  contractor ``low-balling,'' or at least optimism, in 
        competitive proposals

        d)  scope increases (raising the performance requirements, mid-
        project)

        e)  accidental hardware damage during development

        f)  the withdrawal of a critical non-NASA (international or 
        other U.S. agency) partner

        g)  unpredictable events, external to the project (e.g., 
        Shuttle or launch vehicle stand-downs, parts failures 
        experienced on other projects, contractor labor negotiations/
        strikes, growth in overhead rates due to delay or termination 
        of unrelated projects, etc.)

        h)  Congressional direction to fund a project, and/or to avoid 
        potential remedies such as descoping the mission, regardless of 
        cost growth, rendering the project ``untouchable.''

    Some of these causes are easier to address than others. NASA has 
taken steps to address many of them in recent years. We have:

        a)  reduced technology risks by funding technology 
        demonstration projects

        b)  emphasized the importance of understanding the immaturity 
        of early project estimates, and assessing the risk associated 
        with those estimates

        c)  insisted on higher reserve levels during early project 
        formulation

        d)  increased the number of independent project reviews

        e)  minimized scope increases by earlier, more thorough 
        documentation of requirements.

    There is evidence that these changes have been at least partially 
successful. A General Accountability Office study in the early 1990s 
concluded that average cost growth on NASA missions was 69 percent. At 
about the same time, Science missions began to show significant 
improvement in cost performance. Recent science missions that were 
launched below, at, or only slightly above baseline budget estimates 
include: Cassini (10/97), Chandra X-ray Observatory (7/99), WMAP (6/
01), TIMED (12/01), RHESSI (2/02), Aqua (5/02), Aura (7/04), Deep 
Impact (12/04), and the Mars Reconnaissance Orbiter (8/05).
    Unfortunately, we have seen recent cost growth in some of our 
larger missions in formulation. Where descoping the mission is not 
feasible or desirable, the impact has primarily been to delay other 
missions in formulation, or to defer new mission selections (i.e., 
Announcements of Opportunity).

Q2a.  Your budget plan would limit overall Science Mission Directorate 
growth to one percent a year through 2011 in part due to the need to 
fund the Shuttle adequately until its retirement in 2010. Some have 
thus concluded that once the Shuttle is retired, funds will be freed up 
to resume a higher growth rate for the science program. However, in the 
2010-11 periods, the funding requirements of the Exploration initiative 
go up dramatically in order to develop the heavy lift launch vehicle, 
the lunar lander vehicle, and other exploration-related hardware. Thus, 
it seems likely that any savings from retiring the Shuttle will go to 
pay the Exploration initiative, not to restore science cuts.

      How confident are you that you will be able to increase the 
annual science-funding rate after 2011 if the overall NASA budget 
doesn't grow at a rate beyond inflation?

A2a. NASA has carefully structured the Exploration program requirements 
to phase up as the Shuttle is being retired. This approach allows us to 
get a rapid start on developing Exploration systems while being able to 
retain a steady funding profile for science. NASA carries out its 
missions with a ``go-as-you-can-afford-to-pay'' approach and a post-
2011 funding profile below the rate of inflation would affect the rate 
at which NASA is able to address its full range of missions.

Q2b.  What funding profile for space and Earth science is assumed in 
NASA's new Strategic Plan, which goes out to 2016?

A2b. NASA's budget outlook for space and Earth science assumes 1 
percent per year growth from 2007-2011.
    For notional planning purposes past 2011, we used a standard 
inflation growth rate of 2.4 percent per year.

Q3.  Under the proposed budget, will NASA be investing enough in 
technology risk reduction and concept development for NASA and the 
science community to be able to adequately assess the feasibility and 
likely cost of future missions such as the Terrestrial Planet Finder 
and the Einstein probes? Should we be concerned about NASA's level of 
investment in new technologies?

A3. NASA is committed to continuing investments in new technologies. 
Technology investments enable new science investigation, enhance 
existing measurement or operational capability, and reduce the cost, 
risk and development times for missions. NASA's technology program is 
an aggressive, long-range program to enable the next generation of 
high-performance and cost-effective science missions. Our technology 
program includes development of new and innovative technologies from 
conception to demonstration in the lab, and when appropriate, flight 
demonstration from a suborbital platform (aircraft, balloon, or 
sounding rocket) or space (through the New Millennium Program). With 
the TPF and Einstein Probe missions moving further out in time, this 
provides us the opportunity, and time, to look at other alternative 
technologies that could significantly reduce the cost, risk, and 
schedule to accomplish the science objectives of these missions. As we 
look at our future investments toward our challenging missions, 
technology investments will be a key factor in enabling them.

Questions submitted by Representative Mark Udall

Q1.  What role does your Mission Directorate play in setting the 
scientific goals of the human exploration program? Who has the final 
say in what those goals should be--the Science Mission Directorate or 
the Exploration Systems Mission Directorate? When will you be able to 
tell us what the scientific goals of the human lunar program are?

A1. The Science Mission Directorate (SMD) defines and prioritizes 
NASA's overall science objectives and collaborates with the Exploration 
Systems Mission Directorate (ESMD) to address these objectives within 
the lunar program as permitted by ESMD and SMD technical and budgetary 
constraints. A consolidated set of updated lunar science objectives 
should be available in mid-2007 after completion of a new National 
Research Council study on the subject.

Q2.  Dr. Cleave indicates in her testimony that NASA will be evaluating 
the potential for lunar science enabled by the Exploration initiative. 
How do we go about ranking such exploration-enabled lunar science 
against alternative science projects and ensuring we are getting the 
best science for our money?

A2. Lunar science that could be done on the Moon was addressed in the 
National Research Council's (NRC) recent solar system exploration 
decadal survey, ``New Frontiers in the Solar System: An Integrated 
Exploration Strategy.'' NASA's Science Mission Directorate has 
initiated a study task by the NRC's Space Studies Board that will 
collect, integrate, and update previous recommendations for lunar 
science. The approach of the study will be to begin with high priority 
science objectives that could be addressed by investigations on the 
Moon and to compare the relative technical feasibility, cost and 
scientific efficacy of addressing these objectives on the Moon versus 
other approaches. The general framework for ranking potential science 
opportunities enabled by human exploration activities will be to 
compete them in the same prioritization process as the rest of the SMD 
science program, since funding is expected to be drawn from the same 
relatively fixed overall science budget. The NASA Advisory Council's 
new Subcommittee on Planetary Sciences will play an important role in 
providing programmatic guidance on realizing these opportunities.

Q3a.  NOAA's Space Environment Center (SEC) relies upon data collected 
from instruments on several satellite systems, including NASA's 
Advanced Composition Explorer (ACE) satellite.

      What is the anticipated life span of the current ACE satellite?

A3a. ACE is a research satellite produced by the Explorer program of 
the Science Mission Directorate, and was launch in 1997 with a contract 
design life of three years. Since 2000, ACE has been in extended 
mission operations. At the current fuel usage, ACE has enough fuel to 
last until at least 2022. It is anticipated that ACE has sufficient 
electrical power generation capacity to operate until then.

Q3b.  What plans does NASA have to maintain or upgrade the data stream 
from ACE sensors once the current ACE mission has ended?

A3b. NASA intends to maintain the ACE low-rate, real-time data stream 
as long as the detector systems are functional. Operational ACE data, 
concerning solar magnetic fields and particle streams at the L1 point, 
are directly transmitted to NOAA receiving equipment for analysis and 
display by forecasters. No upgrades to the system have been identified, 
and there are no plans for upgrades at this time.

Q3c.  Have you been working with NOAA to transition this program from 
research to operations?

A3c. ACE has been used operationally by NOAA since the spacecraft was 
commissioned in 1997. The ACE real-time operational data is currently 
displayed by NOAA on the Internet at http://www.sec.noaa.gov/ace/. This 
is done, using algorithms provided by the NASA ACE experimenter team, 
from NOAA's Space Weather Operations (SWO) site in Boulder, Colorado. 
Continuity of data to the public and government users is assured 
assuming that the present NOAA reception and display of the processed 
data.

Q3d.  If so, when can we expect to see a transition plan and a request 
for an operational system that will provide data continuity for SEC's 
forecasts?

A3d. Transition of responsibility for the operation of the spacecraft 
will be considered in the event that a future NASA Senior Review panel 
returns a finding that ACE has no further scientific priority for the 
national research effort. In the event of such a finding, it is 
expected that a detailed transition plan will be crafted by a 
subcommittee of the recently chartered NASA-NOAA Joint Working Group, 
assuming such a plan is appropriate for meeting NOAA's operational 
goals.

Questions submitted by Representative Michael M. Honda

Two weeks ago, Administrator Griffin answered a question I asked about 
SOFIA and testified that the budget request calls for a review of the 
SOFIA project because of technical concerns associated with flying a 
747 with a big hole cut in the side of it. Since that time, I have 
learned that NASA Headquarters has been told a number of things by 
technical leaders on the project, including:

        <bullet>  that the structural modification of the fuselage is 
        complete

        <bullet>  that the telescope is completely installed and 
        functional

        <bullet>  that the cavity door is locked into place and ready 
        for closed flight testing

        <bullet>  that laminar flow over the opening is not an issue 
        preventing SOFIA from proceeding to the flight test phase

        <bullet>  that laminar flow issues are likely to be minimal 
        during flight test and that back-up solutions are already in 
        place to address any anticipated problems.

    This information directly contradicts the testimony of 
Administrator Griffin at our last hearing, which raises a series of 
questions:

Q1.  Can you tell me who at NASA gave the Administrator the technical 
and engineering information that he used in answering my question?

A1. The Science Mission Directorate is responsible for providing 
technical and engineering information to the Administrator.
    To date, approximately 85 percent of the aircraft modification 
effort has been completed. Remaining work includes ground testing 
(e.g., vibration test), completion of the cavity door drive system, 
inspection of major aircraft modifications, major maintenance, as well 
as closeout reviews and documentation approval by both the FAA and NASA 
Safety and Mission Assurance. The SOFIA Program has expended 
approximately $438 million from inception, and at least another $200 
million will be required to get through the Operational Readiness 
Review (ORR). Although significant progress has been made, the lost 
schedule cannot be recovered and the potential for additional cost 
growth remains.
    On June 15, the NASA Program Management Council (PMC) held a 
technical and programmatic review of SOFIA and concluded that there 
were no insurmountable technical or programmatic challenges to the 
continued development of the program. NASA has developed a technically 
viable plan to proceed with the development of the SOFIA aircraft, 
subject to the identification of appropriate funding offsets. However, 
it is not yet clear whether SOFIA represents the best investment of 
space science funding, and NASA will need to consider funding options 
and sources before deciding to continue the mission.

Q2.  Was that information also used in evaluating the project's merits 
in making a decision about FY 2007 funding levels and to hold a review 
intended to terminate the project?

A2. The schedule for SOFIA aircraft first flight, Operational Readiness 
Review, and first science flight, have all slipped substantially in the 
past year, due a range of technical and contractor performance issues. 
This status, and the associated budgetary impact and competing science 
priorities, led to the FY 2007 funding decision.

Q3.  What NASA engineers can be produced to explain NASA's position 
that significant technical challenges remain? [Because the Chief 
Engineer on the SOFIA project believes, it is ready to proceed.]

A3. To establish the current technical, cost, schedule, and risk 
posture of SOFIA, and to develop options for paths forward, NASA 
Headquarters chartered a review to be conducted by technical and 
budgetary experts. On June 15, the NASA Program Management Council 
(PMC) held a technical and programmatic review of SOFIA and concluded 
that there were no insurmountable technical or programmatic challenges 
to the continued development of the program. NASA has developed a 
technically viable plan to proceed with the development of the SOFIA 
aircraft, subject to the identification of appropriate funding offsets. 
However, it is not yet clear whether SOFIA represents the best 
investment of space science funding, and NASA will need to consider 
funding options and sources before deciding to continue the mission.

Q4.  It has been reported that the costs to complete SOFIA and make the 
observatory flyable for test evaluation are roughly equivalent to the 
termination costs of the program. Wouldn't it be the best use of the 
taxpayer's investment in SOFIA to complete the aircraft, conduct flight 
evaluations of the science performance of the observatory system and 
proceed to a productive science program?

A4. The question refers to two different costs: (1) cost to make the 
observatory flyable (which is equivalent to the first flight test which 
is essentially a door-closed flight test of the aircraft without the 
conduct of science observations), and (2) cost to proceed to a 
productive science program (which occurs after completion of the door-
closed flight test program, door-open flight test program, and 
Operational Readiness Review (ORR) ).
    While cost (1) above is likely to be comparable to the termination 
costs for the SOFIA effort and contracts, cost (2) above is considered 
by NASA to be substantially greater than cost (1) above. It is for this 
reason, in addition to open technical and schedule concerns, that NASA 
chartered a review team to examine all options for pathways forward. On 
June 15, the NASA Program Management Council (PMC) held a technical and 
programmatic review of SOFIA and concluded that there were no 
insurmountable technical or programmatic challenges to the continued 
development of the program. NASA has developed a technically viable 
plan to proceed with the development of the SOFIA aircraft, subject to 
the identification of appropriate funding offsets. However, it is not 
yet clear whether SOFIA represents the best investment of space science 
funding, and NASA will need to consider funding options and sources 
before deciding to continue the mission.

Q5.  The budget for the Innovative Partnerships Program contains no 
funding for the University Research, Engineering, and Technology 
Institutes. In 2002, NASA committed to funding these for five years--
this is the fifth year, but the funding is not there. The URETIs 
conduct cutting edge research, train tomorrow's high tech workforce, 
and by their interdisciplinary nature combine the talents of 
researchers from schools of engineering, medicine, chemistry, and other 
fields to work on nano-, bio-, and information technologies. Can you 
explain how the decision to provide no funding for the URETIs is 
consistent with the emphasis on nanotechnology placed in the budget 
guidance memo issued by OMB and OSTP on July 8, 2005 and with the 
President's recently announced American Competitiveness Initiative, 
which has as its goals training the next generation of scientists and 
engineers, especially in critical interdisciplinary fields and skills?

A5. NASA currently supports four University Research Engineering and 
Technology Institutes (URETIs), focused on university R&D in the 
emerging field of nanotechnology (list attached). Each of the 
nanotechnology URETIs are funded under a five-year cooperative 
agreement, initiated in 2003, at a cost to NASA of $3M per year for 
each institute. The FY 2007 Budget Request for NASA did not include 
funding within the Innovative Partnerships Program Office budget for 
the fifth and final year of funding for these four URETIs. However, 
NASA is presently seeking to identify, within available Agency 
resources, approximately half of the original final-year funding for 
these institutes, pending final Congressional action on NASA's budget 
request. We are working to achieve this partial funding arrangement in 
order to enable the completion of research being conducted under the 
URETI cooperative agreements, and to minimize disruption to the 
students engaged in these efforts.

Background of URETI Program

    Each of the URETIs represents a collaborative cluster of 
Universities, with one University as the lead. These partnerships were 
established in 2003 with the purpose of creating a sustained dialogue 
with the academic community that focused on cutting-edge university 
research and educational experiences in areas of NASA interest. The 
URETI concept was intended to serve as a pathway to inspire 
undergraduates to consider a career in science and NASA, as well as to 
acquire needed enabling technologies for implementing NASA's space 
exploration goals. Since 2004, NASA's Exploration Systems Mission 
Directorate (ESMD) has provided the funding to support six URETIs: the 
aforementioned four institutes focused on nanotechnology-related 
research advancements, and two institutes engaged in R&D efforts 
focused on hypersonics. These include the Institute for Future Space 
Transportation, led by the University of Florida, and the Space Vehicle 
Technology Institute led by the University of Maryland.

Research Realignment in Support of Exploration Goals

    When NASA defined its space exploration architecture in 2005, the 
Agency also realigned its research investment portfolio to ensure 
development of the Crew Exploration Vehicle and its launch systems by 
no later that 2014. NASA has reviewed its investments in long-term 
research in the area of nanotechnology, such as that conducted by the 
URETIs, and determined that this research area, while important, did 
not meet the criteria for critical, near-term research requirements 
necessary to carry out NASA's mission. Consequently, the FY 2007 Budget 
Request for NASA did not include funding for the four nanotechnology-
focused URETIs within the Innovative Partnerships Program, which 
currently manages the URETIs. Full funding is maintained for these 
institutes through the remainder of FY 2006, the fourth year of the 
cooperative agreements.
    NASA is currently working to achieve a partial funding arrangement, 
at about half the original final-year funding level, that would enable, 
as practicable, the completion of student research currently in 
progress, and an orderly ramp-down of NASA-supported work at the 
nanotechnology URETIs. There is no funding planned for these institutes 
in FY 2008. If NASA is able to identify resources, the Agency intends 
to provide approximately $6 million to continue URETI program support 
in FY 2007, or approximately $1.5 million for each of the 
nanotechnology institutes. We are informing the nanotechnology URETIs 
of our intent, and are encouraging the URETI directors to carry over 
remaining FY 2006 funds that may be more effectively used in FY 2007, 
given this level of funding. NASA's IPPO will notify the URETIs as soon 
as we are able to confirm our FY 2007 funding plans.
    In late 2005, the Innovative Partnerships Program, previously 
contained within ESMD, was established as a separate NASA Headquarters 
Office, reporting directly to the NASA Associate Administrator. The 
newly created IPPO assumed management of the nanotechnology-focused 
element of the URETI program. Management of the two hypersonics-focused 
institutes is retained within ESMD. In 2006, these URETIs have been 
refocused towards research relevant to exploration technical risks, 
including vehicle thermal structures, propellant storage and delivery, 
re-entry aerothermodynamics, and systems analysis. Planning is underway 
within ESMD to continue these research teams beyond FY 2006 if 
continued relevance to high priority exploration needs can be shown.

Nanotechnology URETIs

Princeton University URETI

Title: Bio-Inspired Design and Processing of Multi-Functional Nano-
Composites (BIMat)

Team Members: University of California-Santa Barbara, Northwestern 
University, University of North Carolina, Nat'l Institute for Aerospace

Technical Emphasis: To develop innovative processing technologies for 
the design and modeling of hierarchically structured materials capable 
of bio-sensing catalysis and self-healing.

Purdue University URETI

Title: Institute for Nanoelectronics and Computing (INAC)

Team Members: Yale, Northwestern, University of Florida, Cornell, 
University of California-San Diego, Texas A&M

Technical Emphasis: Develop fundamental knowledge and enabling 
technologies in materials/devices, fabrication/assembly, circuit 
systems and modeling for integrated nanoelectronic systems; major 
themes of ultradense memory, ultraperformance devices, integrated 
sensors, and adaptive systems.

Texas A&M University URETI

Title: Institute for Intelligent Bio-Nano Materials and Structures for 
Aerospace Vehicles (TiiMS)

Team Members: Rice University, Texas Southern, Prairie View A&M, 
University of Texas-Arlington, University of Houston

Technical Emphasis: Basic and applied research in the integration of 
sensing, computing, actuation and communication in smart materials and 
bio-materials; to enable health monitoring and fault-tolerant, adaptive 
control; focus on carbon nano-tube technology.

University of California-Los Angeles URETI

Title: Center for Cell Mimetic Space Exploration (CMISE)

Team Members: California Institute of Technology, Arizona State, 
University of California-Irvine

Technical Emphasis: To mimic the complexity of the multi-scale 
information management (bio-informatics) of living systems, coupled 
with the development of new, scalable nano-technologies in sensors, 
actuators and energy sources.

Q6.  Does it make sense to cancel the Deep Space Climate Observatory, 
which is a cost-effective project that has received strong support in 
the past, was rated as a high priority by the National Academies and 
plays an important role in infrastructure safety and science? How will 
canceling this mission impact our understanding of the Sun-Earth system 
and our efforts in Earth Science?

A6. With the release of the Vision for Space Exploration in 2004, the 
Space Shuttle manifest was refocused on completing assembly of the 
International Space Station and a possible servicing mission to the 
Hubble Space Telescope, thus continuing to preclude Shuttle's 
availability to launch DSCOVR. NASA has pursued various possibilities 
for access to space by expendable launch vehicle, including mission co-
manifesting, but none have resulted in a fiscally viable solution. 
Unfortunately, the state of the budget in the context of competing 
priorities precludes continuation of the DSCOVR project.

Questions submitted by Representative Daniel Lipinski

Q1.  What is the timeframe for beginning and completing the project 
review for SOFIA? What are the determining factors NASA will utilize in 
deciding whether or not to fund SOFIA in the FY 2007 operating plan or 
future budget requests?

A1. On March 15, 2006, NASA issued the Charter for the SOFIA review. 
The review was initiated on March 20, 2006, in Waco, TX (where the 
SOFIA aircraft is located). On June 15, the NASA Program Management 
Council (PMC) held a technical and programmatic review of SOFIA and 
concluded that there were no insurmountable technical or programmatic 
challenges to the continued development of the program. The PMC is 
chaired by NASA Associate Administrator Rex Geveden and comprised of 
NASA headquarters and center senior management. NASA has developed a 
technically viable plan to proceed with the development of the SOFIA 
aircraft, subject to the identification of appropriate funding offsets. 
However, it is not yet clear whether SOFIA represents the best 
investment of space science funding, and NASA will need to consider 
funding options and sources before deciding to continue the mission.

Q2.  Is it standard practice to zero out all funding for a project that 
is ``under review'' before the review is actually completed? If yes, 
can you please identify what other projects have suffered such a fate?

A2. NASA does not have a ``standard practice'' in this regard. Our 
approach in each instance has been dependent on:

        1.  the reasons for the review;

        2.  the scope of the review;

        3.  the timing of the review, relative to the yearly budget 
        process;

        4.  the assessed likelihood (by HQ) of the outcome of the 
        review; and,

        5.  budget pressures external to the project.

    Certainly, some Projects have faced potential termination, while 
still being supported by official budget requests. However, there is 
also precedent for budgets being ``zeroed out'' before a termination 
has formally occurred. Examples include Gravity Probe B (in the 1990, 
1993, and 1996 President's Budget requests), and the Vegetation Canopy 
Lidar and Triana missions (in the 2002 President's Budget request).

Q3.  Despite your assurances, the reality is that the Administration is 
cutting over $3 billion from the science budget relative to last year's 
plan. It seems to me that SOFIA is mainly on the chopping block because 
you need the money for other things, and SOFIA is vulnerable. If a 
project that is this close to completion is vulnerable, what other 
science projects can we expect to see on the ``cut list'' next year at 
this time?

A3. In an R&D environment, some replanning will always be necessary. 
Projects that are running over budget and behind schedule can be 
considered for cancellation even in late stages of development, but 
assuming a relatively stable total Science budget, we do not currently 
expect to propose cancellation of any additional projects next year.

Q4.  Dr. Griffin testified before this committee that a ``laminar 
flow'' issue was potentially a serious problem for SOFIA. That issue 
apparently was not raised in any of the most recent technical reviews 
of the project, though you did mention in your testimony before the 
Committee that there is a disagreement at NASA regarding the details of 
this possible problem. What was the basis of Dr. Griffin's statement 
and your description? Can you please provide documents to support your 
claims?

A4. On June 15, the NASA Program Management Council (PMC) held a 
technical and programmatic review of SOFIA and concluded that there 
were no insurmountable technical or programmatic challenges to the 
continued development of the program. The PMC is chaired by NASA 
Associate Administrator Rex Geveden and comprised of NASA Headquarters 
and center senior management. NASA has developed a technically viable 
plan to proceed with the development of the SOFIA aircraft, subject to 
the identification of appropriate funding offsets. However, it is not 
yet clear whether SOFIA represents the best investment of space science 
funding, and NASA will need to consider funding options and sources 
before deciding to continue the mission.
    To date, approximately 85 percent of the aircraft modification 
effort has been completed. Remaining work includes ground testing 
(e.g., vibration test), completion of the cavity door drive system, 
inspection of major aircraft modifications, major maintenance, as well 
as closeout reviews and documentation approval by both the FAA and NASA 
Safety and Mission Assurance. The SOFIA Program has expended 
approximately $485 million from inception through the end of March 
2006, and at least another $250-300 million will be required to get 
through the Operational Readiness Review (ORR).

Q5.  Dr. Cleave, Dr. Griffin and others have mentioned ``technical 
problems'' that led to the NASA decision to zero out funding for SOFIA. 
Can you identify the specific technical or other concerns that led to 
this decision, as well as how those concerns were identified--was there 
a prior review that raised a red flag? If so, could you please provide 
a copy of it to us?

A5. The basis for formulating the FY 2007 Budget Request includes 
technical, schedule, and cost considerations. The schedule for SOFIA 
aircraft first flight, Operational Readiness Review, and first science 
flight, had all slipped substantially in the past year, due a range of 
technical and contractor performance issues. In addition, the specific 
area of the cavity door drive system and associated door brackets 
misplacement, are current technical matters in work. In addition, 
recent technical problems with the aircraft heavy maintenance D-Check, 
including damage to the aircraft, and sign-off of work that was not 
completed, were also factors. This status, and the associated budgetary 
impact and competing science priorities, led to the FY 2007 funding 
decision.

Q6.  Do you believe that the cancellation of this and other scientific 
programs sends the wrong message to undergraduate and graduate 
students--to study other fields rather than science? What impact will 
the cancellation of SOFIA and other science programs have on the future 
NASA workforce and how does it tie into the President's American 
Competitiveness Initiative? How does NASA expect to increase the number 
of young people entering the scientific fields of study, if the 
Administration keeps cutting the funding of important scientific 
programs?

A6. The NASA Science Mission Directorate still has over 50 missions in 
operation and over 40 missions in development with launch dates planned 
before 2012--plus missions like JWST in the next decade. Only a small 
percentage of SMD projects have been slowed down or canceled. NASA is 
maintaining a vibrant space science program that will still attract the 
best and brightest young scientists and engineers.

Q7.  Given that the SOFIA is a program conducted in collaboration with 
the German Aerospace Center, what impact will the zeroing-out of this 
program have on the U.S./German partnership? Have you talked to our 
German partners about the lack of funding and what has been their 
reaction?

A7. NASA has been in regular contact with the German Aerospace Center 
(DLR) regarding the status of the SOFIA program, including a number of 
direct discussions between the NASA Deputy Administrator and the DLR 
Chairman. In addition, NASA invited DLR representatives to participate 
as ex-officio members of the review team which evaluated options for 
the program. The DLR members were thoroughly involved in all of the 
team's activities, and made a valuable contribution to its review of 
the program. Science Mission Directorate officials have also held 
regular telecons with their DLR counterparts to ensure that they were 
fully engaged in this process. DLR leaders have been extremely 
supportive during these discussions, and have been encouraged by the 
conclusion of NASA's recent technical and programmatic review that 
could potentially lead to the continuation of the mission. NASA has 
informed DLR that continuation of the mission would be subject to the 
identification of appropriate funding offsets.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  How did NASA determine the relative priority of each of its 
science programs in order to allocate the limited available funding 
among them?

A1. The funding for each science division reflects the re-balancing of 
the science portfolio begun last year with the Amendment to the FY 2006 
Budget Request. Each division determined the proposed mix of large 
missions, small missions, and research, using community input from the 
decadal surveys and other National Research Council and Space Studies 
Board reports to guide this process.
    We intend to discuss this issue further with the NASA Advisory 
Council (NAC), with representatives of the science community and the 
Space Studies Board of the National Academy of Sciences, and will seek 
their advice to ensure that we maintain an appropriate mix within each 
Science Mission Directorate (SMD) Division between R&A, small-, medium-
, and large-class missions. The Space Studies Board met March 6-8, 
2006, and their report ``An Assessment of Balance in NASA's Science 
Programs'' has been received and is currently under review. The science 
subcommittees of the NAC met May 3-4, and the chairs of each 
subcommittee sent recommendation letters to the Science Committee 
Chair. These subcommittee recommendations were discussed at the NAC 
meeting on May 18 at the Jet Propulsion Laboratory, and NASA 
anticipates receiving formal recommendations for SMD within the next 
few weeks. Should changes in the mix of R&A and mission investment be 
determined to be appropriate, we may pursue that course of action, 
potentially via an adjustment in NASA's FY 2006 Operating Plan and 
NASA's initial FY 2007 Operating Plan.

Q2.  What impact will the empty promise of greater funding have on 
NASA's Science Mission Directorate's ability to plan long-term research 
initiatives?

A2. The NASA Science Mission Directorate still has over 50 missions in 
operation and over 40 missions in development with launch dates planned 
before 2012--plus exciting missions like JWST in the next decade. Only 
a small percentage of NASA projects have been slowed down or canceled. 
NASA is maintaining a vibrant Earth and space science program that will 
still attract the best and brightest young scientists and engineers.

Questions submitted by Representative Brian Baird

Q1.  In 2004, NASA, along with NOAA and the USGS, requested that the 
National Academies of Science (NAS) ``generate consensus 
recommendations from the Earth and environmental science and 
applications community regarding science priorities [for Earth 
observations from space].'' In the winter of 2005, NAS released a 
preliminary report which asked that NASA ``launch the Global 
Precipitation Measurement mission (GPM) without further delays.'' In 
response, in spring 2005 NASA advanced the launch date by one year. 
However, the FY 2007 NASA budget request would reverse this decision, 
and would delay the launch by at least two years, potentially 
jeopardizing the international partnership that is the basis of GPM and 
particularly Japanese involvement--critical because key instruments on 
the mother spacecraft are to be provided by JAXA, the Japanese space 
agency. How did NASA come to the decision to delay this mission, and do 
they intend to follow the NAS recommendations regarding Earth Science 
once the entire report is released in Fall, 2006?

A1. The Global Precipitation Measurement (GPM) mission is currently in 
formulation phase within the Earth Science Division of the Science 
Mission Directorate. The NASA Administrator has stated that formulating 
the NASA FY 2007 budget request required discipline and difficult 
decisions. As a result, the Science Mission Directorate rate of growth 
over the next four years was reduced. These reductions were focused on 
missions that had not yet been through a confirmation review and thus 
would be less severely impacted. Unfortunately, this resulted in 
delaying the launch of GPM.
    In responding to this changed budget situation, the Science Mission 
Directorate1s overall strategy is to develop an executable program 
based on science priorities provided by the community via National 
Academy of Sciences studies, including those addressing Earth Science. 
We look forward to receiving the final version of the NRC decadal 
survey in Earth Science later this year to aid in this process.
                   Answers to Post-Hearing Questions
Submitted to Joseph H. Taylor, Jr., Co-Chairman, National Academy of 
        Sciences Decadal Survey for Astrophysics; James S. McDonnell 
        Distinguished University Professor of Physics, Princeton 
        University

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Should the community change the Decadal Survey process so that the 
Survey is done for several different, specific budget scenarios? Should 
a process be established for updating the Surveys if significant new 
budgetary or scientific information comes in during the 10-year period 
covered by a Survey?

Q2.  You mention the issue of cost growth in your testimony, saying you 
``believe the correct procedure is for NASA to set up a task force to 
work with centers and contractors to improve the reliability of the 
cost, schedule and technology risk estimates, including proper 
contingencies, for each of the selected missions.'' Would you care to 
elaborate? How does this differ from today's program reviews?

Q3.  In your written testimony you mention the exciting new area of 
``dark energy.'' Has NASA consulted with the astrophysics community 
regarding a preferred mission for the study of ``dark energy''? Should 
NASA's priorities be reordered to give greater emphasis to the study of 
``dark energy''?

Questions submitted by Representative Bart Gordon

Q1.  In her testimony, Dr. Cleave stated that the rationale for the 
cuts to the Research and Analysis (R&A) funding was ``directly related 
to the slowing rate of growth of Science Mission Directorate programs'' 
and the need to achieve a better balance.

        <bullet>  Do you agree with that rationale?

        <bullet>  What is an appropriate level of R&A funding and why?

Q2.  You have expressed concern over the impact of the proposed cuts to 
NASA's space and Earth science budget plans. If you were the NASA 
Administrator, what approach would you take to prioritize NASA's 
planned activities given the current constrained budgetary outlook for 
NASA, and why?

Q3.  The impact of the cuts made to the space and Earth science budget 
plans relative to the FY05 runout has been exacerbated by cost growth 
in a number of science projects in recent years. What are the reasons 
for the cost growth, and what should be done to address it?

Q4.  Under the proposed budget, will NASA be investing enough in 
technology risk reduction and concept development for NASA and the 
science community to be able to adequately assess the feasibility and 
likely cost of future missions such as the Terrestrial Planet Finder 
and the Einstein probes? Should we be concerned about NASA's level of 
investment in new technologies?

Questions submitted by Representative Mark Udall

Q1.  You have expressed your concern about the health of the Explorer 
program under this budget plan. What would it take to restore the 
Explorer program to health, and what would a healthy program look like?

Q2.  You discuss the need for a range of mission sizes. In developing 
the recommendations in your decadal survey, what criteria governed the 
balance you sought between small, medium, and large missions?

Q3.  Dr. Cleave indicates in her testimony that NASA will be evaluating 
the potential for lunar science enabled by the Exploration initiative.

        <bullet>  How do we go about ranking such exploration-enabled 
        lunar science against alternative science projects and ensuring 
        we are getting the best science for our money?

Question submitted by Representative Eddie Bernice Johnson

Q1.  What impact will the empty promise of greater funding have on 
NASA's Science Mission Directorate's ability to plan long-term research 
initiatives?
                   Answers to Post-Hearing Questions
Responses by Fran Bagenal, Member, National Academy of Sciences Decadal 
        Survey for Sun-Earth Connections; Professor, Astrophysical and 
        Planetary Sciences, Laboratory for Atmospheric and Space 
        Physics, University of Colorado

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Should the community change the Decadal Survey process so that the 
Survey is done for several different, specific budget scenarios? Should 
a process be established for updating the Surveys if significant new 
budgetary or scientific information comes in during the 10-year period 
covered by a Survey?

A1. I believe each Decadal Survey should be done only once per decade. 
It is very rare that space science moves so rapidly that the scientific 
priorities change within a decade. On the other hand, it is often the 
case that the implementation of these scientific priorities needs to 
change to accommodate either changes in mission costs or budget 
profiles--usually both. In reality, it is not possible to completely 
de-couple the scientific priorities of a Decadal Survey from the 
practicalities of implementation. Decadal Surveys are built from 
mission concepts that aim to achieve specific scientific objectives. 
Without accurate estimates of the costs of implementing such missions 
any Decadal Survey lacks a realistic foundation. Thus, the primary 
basis of a useful Decadal Survey needs to be accurate costing of 
mission concepts that allows a prioritization of these missions--and 
the science that they are expected to achieve. Should NASA budget 
profiles change within the 10-year period covered by a Survey then 
issues of implementation of specific missions needs to be discussed 
between NASA and the scientific community through an advisory structure 
such as the subcommittees of the NASA Advisory Council (NAC) 
corresponding to the Divisions of the Science Mission Directorate.

Questions submitted by Representative Bart Gordon

Q1.  In her testimony, Dr. Cleave stated that the rationale for the 
cuts to the Research and Analysis (R&A) funding was ``directly related 
to the slowing rate of growth of Science Mission Directorate programs'' 
and the need to achieve a better balance.

Q1a.  Do you agree with that rationale?

A1a. No, I do not agree with this rationale. While R&A does indeed 
support missions, it also does much more. Under R&A many small, 
innovative projects carry out a wide variety of objectives from 
compiling many different data sets from multiple missions to 
development of theoretical models for comparison with existing or 
future mission data to proto-typing new instrument concepts.

Q1b.  What is an appropriate level of R&A funding and why?

A1b. There is not quick answer to this question. Each scientific 
program of R&A within the Science Mission Directorate has an 
(relatively slow) evolution with time in response to scientific growth 
in a particular sub-field of research. The Program Managers have 
detailed knowledge of how these fields are changing and the quantity 
and quality of responses to Announcements of Opportunity to propose to 
these programs. Adjustment of the level of funding of different R&A 
programs and the overall level relative to mission funding lines should 
be made by the Division Directors in consultation with the appropriate 
advisory subcommittee.

Q2.  You have expressed concern over the impact of the proposed cuts to 
NASA's space and Earth science budget plans. If you were the NASA 
Administrator, what approach would you take to prioritize NASA's 
planned activities given the current constrained budgetary outlook for 
NASA, and why?

A2. The most pressing issue to address is the alarming way that 
missions seem to be under-costed to start with as well as how mission 
costs overrun initial budgets. The scientific community--through the 
division subcommittees of the NAC--needs to work with NASA to first 
address this issue--as well as develop realistic implementation plans 
for completing missions prioritized by the Decadal Surveys.

Q3.  The impact of the cuts made to the space and Earth science budget 
plans relative to the FY05 runout has been exacerbated by cost growth 
in a number of science projects in recent years. What are the reasons 
for the cost growth, and what should be done to address it?

A3. The point made above is worthy of repetition: The most pressing 
issue to address is the alarming way that missions seem to be under-
costed to start with as well as how mission costs overrun initial 
budgets. The scientific community--through the division subcommittees 
of the NAC--needs to work with NASA to first address this issue--as 
well as develop realistic implementation plans for completing missions 
prioritized by the Decadal Surveys.
    There are probably several causes of mission cost growth: major 
changes in NASA's accounting systems (i.e., Full Cost Accounting); the 
sharp rise in launch costs; delays that lead to additional costs (e.g., 
``standing armies'' of engineers/managers/scientists, storage/
maintenance/rebuilding of instrumentation, inflation); initial under-
costing of missions; requirement creep; increased documentation to 
minimize perceived risk. The NASA advisory bodies cannot solve these 
issues alone. The solution lies in bringing together the expertise of 
experienced mission managers, the administration of the NASA centers 
and the PIs who have seen successful missions to completion within 
budget targets. For example, there are lessons to be learned for both 
NASA administration and the scientific community from the recent NRC 
report on PI-led missions. There must also be rigorous, on-going review 
of center-led (non-PI-led or flagship) missions that assesses whether 
these missions are on schedule and on budget. NASA administration must 
be willing to find more cost-effective alternatives or cancel missions 
that run over budget and the scientific community must accept such 
possibilities.

Q4.  Under the proposed budget, will NASA be investing enough in 
technology risk reduction and concept development for NASA and the 
science community to be able to adequately assess the feasibility and 
likely cost of future missions such as the Terrestrial Planet Finder 
and the Einstein probes? Should we be concerned about NASA's level of 
investment in new technologies?

A4. More important than the total amount of funds being invested in 
technology is whether the funds are being targeted at the most 
appropriate development of technology. This issue is closely coupled to 
accurate costing of missions--it is key that appropriate level of 
funding be budgeted for technology development. Furthermore, it is 
critical that decision points be identified during the mission 
planning/development at which the readiness of such technologies be 
carefully evaluated so that an informed decision can be made about 
whether a mission should proceed.

Questions submitted by Representative Mark Udall

Q1.  You have expressed your concern about the health of the Explorer 
program under this budget plan. What would it take to restore the 
Explorer program to health, and what would a healthy program look like?

A1. A healthy Explorer program would produce a launch every 12-18 
months. This entails an approximately annual Announcement of 
Opportunity to propose, alternating between small (SMEX) and medium 
(MIDEX) class missions, which would produce a competitive selection of 
a handful of concepts for feasibility study. Review of such technical/
management/cost feasibility studies would lead to selection of a 
mission for flight. In order to allow rapid (<5-year) progress from 
mission concept to launch, to take advantage of advances in technology 
and to provide the opportunity to give junior scientists and engineers 
valuable flight experience, it is necessary that the Explorer program 
be recognized to entail higher risk that flagship-class, center-led 
missions. This means that the burden of bureaucratic process be limited 
to that appropriate for good practice of such small-scale missions 
(guidance for which can be provided by the pool of experienced 
Principal Investigators and Mission Managers of Explorer missions that 
their achieved scientific goals on budget and on schedule).

Q2.  Dr. Cleave indicates in her testimony that NASA will be evaluating 
the potential for lunar science enabled by the Exploration initiative.

     How do we go about ranking such exploration-enabled lunar science 
against alternative science projects and ensuring we are getting the 
best science for our money?

A2. Historically, many planetary and space scientists cut their 
professional teeth on lunar science. Many of the current scientific 
leaders worked on Apollo data. Understanding of basic planetary and 
space physics processes were developed in the Apollo era. Many of these 
scientists have moved (via robotic spacecraft) out into the solar 
system to apply techniques gleaned at the Moon to other places and to 
learn about planetary processes through comparison with the lunar case. 
Thus, the Moon has taught us valuable lessons but explorations since 
Apollo have shown us a much bigger view of the origin and evolution of 
our solar system and that the Moon is just one specific, isolated and 
rather idiosyncratic example of planetary bodies. Potential return of 
humans to the Moon provides an important opportunity for detailed study 
of outstanding issues of lunar science but it will be crucial that the 
larger scientific community of planetary scientists be involved in 
evaluating the cost-benefit of extensive lunar exploration for 
furthering our understanding of key scientific issues. While we, as 
terrestrial beings, hold the Moon particularly dear as our companion 
planetary body, further knowledge of our neighbor does not necessarily 
help us answer the priority scientific questions about the evolution of 
our solar system and the origins of life therein.
    It should also be noted that to enable humans to safely return to 
the Moon we need accurate and reliable predictions of the charged 
particle and radiation conditions--space weather--that astronauts will 
experience. This entails better understanding of how conditions between 
the Sun, Earth and Moon are affected by solar activity--the 
fundamentals of Heliophysics research.

Question submitted by Representative Eddie Bernice Johnson

Q1.  What impact will the empty promise of greater funding have on 
NASA's Science Mission Directorate's ability to plan long-term research 
initiatives?

A1. I believe that the current focus of NASA's Science Mission 
Directorate should be to urgently address the issue of controlling 
escalating costs of missions. It is impossible to make long-term plans 
if the estimates of mission costs are constantly growing. The 
scientific community--through the division subcommittees of the NAC--
needs to work with NASA to first address this issue--as well as develop 
realistic implementation plans for completing missions prioritized by 
the Decadal Surveys. Currently, about one-third of NASA's budget is 
allocated towards the Science Mission Directorate--a substantial sum 
that should allow a healthy science program. The scientific community 
needs to work with the NASA administration to make sure the taxpayers' 
money returns the best science.

Questions submitted by Representative Michael M. Honda

Q1.  Does it make sense to cancel the Deep Space Climate Observatory, 
which is a cost-effective project that has received strong support in 
the past, was rated as a high priority by the National Academies and 
plays an important role in infrastructure safety and science? How will 
canceling this mission impact our understanding of the Sun-Earth system 
and our efforts in Earth Science?

A1. A recent NRC report highly rated the science achievable by the Deep 
Space Climate Observatory. The issue is of implementation. Competition 
tends to reveal strengths and weaknesses of different approaches to 
implementing a mission. The key concern is whether, after many years of 
delay, the most cost-effective approach is to continue with the 
original mission vs. refurbishing the spacecraft with up-to-date 
technology. Peer review is the best (and affordable) way to evaluate 
whether a better job could be done at the same cost.
                   Answers to Post-Hearing Questions
Responses by Wesley T. Huntress, Jr., Member, National Academy of 
        Sciences Decadal Survey for Solar System Exploration; Director, 
        Geophysical Laboratory, Carnegie Institution of Washington

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Should the community change the Decadal Survey process so that the 
Survey is done for several different, specific budget scenarios? Should 
a process be established for updating the Surveys if significant new 
budgetary or scientific information comes in during the 10-year period 
covered by a Survey?

A1. The Decadal Survey is more about science than it is about missions, 
and the science goals are more enduring than the mission 
implementations. A balance of missions between low, medium and large is 
identified in each Decadal Survey with priorities in each class. This 
allows NASA to choose the mix it can afford in any budget year. I do 
not think that any Decadal should assume a set of budget scenarios but 
rather provide the prioritized lists of various cost classes as the 
means of responding to changing fiscal conditions. The most serious 
problem arises when the large class missions at the top of the flagship 
priority list can't be accommodated because of cost increases or budget 
decreases. At that point, a supplementary update report can be prepared 
by the NRC to address this issue.

Q2.  You note in your testimony that NASA will not be launching a 
flagship mission (such as a mission to Europa) for planetary sciences 
this decade, the first time that has happened in many decades. You also 
say in your testimony that ``the momentum of current mission 
development will carry [the solar system exploration program] for about 
two years, and then the bottom begins to fall.'' Can you elaborate on 
why flagship missions are important? Why would learning about Europa a 
couple of years later be detrimental?

A2. Flagship missions are important for two reasons. First, they allow 
a comprehensive study of the destination on a single mission when 
simultaneous measurements by multiple instruments are required. Second, 
some high value missions are simply very expensive, such as a Mars 
Sample Return or missions to Europa, Titan and most other outer planet 
objectives. While it is always easy to say that we can wait a few more 
years to learn what we want to know about Europa, how long should we 
wait to find out about Europa's subsurface oceans? And without some 
continuous technological work on this style of mission, our ability 
ultimately to mount such a mission will wither. Remember that we can no 
longer build a Saturn V. The same holds true for spacecraft as for 
launch vehicles.

Q3.  NASA has stated that it reduced the number of missions to Mars by 
eliminating human precursor missions, while maintaining the high-
priority science missions. Given the available funding, did NASA remove 
the correct missions to maintain the science and research activities 
for Mars?

A3. The human precursor line of Mars missions has been eliminated 
because Mars human missions are two or three decades into the future. 
However, the science mission line has been reduced as well. 
Essentially, instead of being able to send two medium-class missions to 
Mars, as in the case of the two rovers launched in 2003, NASA will only 
be able to alternate between one medium-class mission in one launch 
opportunity and a small mission in the following launch opportunity. 
There will be only one, instead of two, Mars Surface Laboratory rovers 
launched in 2009, thereby increasing mission risk and reducing the 
science return. Other medium-class high priority missions such as an 
astrobiology rover mission are deferred, and no large missions can be 
flown at all, such as the Mars Sample Return mission the Decadal Survey 
identified as the highest priority Mars mission in the next decade.

Questions submitted by Representative Bart Gordon

Q1.  In her testimony, Dr. Cleave stated that the rationale for the 
cuts to the Research and Analysis (R&A) funding was ``directly related 
to the slowing rate of growth of Science Mission Directorate programs'' 
and the need to achieve a better balance.

        <bullet>  Do you agree with that rationale?

        <bullet>  What is an appropriate level of R&A funding and why?

A1. No, I do not agree with Dr. Cleave's rationale. Dr. Cleave seems to 
believe that the best strategy is to cut everything proportionately, 
failing to recognize those programs fundamental to the future of the 
enterprise as distinguished from those that are more discretionary. The 
science community is space science's `boots on the ground' and the 
wellspring of NASA's flight missions. The R&A program is fundamental 
and mandatory to maintaining this Nation's capability in space science. 
The mandatory programs in space science are first the R&A, data 
analysis and technology programs that form the base rock for the flight 
programs. Also mandatory are the small flight mission lines such as 
Discovery and Explorers that in the absence of any other missions 
provide for a continuous and stable flight rate. Next are medium-class 
missions and finally flagships.
    There is no magic formula to rationally calculate the fraction of 
the program that should be dedicated to R&A. The level is determined by 
practice, essentially provided by the experience built up over four 
decades to establish the current necessary resource level. This level 
has been hard enough to maintain over the years given OMB's constant 
misplaced attitude that R&A is an entitlement program, so that R&A 
generally declines to inflation unless a new program like Astrobiology 
is brought on. In my view, R&A should never be cut at all. It will leak 
away to inflation in any case without proactive and constant support by 
the Agency.

Q2.  You have expressed concern over the impact of the proposed cuts to 
NASA's space and Earth science budget plans. If you were the NASA 
Administrator, what approach would you take to prioritize NASA's 
planned activities given the current constrained budgetary outlook for 
NASA, and why?

A2. As I indicated during questioning, within the Earth and space 
sciences, the priorities for maintaining a healthy science enterprise 
are: 1. R&A and mission data analysis, 2. Technology development for 
future missions, 3. Low-cost, high-flight rate mission lines such as 
Discovery and Explorers, 4. Medium cost missions and mission lines such 
as New Frontiers, and finally 5. Flagship missions. I would seek a 
balance amongst all these elements within these priorities. This is not 
what is being done in Earth and space sciences in response to the FY07 
budget reductions.
    If I were the NASA Administrator under the current constrained 
budgetary outlook, I would freeze Earth and space sciences at the 32 
percent level and tie its future budgets to this same percentage (not 
set it on a decline as Dr. Griffin has done), set human space flight at 
its current percentage as well and `go as you can afford to pay' rather 
than continue to damage other parts of the Agency. If this would mean a 
longer hiatus between Shuttle termination and CEV availability then so 
be it. We can't afford it otherwise and certainly not by damaging this 
nation's future in science, technology and aeronautics. If it were not 
for the Administration insisting on completing the ISS, I would tell 
the international partners that the Shuttle is not worth the risk and 
cost, and work with them to create a new plan on how to proceed 
together to get beyond the ISS. I have no confidence the Shuttle can 
deliver 16 flights over the next four years; it is too old, too 
dangerous, and too beset with operational problems.

Q3.  The impact of the cuts made to the space and Earth science budget 
plans relative to the FY05 runout has been exacerbated by cost growth 
in a number of science projects in recent years. What are the reasons 
for the cost growth, and what should be done to address it?

A3. The Earth and space science enterprise certainly does have some of 
its own house to get in order. I can answer authoritatively only for 
the planetary missions. Cost growth has been due largely to starting 
projects before the technologies have matured sufficiently, or to 
technologies being lost during development due to industrial sell-offs 
and key skills being dispersed. These issues can generally be handled 
by understanding which issues are beyond the project's control and 
which are not. In the former case, for the smaller missions such as 
Dawn that exist within program lines like Discovery, it was my practice 
to provide an extension to solve problems outside the project's control 
and delay the next mission to be started. Lately however, the practice 
seems to be hard-line cancellation without regard to circumstances or 
sunk cost. As for the monumental increase in JWST costs and some other 
missions, I have no insight.

Q4.  In your testimony, you state that you are an advocate for ``the 
scientific exploration of space-using both robotic and human 
elements.''

        <bullet>  Do you believe that science has been properly 
        integrated into NASA's exploration program? If not, why not?

        <bullet>  What would you recommend be done to ensure that 
        science and exploration are appropriately integrated?

        <bullet>  In the past, you have talked about the desirability 
        of a step-by-step approach to human exploration, wherein the 
        destinations and exploration approach are determined by the 
        scientific objectives being sought. Why do you think that is 
        the right approach to take, and is that what NASA is doing in 
        its exploration initiative?

A4. Science has not been integrated into NASA's human exploration 
program at all. Science is of course well integrated into NASA's 
robotic exploration program. The naming of NASA's Exploration Division 
perpetuates a false notion than only humans explore. NASA has been 
concentrating on HOW to go back to the Moon, not on WHY we should do it 
other than the President said so (ironically, the Vision document gives 
good answers to WHY), nor is NASA working enough on WHAT we will do 
when we get there. That's what scientists do. Scientists should be 
determining WHAT we should do on the Moon so that the engineers can 
figure out HOW. The cart has been put before the horse. This is exactly 
how the ISS got into trouble as a `laboratory in space'. Ultimately the 
ISS became no such thing.
    NASA's ESMD needs to have scientists on their staff that can help 
and advise, conduct studies on the science content for human and 
robotic exploration together, and work across the boundary with SMD. 
There are no scientists in ESMD at the moment. SMD and ESMD together 
should be marshalling the science community to determine what should, 
and should not, be done by human explorers on the Moon and beyond. They 
have done almost nothing so far.
    ESMD needs to consider science as a partner, instead of a nuisance, 
and engage the science community waiting to be asked to participate. 
There are already pre-existing and recent studies done both within and 
without NASA that can provide a head start.
    I do believe that the goals should determine the destinations, 
because ultimately it is what we do, not how we do it or where, that 
will provide the benefits to humanity. But the budget for the new 
exploration initiative in my opinion is barely sufficient to replace 
our Earth-to-orbit infrastructure--a CEV, a launcher for the CEV and a 
large cargo launcher. I don't think there will be enough in the runout 
of this budget to begin hardware development for the Moon, much less 
anything beyond. So it is no surprise that NASA focuses entirely on the 
Moon and develops an architecture that is more Apollo-like and lunar-
specific, and perhaps not as extensible to other destinations. As I 
said at the hearing, this is Apollo on food stamps, not the highway to 
the solar system so well articulated in the President's 2004 Vision. 
The 2004 Vision is so seriously under-funded now as to constitute no 
more than Earth-to-orbit infrastructure replacement.

Q5.  Under the proposed budget, will NASA be investing enough in 
technology risk reduction and concept development for NASA and the 
science community to be able to adequately assess the feasibility and 
likely cost of future missions such as the Terrestrial Planet Finder 
and the Einstein probes? Should we be concerned about NASA's level of 
investment in new technologies?

A5. We should be very concerned that NASA is not investing enough in 
technology and concept development to maintain its ability to conduct 
future missions such as TPF and Einstein probes. These are 
technologically challenging missions requiring highly specialized 
scientists and technologists. The planned terminations and reductions 
in funding will force these people to find other more stable 
opportunities, and their skills and technology lost to NASA. You can't 
just turn off scientists and technologists and expect to recover them 
after a time. Between losing these highly skilled people, and losing 
the brightest young people who will now see not much of a future in 
NASA, we will have mortgaged our ability to conduct such world-class 
missions in the future.

Questions submitted by Representative Mark Udall

Q1.  You discuss the need for a range of mission sizes. In developing 
the recommendations in your decadal survey, what criteria governed the 
balance you sought between small, medium, and large missions?

A1. In the Solar System Decadal Report, the number of flights per 
decade in each mission class was determined by examining the history of 
flight rates in past decades, mixed with assuming a top-line budget for 
the coming decade. In the 2003 decadal this was a budget that increased 
with the projections for the top line of the Agency, generally tracking 
inflation. In other words, no growth rate was assumed larger than the 
Agency itself. The result was one flagship per decade, three medium-
class New Frontiers missions per decade, and one small-class Discovery 
mission every eighteen months. The Mars program assumptions were the 
same, with one to two medium-class launches per opportunity (every 26 
months) and one small Scout launch every other opportunity.

Q2.  In your testimony you state that: ``The bottom line is that the 
future of our nation's solar system exploration enterprise has been 
mortgaged. The momentum of current mission development will carry it 
for about two years, and then the bottom begins to fall out.''

        <bullet>  That is strong language. Would you please elaborate 
        on what you mean?

A2. NASA has terminated or deferred flight missions in development 
without maintaining our ultimate ability to conduct them in the future. 
This is because the Agency has reduced, and some cases terminated, 
funding for technology and concept development that would allow the 
continuity required to revive these missions at a later date. Earth and 
space science flight missions, particularly the flagships, are 
technologically challenging, requiring highly specialized scientists 
and technologists to work on them. Precipitous reductions and 
termination of funding will force these skilled people to find other 
more stable opportunities. As a result, their skills and technology 
will be lost to NASA. You can't just turn off scientists and 
technologists and expect to recover them after a time. Between losing 
these highly skilled people, and losing the brightest young people who 
will now see not much of a future in NASA, we will have mortgaged our 
ability to conduct such world-class missions in the future.

Q3.  In her testimony, Dr. Cleave lists the reasons why funding for 
astrobiology was cut by 50 percent, including ``the lower flight rate 
for Mars missions, plus the recognition that human exploration missions 
to Mars are further in the future than previously assumed,'' as well as 
the previous growth in astrobiology funding.

        <bullet>  You were at NASA when the astrobiology program was 
        established. Was astrobiology meant to be tied exclusively to 
        Mars exploration?

        <bullet>  What was NASA trying to accomplish with the 
        astrobiology program, and what impact would the proposed cuts 
        have on the ability to achieve those goals?

        <bullet>  How popular has astrobiology been with the emerging 
        crop of young scientists, and what will happen to them and the 
        field if the proposed cuts are adopted?

A3. The astrobiology program was not established exclusively for Mars. 
Dr. Cleave does not understand her own program. The astrobiology 
research program was started as the research element of the Origins 
Program, the goals of which are to search for the origin of life on 
Earth, and to search for evidence of past or present life in our own 
solar system and in the universe beyond. The Origins program included 
technology development to enable flight missions to search for planets 
around other stars, such as SIM, and ultimately characterize Earth-like 
planets around other stars, such as TPF. It also increased the number 
of missions to Mars to search the red planet for evidence of water and 
life, and included technology and concept development for a mission to 
Europa to characterize its internal ocean as a potential abode for 
life. A survey of what has been cut, canceled and deferred from space 
science in this FY07 budget looks very much like everything in the 
Origins Program.
    The astrobiology program is tied to understanding the origin and 
evolution of life on Earth and how we might go about looking for it 
beyond our own planet. It was not meant to be Mars exclusive, nor is 
it. Much of the research is actually done on understanding basic life 
processes in microbes living in extreme conditions here on Earth as 
potential examples of what we might find `out there', and in 
establishing where we might look for signs of past or present life on 
any other planet including those around other stars. It also funds the 
development and testing of protocols and instruments to search for 
evidence of life on other planets. A lot of these developments have 
significant medical applications. The proposed cuts would short-circuit 
much of this work, crippling the ability of future missions to conduct 
any search for evidence of past or present life on Mars or Europa, and 
curtailing understanding of basic life processes in cells important not 
just for understanding the origin and evolution of life on Earth, but 
for medical application as well.
    The astrobiology program was intended to attract biologists back to 
NASA after Viking in 1976 found no sign life on Mars. It was intended 
to create a new interdisciplinary science by putting biologists 
together with chemists, physicists, astronomers and geologists to 
address some of the most fundamental questions regarding life in the 
universe, and to search in the seams between the traditional science 
disciplines where new discoveries were hiding. It has succeeded 
enormously well. It is the most vibrant new field of science in NASA, 
and has the envy of other science agencies in government. It has 
attracted an enormous number of bright, young researchers who are 
contributing heavily to new discoveries. Astrobiology has rejuvenated 
space science in NASA. The proposed cutback will strand a thousand of 
our brightest young scientists and divert them from promising careers 
just when our nation needs to cultivate science and engineering careers 
for its young people.

Q4.  Dr. Cleave indicates in her testimony that NASA will be evaluating 
the potential for lunar science enabled by the Exploration initiative.

        <bullet>  How do we go about ranking such exploration-enabled 
        lunar science against alternative science projects and ensuring 
        we are getting the best science for our money?

A4. The best approach is the one space science has been using for four 
decades. First engage the National Academy of Science to provide the 
equivalent of a Decadal report for lunar science; to define the 
strategic goals for combined human-robotic exploration of the Moon in 
the next 10-20 years. NASA should fund the requisite mission concepts 
for the Academy study and utilize the NASA Advisory Council's 
subcommittee structure to devise a roadmap to achieve the goals that 
result from the study.

Question submitted by Representative Eddie Bernice Johnson

Q1.  What impact will the empty promise of greater funding have on 
NASA's Science Mission Directorate's ability to plan long-term research 
initiatives?

A1. I am not sure whose `empty promise' is meant, but let me assume 
that it is NASA's promise that after Shuttle retirement, the science 
funding lost in this budget will be returned. I don't believe this for 
a moment. This FY07 budget sets a new pattern for NASA spending and it 
won't be altered once human space flight is `fixed'. No one who made 
that promise will be around five years from now, and human space flight 
will find its own reasons not to return the favor.
    The Science Mission Directorate should assume that it will not get 
any of this money back, and plan accordingly. SMD will need to wage an 
annual battle to prevent its budget from eroding further into human 
space flight. SMD should battle to maintain at least its current 32 
percent share of the NASA budget, and to increase it to the extent that 
it can.
                   Answers to Post-Hearing Questions
Responses by Berrien Moore III, Co-Chairman, National Academy of 
        Sciences Decadal Survey for Earth Sciences; Director, 
        University Distinguished Professor, Institute for the Study of 
        Earth, Oceans, and Space, University of New Hampshire

Questions submitted by Chairman Sherwood L. Boehlert

Q1a.  Should the community change the Decadal Survey process so that 
the Survey is done for several different, specific budget scenarios?

A1a. I believe so. This is what the Earth Sciences Decadal Survey will 
do. The one difficulty is that we must still be modestly optimistic 
about the budget. Were we to ``accept'' the NASA Earth Science budget, 
then there would be almost no need for a Decadal Survey, at least in 
this decade.

Q1b.  Should a process be established for updating the Surveys if 
significant new budgetary or scientific information comes in during the 
10-year period covered by a Survey?

A1. Yes, if the budget environment is significantly changed either by 
cost growth or budget reductions; however, this should be a rare event.

Questions submitted by Representative Bart Gordon

Q1.  In her testimony, Dr. Cleave stated that the rationale for the 
cuts to the Research and Analysis (R&A) funding was ``directly related 
to the slowing rate of growth of Science Mission Directorate programs'' 
and the need to achieve a better balance.

Q1a.  Do you agree with that rationale?

A1a. No, I strongly disagree. As the number of new missions decline and 
hence funding for data analysis associated with the new mission 
declines, then it is ever more important to maintain a healthy Research 
and Analysis program to keep the flow of new ideas strong and to 
continue to attract new young people to Earth and Space science. This 
means a tip in the balance toward R&A rather than away from R&A. NASA 
is moving in exactly the wrong direction.

Q1b.  What is an appropriate level of R&A funding and why?

A1b. This is a very difficult question, and I am not sure I have an 
adequate answer. I know when it seems adequate and when it appears 
inadequate. My ``test'' involves an informal synthesis of new 
opportunities, rejection rates, and community morale and excitement. 
When the rejection rates reach 85 percent to 90 percent, then there is 
likely to be trouble. We were already on the edge of trouble with the 
FY05 budget and the FY06 operations changes. The FY07 budget is major 
trouble.

Q2.  You have expressed concern over the impact of the proposed cuts to 
NASA's space and Earth science budget plans. If you were the NASA 
Administrator, what approach would you take to prioritize NASA's 
planned activities given the current constrained budgetary outlook for 
NASA, and why?

A2. I would stop missions that overrun significantly, and require a 
major replan--not simply a stretch out. These stretch outs put a major 
lien on the future; they are being used far too often. I would increase 
the emphasis on smaller missions, though I recognize that certain 
measurements require major efforts. These major efforts have proven to 
be very problematic. They require a far better technological base, and 
this requires sustained funding.

Q3.  The impact of the cuts made to the space and Earth science budget 
plans relative to the FY05 runout has been exacerbated by cost growth 
in a number of science projects in recent years. What are the reasons 
for the cost growth, and what should be done to address it?

A3. There was adequate leadership in the past, and an inadequate 
technological base for the few missions that were planned and a very 
inadequate technological base for anything new. This leads to problems. 
Moreover, moving programs to the right only raises costs and rarely 
solves problems. In some cases, this shift to the right were caused by 
an inadequate funding wedge, and then the action of stretching out the 
program led to cost growth. The LandSat Data Continuity Missions needs 
to be carefully considered with an eye to cutting costs and 
requirements. With the Global Precipitation Mission, there may have 
been ``requires creep'' (the mission continues to slip to the right); 
if so then this needs to be addressed. Finally and most importantly, 
the Earth science budget needs to be on a sounder footing--I would 
suggest a one percent ramp off the 2005 budget.

Q4.  You paint a pretty bleak picture of the future of Earth Science in 
this country if current trends continue. What are the three most 
important things we need to do to ensure that Earth Observations 
programs remain viable?

A4. As stated, the Earth science budget needs to be on a sounder 
footing--I would suggest a one percent ramp off the 2005 budget. 
Second, there needs to be a technology program that establishes well 
the base for the missions that will be defined in the Decadal Survey--
this requires focused and adequate funding, and not a shotgun approach 
with inadequate monies. Finally, the R&A program must have sufficient 
funding--the proposed FY07 budget does not provide sufficient funding.

Q5.  In your testimony, you mention that the joint U.S.-Japan Global 
Precipitation Mission (GPM) will be delayed two and a half years as a 
result of this budget.

Q5a.  What will be the impact of that delay--why does it matter when 
GPM flies?

A5a. The first order impact of the delay is that it raises costs and 
puts a lien in the timeframe of new opportunities. The data is also 
important, but the major impact is budgetary. The delay makes a bad 
situation worse.

Q5b.  How high a priority should it be to restore GPM to an earlier 
launch date, and what would it take to make that happen?

A5b. I do not know, but the history is troubling--it continues to slip 
to the right and the costs then grow. This program needs to be examined 
and a detailed assessment done.

Q6.  Under the proposed budget, will NASA be investing enough in 
technology risk reduction and concept development for NASA and the 
science community to be able to adequately assess the feasibility and 
likely cost of future missions such as the Terrestrial Planet Finder 
and the Einstein probes? Should we be concerned about NASA's level of 
investment in new technologies?

A6. NO to the first question and YES to the second.

Question submitted by Representative Mark Udall

Q1.  Dr. Cleave indicates in her testimony that NASA will be evaluating 
the potential for lunar science enabled by the Exploration initiative.

        <bullet>  How do we go about ranking such exploration-enabled 
        lunar science against alternative science projects and ensuring 
        we are getting the best science for our money?

A1. Unfortunately, this is outside my range of expertise.

Question submitted by Representative Eddie Bernice Johnson

Q1.  What impact will the empty promise of greater funding have on 
NASA's Science Mission Directorate's ability to plan long-term research 
initiatives?

A1. It would make a bad situation worse.

Questions submitted by Representative Michael M. Honda

Q1.  Does it make sense to cancel the Deep Space Climate Observatory, 
which is a cost-effective project that has received strong support in 
the past, was rated as a high priority by the National Academies and 
plays an important role in infrastructure safety and science? How will 
canceling this mission impact our understanding of the Sun-Earth system 
and our efforts in Earth Science?

A1. I am not expert on this mission. It is my understanding that it 
would provide fresh and unique insight into the Earth radiation budget 
and hence climate change. Also, it provides an exciting new platform 
for understanding the Sun-Earth connection. Given the very troubling 
instrument cancellations in the NPOESS program, and particularly the 
Space Environment Sensor Suite, observations of space weather will be 
in short supply in the future.

</pre></body></html>
